<html>
<title> - CHILD ABUSE AND DECEPTIVE MARKETING BY RESIDENTIAL PROGRAMS FOR TEENS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  CHILD ABUSE AND DECEPTIVE MARKETING
                   BY RESIDENTIAL PROGRAMS FOR TEENS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 24, 2008

                               __________

                           Serial No. 110-89

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
41-839 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 24, 2008...................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    57
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     5
        Prepared statement of....................................     8
        Additional submissions:
            Statement of Madeline McGrotha, alumni of New 
              Horizons for Young Women...........................     6
            Statement of Kelsey Snoke, Kaysville, UT.............     7
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     4
        Questions submitted to witnesses and their responses:
            Dr. Bellonci.........................................    90
            Ms. Brown............................................    91
            Mr. Kutz.............................................    93
            Mr. Martin-Crawford..................................    99
            Ms. Whitehead........................................   100
        Additional submissions:
            Compilation of testimony from Community Alliance for 
              the Ethical Treatment of Youth (CAFETY), Internet 
              address............................................    58
            Letter from Brew and Libby Hagood....................    58
            Abuse at a troubled teen ``faith-based'' program 
              using physical restraint by a ``chemical straight 
              jacket,'' by Doug Hoover...........................    59
            Letters received concerning residential programs for 
              teens..............................................    65
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, Department of Justice reports 
      for fiscal years 2004, 2005, and 2006, Internet address....    44

Statement of Witnesses:
    Bellonci, Christopher, M.D., child/adolescent and adult 
      psychiatrist, medical director, senior clinical consultant, 
      Walker School..............................................    22
        Prepared statement of....................................    24
    Brown, Kay, Director, Education, Workforce and Income 
      Security, U.S. Government Accountability Office............    26
        Prepared statement of....................................    29
    Kutz, Greg, Managing Director, Forensic Audits and Special 
      Investigations, U.S. Government Accountability Office......    10
        Prepared statement of....................................    12
    Martin-Crawford, Jon, former program participant at the 
      Family Foundation School, member, board of advisors, CAFETY    17
        Prepared statement of....................................    20
    Whitehead, Kathryn, former program participant at Mission 
      Mountain School, founder, CAFETY...........................    12
        Prepared statement of....................................    15


 CHILD ABUSE AND DECEPTIVE MARKETING BY RESIDENTIAL PROGRAMS FOR TEENS

                              ----------                              


                        Thursday, April 24, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Scott, McCarthy, 
Kucinich, Wu, Bishop of New York, Sestak, Loebsack, Hirono, 
Altmire, Hare, Shea-Porter, McKeon, Petri, Platts, and Kline.
    Staff present: Tylease Alli, Hearing Clerk; Tico Almeida, 
Labor Policy Advisor; Jody Calemine, Labor Policy Deputy 
Director; Sarah Dyson, Investigative Associate, Oversight; 
Patrick Findlay, Investigative Counsel; Ruth Friedman, Senior 
Education Policy Advisor (Early Childhood); Ryan Holden, Senior 
Investigator, Oversight; Lloyd Horwich, Policy Advisor for 
Subcommittee on Early Childhood, Elementary and Secretary 
Education; Lamont Ivey, Staff Assistant, Education; Brian 
Kennedy, General Counsel; Danielle Lee, Press/Outreach 
Assistant; Sharon Lewis, Senior Disability Policy Advisor; 
Stephanie Moore, General Counsel; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Rachel Racusen, Deputy 
Communications Director; Margaret Young, Staff Assistant, 
Education; Michael Zola, Chief Investigative Counsel, 
Oversight; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Robert Borden, 
Minority General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Kirsten Duncan, Minority Professional 
Staff Member; Alexa Marrero, Minority Communications Director; 
Susan Ross, Minority Director of Education and Human Resources 
Policy; and Linda Stevens, Minority Chief Clerk/Assistant to 
the General Counsel.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order for the purposes of conducting this 
hearing on ``Child Abuse and Deceptive Marketing by Residential 
Programs for Teens.''
    Last October, this committee heard from the parents of 
three children who died in private residential programs as a 
result of abuse and neglect they experienced at the hands of 
staff members. The stories these parents told left everyone in 
this room stunned, heart-broken and angry.
    Bob Bacon testified that program staff members mocked his 
son Aaron when the 16-year-old boy asked for medical help, 
calling him a faker. For weeks, the staff deprived Aaron of 
adequate food and water, even when his weight loss became 
frighteningly apparent.
    Cynthia Harvey told the committee that program staff 
members waited 45 minutes before summoning appropriate medical 
care for her daughter Erica, who had collapsed and was having 
difficulty breathing.
    Paul Lewis testified that program staff members ignored his 
son Ryan's obvious signs of emotional distress, denying him the 
psychiatric care that could have saved his life.
    In each of these cases, it was clear from the parents' 
testimony that the deaths of their children were preventable. 
Untrained, uncaring staff, reckless management and 
irresponsible operating practices permitted these horrible 
tragedies to occur.
    Sadly, the deaths of Aaron, Erica and Ryan are not isolated 
cases. The Government Accountability Office found thousands of 
allegations of abuse and neglect in private residential 
programs for teens between 1990 and 2007.
    The abuses included staff members forcing children to 
remain in so-called ``stress'' positions for hours at a time; 
to undergo extreme physical exertion without food, water or 
rest; and to eat their own vomit.
    The purpose of today's hearing is to gain a better overall 
understanding of the industry in which these types of abuses 
have been allowed, in many cases, to continue almost unchecked.
    Specifically, we will learn more about where these programs 
operate, the loose patchwork of state laws that govern them, 
and how they market themselves to parents.
    We will also discuss legislation that Congresswoman 
McCarthy and I have introduced to keep kids safe in these 
residential programs.
    Residential programs for teens, which come in a variety of 
forms, including therapeutic boarding schools, wilderness 
camps, boot camps and behavior modification facilities, have 
sprung up in greater numbers since the 1990s.
    As we will hear today, a number of these programs use 
deceptive marketing practices to appeal to parents. They claim 
to be subject to independent inspections that never happen. 
They claim to offer services that they don't, like schooling 
with transferable education credits. They assure parents that 
health insurance will cover the cost of their services when, in 
reality, it won't.
    Programs are aided in these deceptions by their 
relationships with ancillary service providers, like referral 
services. While referral services purport to offer independent 
advice to parents about which programs would be best for their 
children, the truth is that at least some of the referral 
services operate with significant conflicts of interest.
    This tangled web of deception, fraud and conflicts of 
interest makes it extremely difficult for parents to judge 
whether any of these programs offer a safe, professional, high-
quality environment for their children.
    We know that there are many programs and many people around 
the country who are committed to helping improve the lives of 
young people and who do good work every day, but it is 
difficult for parents to tell the good programs from the bad. 
And that difference can be lethal.
    Making matters worse, some of these programs operate free 
of minimum standards of care. It is estimated that hundreds of 
these programs operate nationwide, with anywhere from no 
regulation whatsoever to some regulation.
    Even the information that states collect on many of these 
programs is limited. Indeed, in a survey conducted by the GAO, 
state agencies in 45 states could not say whether or not a 
death had occurred at exclusively private residential programs 
for teens in 2006.
    The legislation that Congresswoman McCarthy and I have 
introduced will end the federal government's longstanding 
failure to address this nightmare of abuse and neglect. The 
goal of our legislation is simple: We want to keep the children 
safe.
    This legislation will require the U.S. Department of Health 
and Human Services to establish minimum standards that all 
programs must meet, including prohibitions on the physical and 
mental abuse of children and requirements that programs provide 
children with adequate food, water and medical care.
    These standards will also include new training requirements 
for program staff members, including how to identify and report 
child abuse. The legislation will require Health and Human 
Services to set up a hotline for people to call to report abuse 
at these programs.
    It will also require Health and Human Services to create a 
Web site with information about each program, so that parents 
can look to see if substantiated cases of abuse have occurred 
at the programs they are considering for their kids.
    The legislation will require Health and Human Services to 
enforce these standards by inspecting program facilities and, 
when there is a violation, by issuing civil penalties up to 
$50,000 per violation. Within 3 years, the legislation would 
call upon the states to take up this role of setting standards 
and enforcing them.
    We have an obligation to keep kids safe no matter what 
setting they are in, and this legislation would take the first 
steps toward finally ending the horrific abuses that have gone 
on for far too long in some of these private residential 
programs for teens.
    We must treat this issue with the urgency it demands by 
acting on this legislation quickly.
    Individuals who have themselves lived through this abuse 
are in the hearing room today, as are family members of abuse 
victims. I want to thank all of them for being here to remind 
us why this issue is so important.
    And I wanted to thank our witnesses. We appreciate that you 
took the time to be with us today, and we look forward to 
hearing your testimony.
    At this point, I recognize Congressman McKeon from 
California, who is the senior Republican on the committee. And 
then we will turn to the panel of witnesses for your testimony.
    Congressman McKeon?
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. Welcome to today's hearing on ``Child Abuse and 
Deceptive Marketing by Residential Programs for Teens.''
    Last October, this Committee heard from the parents of three 
children who died in private residential programs as a result of the 
abuse and neglect they experienced at the hands of staff members.
    The stories these parents told left everyone in this room stunned, 
heartbroken, and angry.
    Bob Bacon testified that program staff members mocked his son, 
Aaron, when the 16-year-old boy asked for medical help, calling him a 
``faker.'' For weeks, the staff deprived Aaron of adequate food and 
water--even when his weight loss became frighteningly apparent.
    Cynthia Harvey told the committee that program staff members waited 
45 minutes before summoning appropriate medical care for her daughter, 
Erica, who had collapsed and was having difficulty breathing.
    Paul Lewis testified that program staff members ignored his son 
Ryan's obvious signs of emotional distress, denying him the psychiatric 
care that could have saved his life.
    In each of the three cases, it was clear from the parents' 
testimony that the deaths of their children were preventable. Untrained 
and uncaring staff, reckless management, and irresponsible operating 
practices permitted these horrible tragedies to occur.
    Sadly, the deaths of Aaron, Erica, and Ryan were not isolated 
cases.
    The Government Accountability Office found thousands of allegations 
of abuse and neglect at private residential programs for teens between 
1990 and 2007.
    The abuses included staff members forcing children to remain in so-
called ``stress'' positions for hours at a time; to undergo extreme 
physical exertion without food, water, or rest; and to eat their own 
vomit.
    The purpose of today's hearing is to gain a better overall 
understanding of the industry in which these types of abuses have been 
allowed, in many cases, to continue almost unchecked.
    Specifically, we will learn more about where these programs 
operate, the loose patchwork of state laws that govern them, and how 
they market themselves to parents.
    We will also discuss legislation that Congresswoman McCarthy and I 
have introduced to keep kids safe in residential programs.
    Residential programs for teens--which come in a variety of forms, 
including therapeutic boarding schools, wilderness camps, boot camps, 
and behavior modification facilities--have sprung up in greater numbers 
since the 1990s.
    As we will hear today, a number of these programs use deceptive 
marketing practices to appeal to parents.
    They claim to be subject to independent inspections that never 
happen.
    They claim to offer services that they don't, like schooling with 
transferable education credits.
    They assure parents that health insurance will cover the cost of 
their services when in reality it won't.
    Programs are aided in these deceptions by their relationships to 
ancillary service providers, like referral services.
    While referral services purport to offer independent advice to 
parents about which programs would be best for their children, the 
truth is that at least some of the referral services operate with 
significant conflicts of interest.
    This tangled web of deception, fraud, and conflicts of interest 
makes it extremely difficult for parents to judge whether any of these 
programs offer a safe, professional, high-quality environment for their 
children.
    We know that there are many programs and many people around the 
country who are committed to helping improve the lives of young people 
and who do good work every day, but it is difficult for parents to tell 
the good programs from the bad.
    Making matters worse, these programs often operate free of minimum 
standards of care. It is estimated that hundreds of the programs 
operate nationwide, with anywhere from no regulation whatsoever to some 
regulation.
    Even the information that states collect on many of these programs 
is limited. Indeed, in a survey conducted by the GAO, state agencies in 
45 states could not say whether deaths had occurred at exclusively 
private residential programs for teens in 2006.
    The legislation that Congresswoman McCarthy and I have introduced 
will end the federal government's longstanding failure to address this 
nightmare of abuse and neglect.
    The goal of our legislation is simple--we want to keep children 
safe.
    The legislation will require the U.S. Department of Health and 
Human Services to establish minimum standards that all programs must 
meet, including prohibitions on the physical and mental abuse of 
children and requirements that programs provide children with adequate 
food, water, and medical care.
    These standards will also include new training requirements for 
program staff members, including how to identify and report child 
abuse.
    The legislation will require HHS to set up a hotline for people to 
call to report abuse at these programs. It will also require HHS to 
create a website with information about each program, so that parents 
can look to see if substantiated cases of abuse have occurred at a 
program that they are considering for their kids.
    The legislation will require HHS to enforce these standards by 
inspecting program facilities and, when there are violations, by 
issuing civil penalties of up to $50,000 per violation. Within three 
years, the legislation would call upon the states to take up this role 
of setting standards and enforcing them.
    We have an obligation to keep kids safe no matter what setting they 
are in, and this legislation would take the first step toward finally 
ending the horrific abuses that have gone on for too long in private 
residential programs for teens.
    We must treat this issue with the urgency it demands by acting on 
this legislation quickly.
    Individuals who have themselves lived through this abuse are in the 
hearing room today, as are family members of abuse victims. I want to 
thank you all for being here to remind us why this issue is so 
important.
    I also want to thank all of our witnesses. We appreciate that you 
took the time to be with us today and we look forward to hearing your 
testimony.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller. And good morning.
    We are here today for our second hearing on residential 
treatment facilities for teens. I know I speak for all my 
colleagues when I say that I was deeply troubled by the 
testimony we heard last year.
    Many of these facilities have been established to serve 
children who are deeply troubled. Whether they are suffering 
from drug addiction or severe emotional or behavioral problems, 
many of the youth who enter these facilities are placed there 
by parents as a last resort.
    Yet no parent, no matter how serious the troubles their 
child may face, would knowingly send their child to a place 
where they may be abused or neglected.
    Today's hearing builds on our findings from last year by 
examining the marketing practices of residential treatment 
facilities. Once again, I expect we will hear of some worst-
case scenarios in which parents may have been deliberately 
misled.
    Our witness panel also includes former participants in 
these types of programs. I want to take a moment to thank these 
witnesses for offering their testimony today, when I know they 
have faced some very difficult experiences.
    At the outset of today's hearings, I think it is important 
that we ask the same questions that we asked last year: How 
pervasive are these problems? What safeguards are in place to 
protect against them? And what are the best practices in the 
industry so that we can encourage broader adoption of their 
practices?
    The facilities we are examining today receive no federal 
funding under the Juvenile Justice Programs this committee has 
been working to reform over the past year. Nonetheless, I 
understand that Chairman Miller has introduced legislation that 
would establish a federal regulatory structure and mandate 
state regulatory systems.
    I am eager to work with him on our shared effort to stop 
instances of neglect, abuse and death. At the same time, we 
must be mindful of the ramifications of any new federal 
intervention, in order to ensure these issues are addressed in 
the best, most appropriate and most effective possible manner.
    The question of the scope of the problem will be important 
as we continue to examine the possibility of federal 
legislation. Although even one instance of child abuse and 
neglect is too many, we cannot provide an effective response 
until we understand whether the problems are a few isolated 
incidents or part of a larger pattern.
    We also need to understand how these facilities are being 
regulated under state and local laws. The last thing we hope to 
do is create a patchwork of confusing regulations that would 
undercut our ability or the ability of states to protect young 
people and their families.
    One area I think deserves greater attention in our 
deliberations is the question of what works. We are right to 
focus on cases where children have been harmed or parents have 
been misled. But the picture would be incomplete without also 
examining the stories of those young people who have been able 
to turn their lives around thanks to this type of intervention.
    Mr. Chairman, I request that two pieces of testimony be 
included in the record in order to broaden and enlighten the 
discussion. This testimony comes from two young women who had 
positive, life-changing experiences at residential treatment 
facilities.
    Chairman Miller. Without objection, they will be made part 
of the record.
    [The information follows:]

  Prepared Statement of Madeline McGrotha, Alumni of New Horizons for 
                              Young Women

    I honestly believe I am alive today as a result of the wilderness 
program that I attended. I attended a wilderness program by the name of 
New Horizons for Young Women located in Maine from March 1st, 2006 
until May 1st, 2006. It was the best and most rewarding experience of 
my life and I am truly blessed to have been given the chance to 
experience the help that I received at New Horizons.
    Beginning in middle school I spun into a deep depression. 
Throughout the years it developed into something worse and worse. At 
the age of 16 I dropped out of high school and didn't see any reason 
for myself to keep living. I hated myself, my family, and the world. 
People had tried to help me in any way that they could, but I was 
extremely defiant and not receptive to any of the help that was being 
offered to me. I had been to numerous therapists, tried many different 
prescription drugs for my depression, but nothing seemed to work. I 
needed something more, something that I couldn't get in the environment 
that I was in.
    Wilderness took me out of my normal environment. It removed me from 
my family problems, a harmful boyfriend, and a crowd of people that I 
didn't need to associate myself with. It allowed me to focus on myself 
for the first time in my life. I was surrounded by people who cared 
about my well being and showed that to me in every possible way they 
could.
    While I was in the wilderness program I gained so much confidence 
through completing the day to day activities that we had to do. In the 
program we lived in tents in the woods of Maine. Before this experience 
I had never even been camping before, so living in the woods for two 
months is a huge accomplishment for me and something that I am very 
proud of. I learned to saw down small trees, make a fire without a 
lighter, cook my own food along with many other things I would have 
never thought I would be able to do. We hiked during the day and even 
though it was physically hard sometimes, it wasn't anything too 
strenuous and it was actually very therapeutic. On these hikes it gave 
me time to really think about things, most importantly to me, the 
relationship with my mother and father which had become so damaged and 
destructive over the past couple of years. It also gave me a chance to 
talk in a non threatening environment with the counselors about the 
thoughts I was having. Wilderness in my experience was in no way a boot 
camp and after the first week it was apparent that this was not 
punishment but a tool to help me grow into the person that I 
unknowingly wanted and needed to be.
    I want to personally make sure that every person is able to 
continue to get the help that they so desperately need from these types 
of programs. These programs save lives and I can't stress enough how 
important that is. I truly feel like my success is a direct result of 
the program that I attended. I graduated on time from a traditional 
boarding school in Texas called San Marcos Baptist Academy and 
currently am studying psychology at the University of North Florida. I 
am also involved in a sorority on campus, Kappa Delta. Another huge 
accomplishment is the mended relationships that I have developed with 
my mother and father, which is extremely important to me. After my 
experience I learned to successfully function in society and I feel 
that none of this would have been possible without my life changing 
experience in my wilderness program.
                                 ______
                                 

           Prepared Statement of Kelsey Snoke, Kaysville, UT

    My name is Kelsey Snoke and I am 18 years old. I am writing this to 
give you a brief feel of my story.
    When I was in about eighth grade I started having bad mood swings, 
depression, and anxiety. When I was feeling down, I started cutting and 
burning myself to forget about what I was feeling. It never got any 
better, just worse.
    I started going to a therapist regularly. It was hard because I 
couldn't find one that I connected with. The end of my ninth grade was 
the beginning of the worst of the problems I was having. I started 
going to day treatment during the day and at night would go home. I 
also spent two separate weeks in acute treatment. After I was finished 
with these programs, I was doing well for a few months and then fell 
back into the same behaviors. My parents and I began to realize that it 
was only a short term fix and didn't really do much for me long term. I 
started hating school and refused to go any more. I was way behind on 
my work and honestly never thought I would ever finish high school.
    Things started getting severely out of control. My parents weren't 
sure how to help me anymore and started looking for other options. I 
knew I needed help and agreed with my parent's decision to find a long 
term residential program. They researched the different options and 
found a program in Spanish Fork Utah called New Haven.
    The three of us were able to visit the campus to take a tour and 
got to meet with some girls that were in the program. I knew right then 
that it was a place that could help me. My parent's took me to New 
Haven right after Thanksgiving in 2006 to start the program and I ended 
up staying for nine and a half months.
    It was very difficult at first being in a new place and not being 
able to see my family every day. I was very nervous and didn't want to 
participate in activities and groups. I soon realized that I needed to 
open up and start working on my issues. There was a lot of work 
involved in progressing in the program that included me and my parents.
    There were many group activities such as tasks for recreational 
therapy, equine therapy, as well as group therapy on specific topics 
that helped me learn to trust my peers and people around me.
    Every six weeks New Haven held a family weekend for parents to come 
and participate with their girls in activities around campus. On the 
second family weekend, some things happened that was a turning point in 
my treatment.
    There was a rope course in the field that was about thirty feet 
high with a rope and log ladder and a suspended log beam at the top. I 
always looked at it and hoped I would never have to do any activities 
with it. When it was our family's turn for rec. therapy, the therapist 
told me I needed to get over my fear and climb the rope course. I was 
overwhelmed and scared to death. They helped me put on a harness and 
other equipment and then we got started. I was to climb the ladder that 
was swaying with each step and had to say something that I am capable 
of with each step. It was very difficult and scary, but I did it! At 
the top I walked across the beam and stood there reflecting on what I 
had done before I came down. I was very proud of myself for 
accomplishing this task. This is only one of the many things I did that 
taught me that I can do anything I put my mind to do.
    New Haven has been a very positive experience for me. I don't know 
where I would be in my life if I hadn't completed this program. I have 
learned so many things. I can go to my family when there are problems 
and need support. I have learned to build positive relationships. I 
have learned to be independent and do things on my own. I have learned 
to accept responsibility for my actions. I'm finishing my senior year 
of high school and will be graduating on time. I can do things I never 
thought I could do. But most of all--I learned to love myself!
                                 ______
                                 
    Mr. McKeon. Once again, I want to thank Chairman Miller for 
his leadership on this issue, and I want to thank each of our 
witnesses for being here to explore this important issue.
    I expect that we will proceed thoughtfully, cautiously and 
deliberately on this issue in the coming months in an effort to 
ensure youth and their families are protected.
    And I yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller, and good morning. We're here today for 
our second hearing on residential treatment facilities for teens.
    I know I speak for all my colleagues when I say that I was deeply 
troubled by the testimony we heard last year. Many of these facilities 
have been established to serve children who are deeply troubled. 
Whether they are suffering from drug addiction or severe emotional or 
behavioral problems, many of the youth who enter these facilities are 
placed there by their parents as a last resort. Yet no parent, no 
matter how serious the troubles their child may face, would knowingly 
send their child to a place where they may be abused or neglected.
    Today's hearing builds on our findings from last year by examining 
the marketing practices of residential treatment facilities. Once 
again, I expect we will hear of some worst case scenarios in which 
parents may have been deliberately misled. Our witness panel also 
includes former participants in these types of programs. I want to take 
a moment to thank these witnesses for offering their testimony today, 
when I know they faced some very difficult experiences.
    At the outset of today's hearing, I think it's important that we 
ask the same questions that we asked last year: how pervasive are these 
problems? What safeguards are in place to protect against them? And 
what are the best practices in the industry, so that we can encourage 
their adoption?
    The facilities we are examining today receive no federal funding 
under the juvenile justice programs this committee has been working to 
reform over the past year. Nonetheless, I understand that Chairman 
Miller has introduced legislation that would establish a federal 
regulatory structure and mandate state regulatory systems. I am eager 
to work with him on our shared effort to stem instances of neglect, 
abuse and death. At the same time, we must be mindful of the 
ramifications of any new federal intervention in order to ensure these 
issues are addressed in the best, most appropriate, and most effective 
possible manner.
    The question of the scope of the problem will be important as we 
consider the possibility of federal legislation. Although even one 
instance of child abuse and neglect is too many, we cannot provide an 
effective response until we understand whether the problems are a few 
isolated incidents or part of a larger pattern.
    We also need to understand how these facilities are being regulated 
under state and local laws. The last thing we hope to do is create a 
patchwork of confusing regulations that would undercut our ability, or 
the ability of states, to protect young people and their families.
    One area that I think deserves greater attention in our 
deliberations is the question of `what works'. We are right to focus on 
cases where children have been harmed or parents have been misled. But 
the picture would be incomplete without also examining the stories of 
those young people who have been able to turn their lives around thanks 
to this type of intervention. Mr. Chairman, I request that two pieces 
of testimony be included in the record in order to broaden and 
enlighten the discussion. This testimony comes from two young women who 
had positive, life changing experiences at residential treatment 
facilities.
    Once again, I want to thank Chairman Miller for his leadership on 
this issue, and I want to thank each of our witnesses for being here to 
explore this important issue. I expect that we will proceed 
thoughtfully, cautiously, and deliberately on this issue in the coming 
months in an effort to ensure youth and their families are protected. I 
yield back.
                                 ______
                                 
    Chairman Miller. Thank you.
    The chair notices the presence of a quorum. And before 
introducing our witnesses, let me briefly lay out how we will 
proceed in today's hearing.
    Because of the importance of this issue, I am exercising 
the right to extend the 5-minute rule for myself and Mr. 
McKeon. Following the witnesses' testimony, we will each have 
15 minutes apiece for questioning.
    It is our intention to yield 5 minutes of our time to the 
chairwoman and senior Republican of the Subcommittee on Healthy 
Families and Communities, Ms. McCarthy and Mr. Platts.
    Following the expiration of extended questioning, all of 
the members will be recognized for 5 minutes.
    And, with that, let me introduce our witnesses.
    Our first witness will be Mr. Gregory Kutz, who is 
currently the managing director of GAO's Forensic Audits and 
Special Investigation unit. Mr. Kutz has testified and written 
investigative reports about the federal government's handling 
of Hurricanes Katrina and Rita, military pay problems at the 
Department of Defense, and smuggling of nuclear materials 
across our nation's borders, among other important issues.
    He is accompanied by Andy O'Connell, the assistant director 
of investigations at GAO.
    Kathryn Whitehead is a former program participant at 
Mission Mountain School, where she spent 18 months as a 
teenager. She currently works for the Mental Health Association 
of New York City's Coordinated Children's Services Initiative, 
working toward keeping struggling youth in their communities. 
Ms. Whitehead is also a co-founder of the Community Alliance 
for the Ethical Treatment of Youth, an advocacy organization 
whose mission is ending human rights abuses of youth in 
residential programs.
    Jon Martin-Crawford is a former program participant at the 
Family Foundation School, where he spent almost 2 years as a 
teenager. Jon is currently working toward a double master's in 
English and secondary education, and is also working with the 
Community Alliance for the Ethical Treatment of Youth, hoping 
to shed light on the troubled teen industry.
    Dr. Christopher Bellonci is the board-certified child/
adolescent/adult psychiatrist, who has worked in residential 
treatment in school consultation since completing his child 
psychiatry training at McLean Hospital in 1993. He is currently 
the medical director and senior clinical consultant at Walker 
in Needham, Massachusetts, working with children experiencing 
severe emotional and behavioral disorders secondary to major 
mental illnesses, trauma and developmental disorders. Dr. 
Bellonci is on the Mental Health Advisory Board of the Child 
Welfare League and is a board member of the American 
Association of Children's Residential Centers.
    Kay Brown is the director of GAO's Education, Workforce and 
Income Security team and has more than 20 years' experience at 
GAO. She is responsible for GAO's work related to child 
welfare, child support, domestic nutrition assistance, among 
other social programs. Throughout her career at the GAO, Ms. 
Brown has managed projects that focused on improving 
governmental performance and services to children and families, 
disability and retirement benefit delivery, and customer 
service and program integrity.
    She is accompanied by Cindy Ayers, assistant director for 
Education, Workforce and Income Security at the GAO.
    And, Mr. Kutz, we will begin with you. And I believe under 
our arrangement, you will be allowed 10 minutes. As you know, 
there will be an orange light when there is 1 minute left and 
then a red light, and we hope that you will be able to wrap up 
your testimony, but we clearly want you to be able to complete 
your thoughts in a coherent fashion.
    Welcome to the committee, and thank you for your work.

STATEMENT OF GREG KUTZ, MANAGING DIRECTOR, FORENSIC AUDITS AND 
 SPECIAL INVESTIGATIONS, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Kutz. Mr. Chairman and members of the committee, thank 
you for the opportunity to discuss residential programs for 
troubled youth.
    Last year I testified that negligent practices contributed 
to the death and abuse of troubled youth. Today's testimony 
responds to your request that we continue our work in this 
area.
    My testimony has two parts. First, I will discuss cases of 
death and abuse. Second, I will discuss industry marketing 
practices. I will also play excerpts from telephone calls we 
made to certain programs while posing as fictitious parents 
with troubled youth.
    First, we took an in-depth look at eight cases of youth 
that died or were allegedly abused at private programs. It is 
important to note that we did not evaluate the benefits of 
these programs. In addition, the results of case studies cannot 
be projected to all programs.
    For these cases, we found that untrained staff and 
ineffective management contributed to the death and abuse of 
youth. Human restraint also played a key role in several cases. 
The following examples will provide more detail.
    First, one group became lost and spent several additional 
hours hiking when the reported heat index outside was 120 
degrees. A 14-year-old boy, weighing 250 pounds, had problems 
breathing, but was encouraged by the staff to continue. When he 
returned to the camp, he collapsed against a tree and fell to 
the ground. Staff believed that he was faking it until he 
vomited, became unresponsive and ultimately died.
    A 17-year-old male jumped off of a building in a suicide 
attempt and severely broke his left arm, with the bone exposed. 
Despite this severe wound, the boy was punched, slammed against 
walls and rolled in the dirt. He was beaten so severely that he 
forgot who he was and he became unconscious. These beatings 
continued for 2 weeks before he was finally given medical 
treatment.
    A 16-year-old boy having trouble breathing and walking was 
tortured and humiliated for days. One staff member told the boy 
that he deserved an Academy Award for faking it. He died later 
that day. An autopsy report for this boy showed 71 contusions 
and abrasions from head to toe.
    Another 16-year-old boy with asthma was placed in a face-
down restraint by three staff members before he died. Another 
boy was restrained more than 250 times, including two times for 
more than 12 hours each. A 12-year-old boy, weighing 87 pounds, 
was placed in a face-down restraint with a staff member lying 
on top of him until he died.
    And a staffer referred to as the ``drill instructor'' 
trained his pitbull to bite people in the crotch on command. A 
17-year-old boy experienced this painful abuse.
    Other kids in these and other programs also experienced 
disturbing abuse. For example, boys at one boot camp were 
required to stand with bags over their head and a hangman's 
noose around their neck. The rope on this noose was tightened 
to simulate a hanging. The individual responsible for this told 
officers that this was an appropriate form of discipline.
    Another boy was forced to lie face-down on a red ant hill 
and was not allowed to brush the ants off of his face or his 
body. In a separate incident, this boy was required to lie on 
his stomach for 10 hours. He was only allowed to get up to 
vomit, and then he was required to clean up his vomit before he 
got down on the ground again.
    And finally, the posterboard shows the picture of a horse 
in Canada. This horse was starved, as you can see by the 
protruding ribcage. Neglect also resulted in the problems with 
the hoof that you see on the picture.
    You are probably wondering what this has to do with today's 
hearing. Here is the interesting answer to that question: This 
horse belonged to the owner of one of our case-study programs. 
This owner was convicted in Canada for cruelty to 39 horses and 
seven Golden Retrievers.
    Although he received a lifetime ban from taking care of 
animals in Canada, he was allowed to take care of teenagers 
here in the United States, and the results should not be 
surprising. He and his wife were cited in Utah for, among many 
things, use of profane language to humiliate youth, improper 
seclusion, and rat infestation.
    Let me move on to my second point of my testimony here. 
Posing as fictitious parents with troubled teenagers, we called 
a number of programs and referral services to see what they 
would tell us. What we found were examples of deceptive and 
other questionable marketing practices. Let me describe a few 
of these cases for you.
    First, one program told our fictitious parent that they 
must apply to have their child admitted to the program. 
Although we never actually applied, the posterboard on my right 
shows that our fictitious child, Devon, was approved for 
admission to this program.
    One fictitious parent was also told that membership in a 
trade association was like a Good Housekeeping seal of 
approval. One program went so far as to tell us that site 
inspections were performed by this association. The reality is 
that this association simply collects dues but does no due 
diligence of any programs.
    And one referral service told our fictitious parent that 
the boot camp they recommended feeds the child a whole-grain 
diet and that, along with exercise and rest, ``the bipolar, the 
depression, those kinds of things, they just go away after a 
while.''
    Our fictitious parent heard other deceptive and 
questionable information during our undercover calls. Issues 
related to taxes, reimbursement of health insurance, and 
education provided.
    One explanation for these shady marketing practices relates 
back to the root cause of many problems: money. These programs 
aren't cheap. Costs for the programs that we called ranged from 
$2,800 per month to over $13,000 per month.
    In conclusion, we, as a country, judge other countries 
harshly for their human rights violations. Yet, at the same 
time, we found torture and abuse of youth across the United 
States. I can't tell you how widespread this problem is, but if 
the only horror stories are the ones that I have described for 
you, then isn't that enough?
    Mr. Chairman, I want to commend you for your continued 
oversight of this matter. We support the committee's efforts to 
put a framework of oversight and control in place over these 
programs. Although the youth we are talking about today are 
troubled, that shouldn't be an excuse for anybody to torture 
and abuse them.
    I now want to play the excerpts I mentioned at the 
beginning of my statement here of some of the phone calls we 
made, posing as fictitious parents with troubled youths. And 
what you will see on the screen, assuming it works, is the 
transcriptions of these conversations on the monitor while you 
listen.
    [Audio clip played.]
    Mr. Kutz. Mr. Chairman, thank you for being generous with 
my time, and that ends my statement.
    [The statement, ``Residential Programs: Selected Cases of 
Death, Abuse, and Deceptive Marketing,'' may be accessed at the 
following Internet address:]

                http://www.gao.gov/new.items/d08713t.pdf

                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Whitehead, welcome again. You will be given 5 minutes. 
And at some point, there will be an orange light in front of 
you, and that will give you an idea that there is about a 
minute. But, again, we want you to complete your thoughts in a 
manner that you are comfortable with.
    Thank you.

  STATEMENT OF KATHRYN WHITEHEAD, FORMER PROGRAM PARTICIPANT, 
                    MOUNTAIN MISSION SCHOOL

    Ms. Whitehead. Good morning, Chairman Miller, Ranking 
Member McKeon and distinguished members of the committee. Thank 
you for this opportunity to testify before you today. I 
appreciate your leadership and efforts to help protect youth 
from abuse and neglect by convening this hearing.
    I am here to share the tragic experience of myself and 
family at an unregulated facility in Montana called Mission 
Mountain School, a NATSAP member program where the headmaster, 
John Mercer, served on the board of directors for several 
years.
    I will also speak on behalf of a youth survivor advocacy 
group, the Community Alliance for the Ethical Treatment of 
Youth, to the general concerns of youth placed in private 
residential care.
    At the age of 13, I was diagnosed with chronic depression 
following a suicide attempt and hospitalized at a local 
psychiatric hospital. When I was discharged, lacking any 
community-based support, my family sought to identify services 
outside of my community and found Mission Mountain School at 
the recommendation of a hired educational consultant.
    Mission Mountain School held great promise, as it was sold 
to us as a small, family-like therapeutic environment for girls 
ages 12-18 with above-average intelligence. I packed my 
treasured belongings, reminders of home, and my mom and I flew 
out to Montana.
    I felt hopeful that maybe this special school for kids like 
me would help, as they claimed to have the ability to treat any 
myriad of serious psychiatric issues, such as bipolar disorder, 
eating disorders and depression. Sadly, this couldn't be 
further from the truth.
    Upon arrival, I quickly encountered the punitive and 
invasive interventions which would come to define my 18 months 
at Mission Mountain School. My mom left me shortly after we had 
arrived, and most of my belongings were taken from me.
    I never received any explanation of the rules of the 
program, though the rules quickly took shape during the series 
of group sessions held daily. Everyone was called out in group 
when they first arrived. Every infraction was framed as an act 
of dishonesty. We were all labeled liars and manipulators upon 
arrival.
    Often there were punishments when we were thought to have 
been dishonest, euphemistically called ``consequences.'' 
Consequence always involved some type of physical punishment: 
forced labor, exercise, labor such as ice-picking, rock-
picking, and chopping wood. More serious rule-breaking would 
result in what was called an ``intervention,'' which was work 
crew all day long, with breaks only during group chores and 
mealtime.
    There were personal interventions and group interventions. 
Sometimes the group was put on interventions which would last 
weeks, if not months, and during this time no contact was 
allowed with the outside world--in contrast to our already 
monitored and censored contact under usual conditions.
    It was generally understood that we were being exhausted 
for the purpose of making us more truthful, whatever that meant 
to those in charge. Exercise was a rigorous daily requirement. 
Slowing down from exhaustion only resulted in more exercise or 
getting yelled at. Staff would often use profanity.
    I was not allowed to speak with my family for months after 
I arrived, and calls thereafter were monitored. Any criticisms 
were labeled as ``manipulative,'' and my phone call was 
promptly disconnected, followed by punishment.
    The most powerful figure at the facility was a headmaster 
with no formal training in mental health and whose group 
therapy sessions were particularly bizarre and frightening. He 
was often confrontational or would smirk and laugh.
    He would attempt to unearth repressed memories and 
encourage regressive states. I recall on multiple occasions my 
friends speaking as if they were toddlers, recounting alleged 
instances of abuse. Hours would be spent with girls reliving 
their traumatic experiences at the unqualified hands of the 
staff.
    Intensive group sessions sometimes lasted all night. 
Bathroom use was prohibited. Any allegations of abuse discussed 
in group therapy were never reported by staff to proper 
authorities.
    Because all the founders were members of A.A., it seemed to 
them that everyone was an addict of sorts. I was deemed an 
alcoholic and a sex addict. A close friend was deemed a sex 
addict. She had never had sex in her life and denied the claim. 
And as a result, staff forced her to carry six large rocks on 
her back at all times for several months, naming them issues 
like ``sexual abuse'' and ``sex addiction,'' causing bruising 
along her spine.
    At other times, inappropriate and humiliating interventions 
were used, such as forbidding youth from talking for several 
weeks, forcing youth to wear gloves because it was thought they 
were masturbating, or tying two girls together because they 
didn't get along.
    When I got caught with a plan to run away, I was placed on 
a personal intervention, where I had to rock-pick for a week, 8 
to 10 hours a day, and at one point dropped off 25 miles from 
school and forced to hike back. This was all done in the name 
of therapy.
    Education was nearly nonexistent; claims of illness taken 
as manipulative. We had no access to advocates, no rights 
whatsoever.
    Then one day, 18 months later, I was told I was to be 
discharged. I had visited home maybe twice while there and was 
ever more grossly ill-prepared to function in the world. My 
nights were filled with a reoccurring nightmare of being chased 
by the founders and brought back to the facility, despite 
protests that I was healthy now.
    In the end, all Mission Mountain School gave me was more 
confusion, increased anxiety and depression, and made social 
functioning after discharge ever more difficult.
    The work I have done since then I anticipate will speak to 
the broad pattern of atrocities Dr. Pinto commented on in her 
testimony at the hearings in October 2007.
    As co-founder and executive director of the Community 
Alliance for the Ethical Treatment of Youth, I have heard from 
over 1,000 survivors and understand that, in most instances, 
parents remain unaware of the abuse their children have 
experienced and often firmly believe the program saved their 
child's life.
    To me, this is the saddest repercussion of these 
facilities. At once not only is the trust between parent and 
child broken, but the truth is further hidden behind the facade 
promulgated by deceived parents.
    What I am hoping to convey----
    Chairman Miller. Ms. Whitehead, I am going to ask you to 
wrap up, if you might.
    Ms. Whitehead. What I am hoping to convey today through my 
testimony is that numerous residential facilities that are in 
operation are stripping youth of their basic human rights to 
dignity, respect, to least restrictive care, appropriate mental 
health treatment, to education and parental contact, to freedom 
of thought and opinion, and ultimately to freedom from 
censorship and torture.
    The legitimate practice of therapeutic intervention is 
being injected with a perverse form of social control, 
including inhumane treatment practices, which defy the ethical 
principles upheld by peer-reviewed mental health practices.
    I believe this bill to be a promising and important first 
step in curbing such draconian methodology and applaud Chairman 
Miller for introducing the first piece of comprehensive 
legislation to that end.
    Thank you.
    [The statement of Ms. Whitehead follows:]

Prepared Statement of Kathryn Whitehead, Former Program Participant at 
   Mission Mountain School and Founder of Community Alliance for the 
                  Ethical Treatment of Youth (CAFETY)

    Good morning Chairman Miller, Ranking Member McKeon and 
distinguished members of the Committee. Thank you for this opportunity 
to testify before you today. I appreciate your leadership and efforts 
to help protect youth from abuse and neglect by convening this hearing.
    I am here to share the tragic experience of myself and family at an 
unregulated facility in Montana called Mission Mountain School. I am 
also here to tell you about the patterns of mistreatment and abuse of 
youth in residential programs across the country, which I have become 
aware of through my work with the youth advocacy group, Community 
Alliance for the Ethical Treatment of Youth. Finally, I will offer my 
perspective on the ways in which legislation could help to increase 
protections and at long last bring an end to the atrocious mistreatment 
of American youth in residential facilities across the country.
    My story is one of a youth battling mental illness, a group of 
Montana residents taking the liberty to assume that their own 
experience as recovering alcoholics was qualification enough to operate 
a facility for struggling youth, and parents operating from a place of 
gullible desperation, willing to spend upwards of $70,000 to fund a 
fictitious therapeutic milieu that amounted to little more than 
humiliation, deprivation and abuse--leaving in its wake a family torn 
apart and a traumatized 15 year old.
    At the age of 13 I was diagnosed with chronic depression following 
a suicide attempt, and hospitalized at a local psychiatric hospital. 
When I was discharged, lacking any community based support, my family 
sought to identify services outside of my community and found Mission 
Mountain School at the recommendation of a hired educational 
consultant.
    Mission Mountain School held great promise, as it was sold to us as 
a small family-like therapeutic environment for girls ages 12-18 with 
above average intelligence. It was located in picturesque Condon MT. 
Though I felt unspeakable grief at leaving my family and all that was 
familiar to me behind, I knew I needed help. I packed my treasured 
belongings, reminders of home, and my mom and I flew out to MT. I felt 
hopeful, that maybe this `special school' for kids like me would help 
me, as they claimed to have the ability to treat any myriad of serious 
psychiatric issues, such as bipolar disorder, eating disorders and 
depression.
    Sadly, this could not be further from the truth. Upon arrival I 
quickly encountered the punitive and invasive interventions, which 
would come to define my 18 months at Mission Mountain School.
    My mom left me shortly after we had arrived and my belongings were 
taken from me. I never received any explanation of the rules of the 
program, though the rules quickly took shape during the series of 
groups sessions held daily. Everyone was called out in group when they 
first arrived--every infraction was framed as an act of dishonesty. We 
were all labeled ``liars'' and ``manipulators'' upon arrival. Our daily 
diaries were read, and compared to the detailed life histories that we 
were forced to write soon after arrival, which were required to include 
details of every sexual encounter we had experienced in our short lives 
to ensure accuracy.
    Often there were `punishments' when we were thought to have been 
dishonest, euphemistically called ``consequences.'' Consequence always 
involved some type of physical punishment--forced labor, such as ice 
picking, rock picking, and chopping wood. More ``serious'' rule 
breaking would result in what was called an ``intervention,'' which was 
work crew all day long with breaks only during group, chores and 
mealtime.
    Sometimes the group was put on ``interventions'' which would last 
for weeks if not months, and during this time no contact was allowed 
with the outside. It was generally understood that we were being 
exhausted for the purpose of making us more truthful--whatever that 
meant to those in charge. Exercise was a rigorous daily requirement. 
Slowing down from exhaustion only resulted in more exercise or getting 
yelled at.
    I was not allowed to speak with my family for months after I 
arrived, and calls thereafter were monitored. Any criticisms were 
labeled as ``manipulative'' and my phone call was promptly 
disconnected, followed by punishment. If at some point we ``advanced'' 
enough in the program to not require such monitoring, that just meant 
that by that point, we were no longer expressing our concerns because 
we knew our parents wouldn't believe us anyway.
    The most powerful figure at the facility was the headmaster who has 
no formal training in mental health and whose group therapy sessions 
were particularly bizarre and frightening. He was often confrontational 
or would smirk and laugh. He would pit friends against friends, and 
force us to say mean things to one another. He would attempt to unearth 
repressed memories and encourage regressive states. I recall that on 
multiple occasions my friends speaking as if they were toddlers, 
recounting alleged instances of abuse. Hours would be spent with girls 
reliving their traumatic experiences at the unqualified hands of the 
staff. Intensive group sessions sometimes lasted all night. Bathroom 
use was heavily regulated. Any allegations of abuse discussed in group 
``therapy'' were never reported by staff to proper authorities.
    Because all of the founders were members of AA, it seemed to them 
that everyone was an addict of sorts. I was deemed an alcoholic and sex 
addict, a close friend was deemed a sex addict. She had never had sex 
in her life, and denied the claim and as a result, staff forced her to 
carry 6 large rocks on her back at all times for several months, naming 
them issues like ``sexual abuse'' and ``sex addiction,'' until she 
conceded to staff that each issue was true, detailing traumatizing 
experiences supportive of that claim. When I got caught with a plan to 
run away I was placed on personal intervention where I had to rock pick 
for a week, eight to ten hours a day, at one point dropped off 25 miles 
from school and forced to hike back. This was all done in the name of 
therapy.
    At other times inappropriate and humiliating interventions were 
used such as forbidding youth from talking for several weeks at a time, 
forcing youth to wear gloves because it was thought that they 
masturbated, or tying two girls together because two girls didn't get 
along. Claims of illness were framed as manipulative.
    Education was non-existent; schooling a joke. We would have 
schooling maybe a few hours a day a couple days out of the week. I 
taught myself algebra, and uncertified teachers taught English and 
Spanish. We weren't allowed any information about the outside word such 
as newspapers or news magazines. I learned next to nothing. It wasn't 
until I was nearing graduation from Mission Mountain School that I 
underwent testing outside of the facility and was diagnosed with a 
learning disability.
    We had no access to advocates, no rights whatsoever. Groups of 
educational consultants would come in on occasion for a visit. They 
were always impressed by our manners and ability to be so forthcoming. 
None came to the facility unannounced. None asked us for our honest 
opinions of the program * * * although even if they had, given the 
insidious fear-based environment, it's doubtful I would've spoken--it 
wasn't long before I was broken down and I came to believe what I was 
told: that Mission Mountain School was to be the only place that could 
save me from myself or I'd end up in ``jail, insane or dead''. The 
cumulative effect of the program was losing all sense of self.
    Then one day, 18 months later, I was told I was to be discharged. 
None of it made any sense to me--though I was told I had been given the 
tools to live, I found it difficult to reconcile their claim with my 
internal landscape. My nights were filled with a reoccurring nightmare 
of being chased by the founders and brought back to the facility, 
despite my protests explaining that I was healthy now. In the end, all 
Mission Mountain School gave me was more confusion, increased anxiety 
and depression, and made social functioning after discharge evermore 
difficult. It wasn't until 10 years later that I came to recognize the 
damage done and sought change.
    I'd like to speak about the work I've done since then, which will 
hopefully speak to the broad pattern of atrocities Dr. Pinto commented 
on in her testimony at the hearings in October 2007. As co-founder and 
Executive Director of the Community Alliance for the Ethical Treatment 
of Youth, I have heard from over one thousand survivors and understand 
that, in most instances, parents remain unaware of the abuse their 
children have experienced and often firmly believe the program saved 
their child life. To me, this is the saddest repercussion of these 
facilities. At once not only is the trust between parent and child 
broken, but the truth of the youth is further hidden behind a facade 
promulgated by deceived parents. In my communications the majority of 
folks I've been in contact with have reported first hand with regards 
to:
    <bullet> Trauma due to use of escort services
    <bullet> Communication and privacy rights violations such as mail-
monitoring, call-monitoring and filtering, restricted or interrupted 
correspondence.
    <bullet> Inappropriate Seclusion and Restraint
    <bullet> Inhumane Treatment such as:
    Forced labor
    Restricted access to the bathroom
    Scare tactics
    Exposure to harsh elements
    Excessive exercise
    Food/nutritional deprivation
    Sleep deprivation
    Physical punishment
    Emotional, physical or sexual abused by staff
    <bullet> Education and Mental Health Treatment
    no individualized plan
    dissatisfaction with the training background of the staff
    members who were providing education, therapy,
    support and/or care
    What I am hoping to convey today through my testimony is that 
numerous residential facilities that are in operation today are 
stripping youth of their basic human rights to dignity, respect, to 
least restrictive care, appropriate mental health treatment, to 
education and parental contact, to freedom of thought, opinion and 
association, and ultimately to freedom from censorship and torture. The 
legitimate practice of therapeutic intervention is being injected with 
a perverse form of social control, including inhumane treatment and 
practices, which defy the ethical principles upheld by peer reviewed 
mental health practices.
    As a nation it is our obligation to hold places of care accountable 
to their claim. A nation with the best interest of the child in mind 
must be in the position to assure this is occurring. For this reason it 
is critical that oversight is stringent enough for this to occur, it is 
questionable that youth safety can be assured if visits occur once 
every 2 years. Quality assurance is paramount--if a place claims to be 
a place of healing a facility must be able to back up such claims. It 
is our nations responsibility to families to ensure not just that abuse 
is not occurring, but that therapy is never used as justification for 
the violation of the human rights of youth. Consistent with such 
commitment, every youth ought be entitled to the least restrictive care 
possible. Facilities must be held accountable to claims that deceive 
parents into thinking that no alternative exists and that years of 
imprisonment are a necessary therapeutic intervention. Of concern are 
misinformed families who lack community support and feel they have no 
alternative but to choose institutionalize their child (unnecessarily) 
at the behest of programs concerned with their interests over that of 
the youth.
    I strongly believe this bill to be a promising and important first 
step in curbing such draconian methodology this industry has been 
founded upon and applaud Chairman Miller for introducing the first 
piece of comprehensive legislation to that end.
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much.
    Mr. Martin-Crawford?

 STATEMENT OF JON MARTIN-CRAWFORD, FORMER PROGRAM PARTICIPANT, 
                  THE FAMILY FOUNDATION SCHOOL

    Mr. Martin-Crawford. First, I would like to thank the 
chairman and the committee for the opportunity to present my 
side of this story.
    After watching the hearing back in October, I was truly 
inspired by the clear case of morality that brought together 
both sides of the aisle on this discussion.
    We have been called noisy complainers, and we have been 
called manipulating troublemakers, but after over 10 years, I 
finally have my chance to speak.
    My name is Jon Martin-Crawford, and I was locked up at a 
NATSAP-affiliated program, The Family Foundation School, in 
Hancock, New York, from 1995 to 1997.
    My life at home was anything but stable, causing me to seek 
my own release from it all. I created a persona for myself, the 
troublemaker at school, always looking for attention I didn't 
get at home. I was involved in drugs by the age of 13. I was 
lost, constantly in fights, legal run-ins and more. My parents 
were at wits' end. My only release was my music, my writing and 
my skateboarding.
    After being expelled from public school and one private 
school for marijuana use and writing an underground newspaper, 
my parents were told to send me to The Family shortly 
thereafter, thinking it would give me what I needed.
    Once I arrived at The Family, I knew I was there until I 
was 18. I went through what seems like the ritualistic 
stripping of identity almost all of us survivors faced. I was 
stripped; my clothes were taken and thrown away. My music, my 
art, my skateboard all destroyed. What I didn't have with me my 
parents were told to destroy as well. I was left with only a 
letter from my mother for the next 3 months.
    I had been to some in-patient settings before, but this one 
was different. Other places allowed phone calls, mail and peer 
communication. Here, I wasn't even allowed to call home the 
first few months. Even after that, I only got that one phone 
call home a week, nothing more--no access to CPS.
    Here I was only allowed to talk to staff and kids that had 
been there more than 6 months. I was told I was denying the 
extent of my drug use, and I was confused as to just how I 
would ``get better'' enough to see my family. I sat and watched 
and learned to play the game of lies necessary to get 
privileges and eventually get out. I was lucky and figured 
these rules out quickly enough not to endure what I saw many 
kids endure.
    But I witnessed it all, including staff punching students 
in the face while restraining, not once but several times. 
Typical restraint procedures were wrapping kids up in duct tape 
and blankets. Kids were not let out of this wrap, even to use 
the bathroom, for feminine hygiene, or just to move around a 
little bit and extend their limbs.
    Restraints were not only done by faculty, but students as 
well. Usually, this was even more brutal and was often done in 
front of all other students to show what will happen if you act 
out. Kids were forced to eat food they were allergic to and 
keep eating even if vomiting as a result.
    We were forced to attend daily religious services and A.A. 
meetings and share personal stories with the outside world. 
Kids as young as 12 being taken out of school to carry out 
pointless manual labor, such as shovel manure, carry 
wheelbarrows of rocks, sweeping the roof, shoveling numerous 
things, for days on end.
    When kids tried to run away, it was again not only staff 
but students told to chase, tackle, restrain and bring them 
back.
    Many things were heard from staff, berating kids with high 
levels of verbal abuse, often of a highly derogatory and sexual 
nature, at times regarding sexual orientation. An admitted sex 
addict was one of the high-up faculty and counselors, as well 
as a dorm monitor living above the boys' dorm.
    The rules I learned to avoid many of these problems were as 
follows: I made up a horrible past to cure myself of. Our moral 
inventory was nearly always fabricated to make our problems 
seem worse and the program seem like salvation. Tell on 
yourself and your peers for things you may have never done to 
give the illusion you are getting better and working the 
program.
    If you have certain gifts, you can find a way to skate by. 
For me, I was their golden boy with my pen. And at my 
graduation speech, as well as for others, our speeches were 
used as propaganda as part of the family day for all the 
parents to hear their message of goodwill.
    Under no circumstances were we to tell our parents or 
prospective parents the truth about what we saw. I was 
fortunate enough to go home after a while, but I quickly 
learned that if I told my parents the truth about what I saw, I 
would only be explained as a manipulation and lose more 
privileges.
    While I had been fortunate enough to miss out on these 
horrors personally, I gave many tours to prospective parents, 
always omitting the details of restraints, punishments, and any 
lack of communication against the abuses that took place.
    As a dorm leader, I was told to wake up one of the kids in 
my dorm with the lamp that only had a floodlight as a bulb, 
burning his retinas. I participated in the restraining and took 
part in the barrage of verbal attacks, just as did many of my 
peers.
    I am not proud of this, but we had no choice. If we did not 
conform, we were being negative and subjected to the same 
treatment and lack of privileges as everyone else.
    Once I left, I saw that I was now in the real world with 
real problems again, and the school had never helped me with 
those problems. After nightmares of The Family led to a 
relapse, I was soon out of Vassar College and into the 
military. The training in the military, although viewed by some 
to be harsh, was a cakewalk compared to the hell endured at The 
Family School.
    My trust issues were never resolved after leaving The 
Family, and the nightmares remain. Ultimately, these 
psychological issues and flashbacks led to the need for my 
discharge from the Army, something I regret to this day.
    For years, I thought all this was my fault. While the 
nightmares and anxiety never wore off, getting high at least 
made it go away again.
    I will not blame others for my choices and my mistakes; I 
take responsibility for those. What I blame The Family for is 
stripping me of my childhood. I still have nightmares of being 
locked up and told I am ruining my life. I still read their 
monthly paper of lies and get nauseous remembering what we 
witnessed.
    The only thing I can say to temper my disdain for these 
types of schools or at least for The Family is this: While the 
programs, as they are, have little positive effect long term, I 
do believe that kids in my position need some sort of help. I 
believe there can be a safe solution, as some staff are 
genuinely decent and caring people. We need oversight and 
regulation of these facilities, with swift and severe penalties 
for those who stray from the standards.
    What must be remembered through all of this is that these 
success stories that these places put out tend to fall in the 
1-to 2-year range after leaving such programs and are usually 
the opinions of parents.
    A true statistic? Of the 25 kids from my graduation class 
and the one prior to mine, maybe four remain sober.
    While many can now say they live successful lives, it came 
anywhere between 5 and 10 years after leaving the program and 
figuring out life on their own with psychiatric help. 
Unfortunately, this cannot be said for all.
    The programs are quick to take credit for a successful 
story and are just as fast to claim that anyone that doesn't 
make it just didn't work the program. The truth? The nightmares 
and psychological scars of being dragged from your home to a 
place in the middle of nowhere, restrained in blankets and duct 
tape, assaulted, verbally and physically--those scars and that 
trauma never go away.
    For my friends who have since died from suicide because of 
the nightmares or those who still suffer the nightmares, our 
time and our voice will not be in vain. There comes a time for 
every man to make amends and right their wrongs. This is a 
lesson all these programs preach, and it is a lesson they 
should now follow.
    [The statement of Mr. Martin-Crawford follows:]

 Prepared Statement of Jon Martin-Crawford, Former Program Participant 
at the Family Foundation School and Member of the Board of Advisors for 
   the Community Alliance for the Fair and Ethical Treatment of Youth

    I would like to thank the Chairman and the Committee for the 
opportunity to present my side of this story. After watching the 
hearing back in October, I was inspired by the clear case of morality 
that brought together both sides of the aisle in this discussion.
    We have been called ``noisy complainers'' we have been called 
``manipulating troublemakers.'' After over 10 years, I finally have my 
chance to speak. My name is Jon Martin-Crawford. I was locked up at the 
NATSAP affiliated program, The Family Foundation School, in Hancock, 
NY, from 1995 to 1997.
    My life at home was anything but stable. This caused me to seek my 
own release from it all. I created a persona for myself at school, the 
troublemaker, always looking for the attention I didn't get at home. 
Involved in drugs by the age of 13, I was lost. My only release was my 
music, my writing, and my skateboarding. After being expelled from 
public school and one private school for marijuana and writing an 
underground newspaper, my parents sent me to The Family shortly 
thereafter.
    Once I arrived at The Family, I knew I was there until I was 18. I 
went through what seems like the ritualistic stripping of identity 
almost all of us survivors faced. My clothes were taken and thrown 
away. My music, my art, my skateboard all destroyed. What I didn't have 
with me, my parents were told to destroy as well. I was left with only 
a letter from my mother for the next 3 months.
    I had been to some inpatient settings before, but this one was 
different. Other places allowed phone calls, mail, and peer 
communication. Here, I wasn't even allowed to call home the first few 
months. Even after that, I only got that one phone call home a week * * 
* nothing more * * * no access to Child Protective Services. Here I was 
only allowed to talk to staff and kids that had been there more than 6 
months. I was told I was denying the extent of my drug use, and I was 
confused as to just how I would ``get better'' enough to just see my 
family. I sat and watched, and learned to play the game of lies 
necessary to get privileges, and eventually get out. I got lucky and 
figured these rules out quickly enough to not endure what I saw many 
kids endure. But I still witnessed it all.
    Including:
    <bullet> Staff punching students in the face while restraining. * * 
* not once but several times
    <bullet> Typical restraint procedures were wrapping kids up in Duct 
tape and blankets. Kids were not let out of this wrap, even to use the 
bathroom, feminine hygiene, or just to move around and let the body out 
of the confinement, while in an isolation room (the 6X6 library room)
    <bullet> Restraints were not only done by faculty, but many senior 
and junior members of students. Usually, this was even more brutal and 
was often done in front of all other students to show ``what will 
happen if you act out''
    <bullet> Kids forced to eat food they were allergic to, and keep 
eating even if vomiting as a result.
    <bullet> Kids as young as 12 being taken out of school to carry out 
pointless manual labor such as shovel manure, carry wheelbarrows of 
rocks, sweeping the roof, etc. for days on end
    <bullet> When kids tried to run away it was again, not only staff, 
but many students told to chase, tackle, restrain, and bring them back.
    <bullet> Many things heard from staff, berating kids with high 
level verbal abuse, often of a highly derogatory and sexual nature, at 
times regarding sexual orientation
    <bullet> An admitted sex addict was one of the high-up faculty and 
counselors, as well as a dorm monitor living above the boy's dorm
    The rules I learned to avoid much of these problems were as 
follows:
    <bullet> make up a horrible past to ``cure yourself of''* * * our 
moral inventory was nearly always fabricated to make our problems seem 
worse, and the program seem like salvation
    <bullet> Tell on yourself and your peers for things you may have 
never done to give the illusion you're getting better
    <bullet> if you have certain ``gifts'' you can find ways to skate 
by. Me, I was the school's golden boy with my pen and my graduation 
speech, as well as others were used as propaganda at graduations as 
part of ``family day'' for all parents to hear.
    <bullet> Under no circumstances tell your parents or prospective 
parents the truth about what you see happening.
    Yes, I was fortunate enough to go home once a month after a while. 
All I wanted for those weekends at home was to sleep, relax, and watch 
television. I quickly learned that telling our parents the truth about 
what happened at The Family would only be explained away as 
manipulation and we would lose our privileges.
    While I had been fortunate enough to miss out on most of the 
horrors personally, I unfortunately gave many tours to prospective 
parents, always omitting the details of restraints, punishments, and 
lack of any sort of communication or safeguards against the abuses that 
took place. As a dorm leader, I was told to wake up one of the kids in 
my dorm with the light from the lamp * * * that only had a flood light 
as a bulb * * * burning his retina. I participated in the restraining, 
and took part in the barrage of verbal attacks just as did many of my 
peers. I am not proud of this, but we had no choice in any of this. If 
we did not conform, we were ``being negative'' and subject to the same 
treatment and lack of privileges.
    Once I left, however, I saw that I was now in the real world with 
real problems again, and the school had never helped me with those 
problems. After nightmares of The Family led to a relapse, I was soon 
out of Vassar College and into the military. The training in the 
military, although viewed by some to be harsh, was a cakewalk compared 
to the hell endured at The Family School. My trust issues were never 
resolved after leaving The Family, and the nightmares remained. 
Ultimately, all these psychological flashbacks led to the need for my 
discharge from the Army, something I regret to this day.
    For years, I thought all this was my fault. While the nightmares 
and anxiety never wore off, getting high made it go away again. I will 
not blame others for my choices, my mistakes. I take responsibility for 
those. What I do blame The Family for is stripping me of my childhood. 
I still have nightmares of being locked up and told I'm ruining my 
life. I still read the monthly paper of lies the school puts out and 
get nauseous remembering the stuff we witnessed.
    The only thing I can say to temper my disdain for these types of 
schools, or at least for The Family is this:
    While the programs, as they are, have little positive effect long 
term, I do believe that kids in my position need some sort of help. I 
do believe there can be a safe solution, as some staff are genuinely 
decent and caring people We need oversight and regulation of these 
facilities with swift and severe penalties for those who stray from the 
standards.
    What must be remembered through all of this is that the ``success 
stories'' of programs tend to fall in the one to two year range after 
leaving such program * * * and usually are the opinions of parents. A 
true statistic? Of the 25 kids from my graduating class and the one 
prior to mine, maybe 4 remained sober. While many can now say they live 
successful lives, it came anywhere between 5-10 years after leaving the 
program and figuring out life on their own with psychiatric help. 
Unfortunately, this cannot be said for all.
    The programs are quick to take credit for a successful story, and 
are just as fast to claim anyone that doesn't make it just ``didn't 
work the program'' The truth? The nightmares and psychological scars of 
being dragged from your home to a place in the middle of nowhere, 
restrained in blankets and duct tape, assaulted, verbally and 
physically. * * * those scars and that trauma never go away.
    For my friends who have since died from suicide, and still suffer 
the nightmares, our time and our voice will not be in vain. There comes 
a time for every man to make amends and right their wrongs. This is a 
lesson these programs preach, and it is a lesson they must now follow.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Bellonci?

 STATEMENT OF CHRISTOPHER BELLONCI, M.D., MEDICAL DIRECTOR AND 
           SENIOR CLINICAL CONSULTANT, WALKER SCHOOL

    Dr. Bellonci. Mr. Chairman and members of the committee, I 
am pleased to be here in support of your proposed legislation, 
the ``Stop Child Abuse in Residential Programs for Teens Act of 
2008.''
    As a child and adolescent psychiatrist who dedicates his 
career to the treatment of youth with mental health disorders, 
I am frankly horrified to hear about these accounts of latent 
abuse in the name of treatment or therapy.
    Nothing that I learned in medical school or my clinical 
training could ever justify such treatment. The behavioral 
interventions you have heard described have no role in the 
appropriate treatment of mental or substance abuse disorders. 
As you are hearing, this is trauma-inducing and not trauma 
treatment.
    Let me start by saying that treatment for a child or 
adolescent with serious emotional disturbance should be in the 
least restrictive environment, and preferably with their 
family. However, there are many children that cannot 
effectively be treated and managed in a home or community 
environment safely and need more acute, intensive treatment.
    I am here today to talk about Walker and the specific needs 
of children and adolescents being treated in residential 
centers.
    Walker is licensed in Massachusetts through our state's 
Early Education and Care agency. As an accredited school, we 
are also approved by our state Department of Education. We are 
accredited by the Council on Accreditation, a national 
accrediting body originally affiliated with the Child Welfare 
League of America.
    Our licensing and accrediting agencies all require frequent 
renewal and on-sight visits by representatives of these various 
regulatory bodies. We also adhere to reporting requirements 
that are consistent with those proposed in your legislation.
    EEC has clear guidelines for adherence to civil rights that 
would prohibit restriction of access to mail, family visits or 
phone calls. We do not utilize wilderness programming or boot 
camp experiences. We would never allow other children to 
restrain other children.
    Our staff undergoes a minimum of 2 weeks of pre-service 
training, including instruction in Cornell University's 
Therapeutic Crisis Intervention, with a focus on de-escalation 
strategies and techniques that are individualized to the unique 
strengths and needs of the children we work with.
    Staff is cleared by the Massachusetts Criminal Records 
search process before they are allowed unsupervised contact 
with children. During orientation, staff also receives training 
regarding mandated reporting laws, first aid and CPR.
    Walker has explicit policies outlining unacceptable forms 
of discipline, consistent with those outlined in your proposed 
legislation, that would never allow the sorts of treatment that 
you are hearing described today.
    We also have clear policies regarding notification of 
adverse outcomes, both to parents and guardians, as well as our 
state child protective service, our licenser, and funding and 
referral sources.
    We strive for transparency in our work and view parents as 
essential allies in the complex treatment of children. We have 
an open campus and invite and encourage parents to visit and be 
an active part of the treatment milieu.
    Increasingly, we have been serving children and families in 
their homes, schools and communities. We actively partner with 
our state's child welfare and mental health departments in 
advancing best-practice principles and provide consultation and 
program review and development to over 35 school districts in 
Massachusetts.
    We take our commitment to family-driven practice seriously 
and, in the last year, have hired our first parent liaison 
coordinator, who is a parent of a child formerly in residential 
care at Walker. For over 5 years, we have had a current parent 
serving as a voting member of our board of directors. We also 
have an active parent council and run parent support groups for 
all interested families.
    I work directly with most of the children served in our 
residential program, providing psychiatric treatment. It is 
against my ethical and licensing requirements to make a 
medication change without first discussing the risks and 
benefits of the proposed treatment and obtaining informed 
consent.
    In this regard, I am frankly concerned that your 
legislation may not go far enough, as it calls for notification 
to parents within 24 hours of a medication change, after that 
change has already been made, when it is quite clear standards 
of ethical practice require the informed consent to be obtained 
prior to any removal or addition of a medication except in 
emergency situations.
    The goal of this legislation is to ensure that children are 
not abused in these treatment settings, not to limit access to 
appropriate, regulated and licensed residential care for 
children who are in need of these services.
    Licensing creates a baseline of expectations to which all 
programs within a state can be held accountable. Effective 
licensing requirements help promote client rights, staff 
competence, quality improvement, and consistent practice. They 
provide the constants, the solid ground from which innovative 
and transformative practice can be launched. They also provide 
a degree of safeguard against the potential of harm to 
children, events of a type that can undermine efforts to create 
meaningful change.
    All of us working in licensed residential centers should 
support this goal. All residential treatment programs should 
provide for all of the child's developmental needs, including 
mental health care, physical health care, and education needs; 
be licensed within the states where they practice and adhere to 
national standards; encourage parents to be active parts of the 
treatment teams for their youth; and employ a well-trained, 
multidisciplinary, culturally competent staff.
    Thank you for raising this important issue. And when it is 
appropriate, I would be happy to take questions.
    [The statement of Dr. Bellonci follows:]

Prepared Statement of Christopher Bellonci, M.D., Child/Adolescent and 
   Adult Psychiatrist, Medical Director, Senior Clinical Consultant, 
                             Walker School

    Mr. Chairman and members of the committee, my name is Christopher 
Bellonci, M.D. and I am pleased to be here in support of your proposed 
legislation, the ``Stop Child Abuse in Residential Programs for Teens 
Act of 2008''. I am a board-certified child and adolescent psychiatrist 
and the medical director at Walker, a multi-service agency in Needham, 
Massachusetts that offers residential treatment as one of a range of 
programs in our service array. I am a member of the American Academy of 
Child and Adolescent Psychiatry who paid for my travel to be here 
today. I co-wrote the Academy's Practice Parameter on The Prevention 
and Management of Aggressive Behavior in Child and Adolescent 
Psychiatric Institutions with Special Reference to Seclusion and 
Restraint and am a board member of the American Association of 
Children's Residential Centers.
    First let me start by saying that treatment for a child or 
adolescent with serious emotional disturbance should be in the least 
restrictive environment, preferably with their family. However, there 
are many children that can not effectively be treated and managed in a 
home or community environment safely and need more acute intensive 
treatment. I am here today to talk about Walker and the specific needs 
of children and adolescents being treated in residential centers. We 
are licensed in Massachusetts through our state's Early Education and 
Care (EEC) agency. As an accredited school, we are also approved by our 
state Department of Education. We are accredited by the Council on 
Accreditation, a national accrediting body originally affiliated with 
the Child Welfare League of America.
    Our licensing and accrediting agencies all require frequent renewal 
and on-sight visits by representatives of these various regulatory 
bodies. We also adhere to reporting requirements that are consistent 
with those proposed in your legislation. EEC has clear guidelines for 
adherence to civil rights that would prohibit restriction of access to 
mail, family visits or phone calls. We do not utilize wilderness 
programming or boot camp experiences. Our staff undergo a minimum of 
two weeks of preservice training including instruction in Cornell 
University's Therapeutic Crisis Intervention with a focus on de-
escalation strategies and techniques that are individualized to the 
unique strengths and needs of the children we work with. Staff are 
cleared by the Massachusetts Criminal Records search process before 
they are allowed unsupervised contact with children. During orientation 
staff also receive training regarding mandated reporting laws, first 
aid and CPR. Walker has explicit policies outlining unacceptable forms 
of discipline consistent with those outlined in your proposed 
legislation. We also have clear policies regarding notification of 
adverse outcomes both to parents and guardians, as well as our state 
child protective service, our licensor, and funding and referral 
sources.
    We strive for transparency in our work and view parents as 
essential allies in the complex treatment of children. We have an open 
campus and invite and encourage parents to visit and be an active part 
of the treatment milieu. Increasingly, we have been serving children 
and families in their homes, schools and communities. We actively 
partner with our state's child welfare and mental health departments in 
advancing best practice principles and provide consultation and program 
review and development to over 35 school districts in Massachusetts.
    We take our commitment to family-driven practice seriously and in 
the last year have hired our first parent liaison coordinator, a parent 
of a child formerly in residential care at Walker. For over 5 years we 
have had a current parent serve as a voting member of our Board of 
Directors. We also have an active parent council and run parent support 
groups for all interested families.
    I work directly with most of the children served in our residential 
program providing psychiatric treatment. It is against my ethical and 
licensing requirements to make a medication change without first 
discussing the risks and benefits of the proposed treatment and 
obtaining informed consent. In this regard, I am concerned that your 
legislation may not go far enough as it calls for notification to 
parents within 24 hours of a medication change when it is quite clear 
standards of ethical practice require the informed consent to be 
obtained prior to any removal or addition of a medication except in 
emergency situations.
    The goal of this legislation is to ensure that children are not 
abused in these treatment settings, not to limit access to appropriate, 
regulated and licensed residential care for children who are in need of 
these services. All of us working in licensed residential centers 
should support this goal. All residential treatment programs should:
    1. provide for all of the child's developmental needs including, 
mental health care, physical health care and education needs,
    2. be licensed within the States where they practice and adhere to 
national standards,
    3. encourage parents to be active parts of the treatment teams for 
their youth,
    4. and employ a well trained, multidisciplinary, culturally 
competent staff.
    The Board of the AACRC is equally concerned about the growing 
number of unlicensed residential programs. We believe that residential 
care in licensed and accredited facilities is an important and 
necessary part of an organized system of care and believe that all 
residential providers should be licensed within the States where they 
practice. In fact, all members of the AACRC are licensed and this is a 
condition of membership. We also strongly encourage residential centers 
to seek accreditation which hold the standards they must adhere to even 
higher.
    As an organization representing agencies committed to working 
collaboratively with families and youth, we were disturbed by the 
concerns raised in this committee's previous hearing about children and 
youth experiencing harm in residential settings. We support the 
initiatives of this committee and its proposed legislation and believe 
that residential treatment is an appropriate placement for some 
youngsters and that there are high quality programs being administered 
by committed and competent staff.
    The AACRC's mission is to support the professional development of 
this committed and competent workforce. The AACRC looks forward to 
working alongside this committee and state and federal agencies in 
ensuring that standards are in place for residential centers.
    Licensing creates a baseline of expectations to which all programs 
within a state can be held accountable. Effective licensing 
requirements help promote client rights, staff competence, quality 
improvement, and consistent practice. They provide the constants, the 
solid ground from which innovative and transformative practice can be 
launched. They also provide a degree of safeguard against the potential 
of harm to children, events of a type that can undermine efforts to 
create meaningful change. AACRC requires licensure of its members and 
is concerned about the variability of practice that can occur in 
unlicensed settings, which can lead to adverse outcomes for children 
and their families and criticism of the field. AACRC encourages 
organizations to work with their state authorities to create meaningful 
and reasonable licensing frameworks for residentially based services.
    Accreditation is not an effective replacement for licensing, as the 
accountability it yields is less stringent than that which typically 
occurs through licensing and regulation. Nonetheless it is an important 
accompaniment to licensure. Accreditation standards encompass emerging 
knowledge and evidence in the field and come together to define 
clinical and managerial practices that result in high quality and 
effective care.
    Agency-developed standards, policies, and procedures build upon the 
framework of licensing and accreditation, creating unique, mission-
driven structures as the foundation for care and innovation. 
Establishment and measurement of desired outcomes and performance 
indicators helps each organization assess the degree to which it is 
fulfilling its own objectives and creates the possibility of comparison 
or benchmarking with other similar entities on key aspects of care 
identified through accreditation and licensing.
    Compliance with accreditation standards, particularly in 
conjunction with adherence to licensing and regulatory requirements and 
a quality improvement infrastructure, provides the foundation of safety 
and best practice that can infuse transformational change, elevate 
practice, and improve outcomes. AACRC supports efforts to establish 
licensure requirements and encourages agencies to pursue voluntary 
accreditation, as part of implementing a transformation agenda.
    In the last two decades, the thinking about family involvement 
across the child serving systems has begun to change. The Child and 
Adolescent Service System Program (1985) envisioned a central role for 
families in community systems of care for children with mental health 
problems. Wraparound, family decision making, and parent-professional 
partnerships have emerged in child welfare, education, medical, and 
juvenile justice arenas, as well as in mental health. Such service 
configurations have recently been supported by research and heralded in 
salient mental health public policy studies, including the Surgeon 
General's and the President's New Freedom Commission reports. Research 
specific to residential care has also consistently identified improved 
child outcomes when parents and families are more involved. The 
response from the field to these developments has been slow but not 
insignificant, as residential centers across the country increasingly 
design processes and practices for more inclusion of parents and family 
members in the care of their children. The result has been improved 
outcomes for children and families.
    Parents and families provide important information and feedback. An 
approach that engages them equally creates a shared responsibility for 
growth and change. It provides the opportunity for staff to work 
together with parents and to utilize family members' experience and 
expertise. This yields an increased ability to understand the child 
within the context of his/her family, culture and community, and to 
develop realistic expectations, plans, and supports. The family is 
affirmed in having their strengths recognized and valued; the staff 
benefit from having support and assistance and from being relieved of 
the implicit, at times self-imposed, responsibility to be the ones who 
will ``fix'' the child. Family-driven care is a partnership.
    Parents are strong and effective voices, advocating in pragmatic 
and realistic ways for the needs of children on quality improvement, 
planning, and governance bodies. As political partners with 
professionals, parents are powerful advocates for the full continuum of 
care, inclusive of residential, and for efforts to meet the needs of 
children and families in local communities. The research in residential 
treatment consistently shows that the processes and outcomes of care 
improve in correlation with the degree of family involvement.
    At the governance level parents are valuable members of Boards of 
Directors, and offer critical input into strategic planning and 
resource allocation. At the system level parents can have important 
voices on advisory committees and interagency collaboratives. Parents 
understand the importance of a full array of services and, in telling 
their stories, have a powerful influence on policy makers.
    Such multi-level partnerships can help establish and reinforce a 
culture of family-driven care. They are more readily supported if the 
organization has made the leadership commitment to become family driven 
and can dedicate budgetary resources to supporting parent travel, 
paying stipends, or hiring parents as paid staff. The Board of 
Directors and CEO can ask themselves a series of key questions in 
assessing readiness to move in this direction, for example:
    <bullet> Do the staff of the organization act, speak, and interact 
in ways that truly welcome, support, affirm, and incorporate the 
perspectives and wishes of parents?
    <bullet> Do parents have to be ``invited'' into the organization or 
is it a baseline assumption of staff that parents are reciprocal 
partners?
    <bullet> Is the organization committed to redefining itself as 
providing an intervention within a community continuum rather than as a 
placement of last resort?
    <bullet> Does the organization believe that sharing decision-
making, leadership, and power with parents yields better outcomes for 
children and youth?
    <bullet> Is the organization willing to implement training and 
other practices that culturally reinforce the importance of parents and 
families in day to day actions, discussions, and care planning?
    The responses to these questions can drive strategic planning and 
practice innovation. Changes in practice, even incremental, can and do 
lead to positive results.
    The American Academy of Child and Adolescent Psychiatry is 
currently working on a Practice Parameter defining best practice for 
residential treatment and once available, AACAP would be happy to share 
it with the committee. Many of my remarks are taken from Position 
Papers developed over the last 5 years by the AACRC.
    Thank you for the opportunity to present these comments to the 
Committee.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Brown, you will be recognized for 10 minutes, as 
promised you.

  STATEMENT OF KAY BROWN, DIRECTOR, EDUCATION, WORKFORCE AND 
     INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Brown. Chairman Miller and members of the committee, 
thank you for inviting me here today to discuss our work on 
residential programs for teens.
    This morning, you have already heard a number of heart-
wrenching examples of individual cases of abuse and death in 
residential facilities. Now I would like to try to shed some 
light on what we know about the national picture.
    To clarify the difference between our work and the case 
studies that you heard, my remarks are based on our ongoing 
work. Over the past year, we conducted national surveys of 
three separate agencies in each state: child welfare, health 
and mental health, and juvenile justice. Each of these state 
agencies may place youth experiencing behavioral and emotional 
challenges in residential facilities. In our survey, we asked 
about a broad range of facilities, including the types that you 
have heard about today. We also visited four states.
    Today I will discuss what we know about the extent of youth 
maltreatment in these facilities across the nation, what states 
are doing to protect youth in these facilities, and what 
federal agencies are doing to oversee state efforts.
    In summary, youth maltreatment and fatalities occurred in 
both government and private facilities all across the nation. 
However, we don't know the full extent of the problem because 
many states either don't collect or don't report data for all 
residential facilities.
    Regarding oversight, we identified gaps in state activities 
that leave youth in some facilities at greater risk of 
maltreatment or death. We identified similar gaps in federal 
activities.
    Regarding the extent of the problem, in one year 34 states 
reported to HHS more than 1,500 incidents of youth maltreatment 
that were committed by facility staff. As you can see, 
hopefully, from the graphic above, the proportion of incidents 
related to physical abuse was 24 percent; to neglect or 
deprivation of necessities, 44 percent; and sexual abuse, 9 
percent.
    Officials in the states we visited cited factors such as a 
lack of experienced staff, insufficient training or lack of 
appropriate supervision as causes.
    In addition, in our survey, 28 states reported at least one 
death in residential facilities. This next graphic shows that 
16 states reported deaths due to accidents, nine due to 
suicide, and fewer states to homicide and the use of seclusion 
and restraint. I should mention here, though, that deaths 
related to seclusion and restraint may also be categorized as 
accidents in some cases.
    It is important to note that these data are not complete. 
The number of adverse incidents is very likely more numerous 
and more widespread than reported, for a number of reasons.
    For example, in many states, officials said they lacked 
authority under state law or regulation to collect data on 
private facilities that do not receive government funds. And 
the HHS database I mentioned earlier tracks fatalities that 
result from maltreatment but not from suicides or accidents, 
both of which may be an indicator of neglect or other problems.
    Regarding my second topic, state oversight, as you know, 
under the current structure, states are primarily responsible 
for ensuring the well-being of youth in residential facilities. 
To do this, they have a range of tools at their disposal, 
including licensing, standards, monitoring, and enforcement 
when violations are found.
    All states in our survey reported having some licensing 
processes. However, the types of facilities licensed and the 
licensing requirements varied from state to state, and we found 
gaps in the licensing activity.
    Most notably, state agencies often exempted certain types 
of facilities from licensing and, in particular, private 
residential schools and academies. This is worrisome because 
owners can self-identify the type of facility they operate. 
Therefore, a facility could bypass state requirements by 
identifying itself as a type of facility not subject to 
licensing.
    In addition, for those facilities that states did license, 
they used standards that addressed many but not all of the 
primary risks to youth well-being that you have heard about 
today. Almost all states reported that licensed facilities are 
required to meet basic standards, such as the safety of the 
physical plant. However, about a third of state Child Welfare 
and Health and Mental Health agencies reported that they do not 
require written suicide-prevention plans.
    Once a facility is licensed, regular monitoring helps 
ensure that licensing standards are taken seriously and that 
risks to youths' well-being are addressed quickly. However, 
officials in three of the four states we visited were unable to 
meet their goals for conducting regular site visits for 
monitoring at residential facilities. They were also unable to 
conduct unannounced site visits, which can reveal conditions 
that might not be seen during your regular announced visit. 
These officials cited fluctuating levels of resources and large 
workloads as factors limiting their visits.
    There are also other approaches to overseeing facilities. 
For example, some states required accreditation either in 
addition to or instead of licensing, as a condition of serving 
youths under state care.
    Finally, turning to federal oversight of state efforts, the 
Departments of Health and Human Services, Justice, and 
Education all have certain processes in place through their 
grant programs to hold states accountable for the well-being of 
youth in general.
    However, as with the states, we found gaps in their 
oversight related to residential facilities. For example, under 
current law, federal agencies do not have the authority to hold 
states accountable for youth well-being in private residential 
facilities unless those facilities serve youth in programs that 
receive federal funds.
    For those facilities that are under federal purview, 
federal requirements did not always address the primary risks 
to youth well-being. HHS, Justice, and Education all reported 
that they do not have authority to require that states have 
suicide-prevention plans as a condition for receiving grants 
that they administer.
    Similarly, with one exception, federal programs also do not 
require that states ensure the proper use of seclusion and 
restraint practices in residential facilities.
    Federal agencies did not always include residential 
facilities in their oversight visits and have not used all of 
the enforcement tools available to them, such as financial 
penalties.
    In conclusion, the results of our ongoing studies show that 
the current federal-state oversight structure is inadequate to 
protect youth from maltreatment and death at a time when they 
are most vulnerable. Given the wide variety of facility type 
and the variation among state laws, there are no simple 
solutions.
    Without meaningful data, state and federal agencies don't 
know the extent of maltreatment in their jurisdictions, so they 
cannot accurately assess the risk to youth in facilities or 
best target their oversight resources. And licensing alone 
holds no guarantees without clear standards, regular monitoring 
and a full array of enforcement tools.
    The comprehensive results of our work will be included in a 
report to be released next month. This report will provide 
options for action that states, federal agencies and Congress 
may want to consider in any restructuring effort. We also 
anticipate that our report will contain recommendations for 
action that federal agencies can implement now under the 
existing structure.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you or others on the committee would 
have.
    [The GAO statement, ``Residential Facilities: State and 
Federal Oversight Gaps May Increase Risk to Youth Well-Being,'' 
may be accessed at the following Internet address:]

                http://www.gao.gov/new.items/d08696t.pdf

                                 ______
                                 
    Chairman Miller. Thank you very much.
    Thank you all for your testimony. As disturbing as it is, 
it is important that this committee hear it and, hopefully, 
this Congress hear it.
    I have been involved with the attempt to protect children 
in out-of-home placement for over 30 years. And I guess I am 
saddened by the fact that, 30 years later, we still see this 
number of children put in these positions of jeopardy while the 
government looks on because of the patchwork and incomplete 
system that we have here, so that we can have simple but vital 
information about these programs, as Ms. Brown has pointed out.
    You know, the last time this country witnessed somebody 
with a bag over their head and a noose around their neck, the 
world was horrified, the nation was embarrassed, and it was at 
Abu Ghraib.
    To be told by this committee that this is considered a 
valid therapy, I guess, or a practice by somebody in the care 
of somebody else's child, and putting the noose around their 
neck with a bag over their head, that this was acceptable, I 
think would horrify this nation again. But, unfortunately, we 
don't have a picture of that. We just have the sad results of 
it, with what happened to that young person.
    It is hard to believe. It is hard to believe that people 
would do this to somebody else's child.
    Mr. Kutz, in your testimony you describe eight programs 
where children were abused and a number of cases involving 
misleading marketing practices by programs and referral 
services.
    To the extent that you can, can you identify these programs 
and services that either abused these kids or used misleading 
marketing practices?
    Mr. Kutz. Would you like me to name for the record the 
ones--there are eight----
    Chairman Miller. If you can, yes.
    Mr. Kutz [continuing]. For the death and abuse, and then 
there is the table we had of the misleading marketing----
    Chairman Miller. Yes. Yes.
    Mr. Kutz. All right. Let me go through those with you.
    The names of the facilities, the first four were death 
cases, and that was the Arizona Boys Ranch, Lonestar 
Expeditions, Star Ranch, and Summit Quest Academy. Those were 
cases one through four.
    The other four cases, which were abuse cases--three of the 
first four also were abuse cases. Cases five through eight were 
Kids of North Jersey, Bethel Boys Academy, Whitmore Academy, 
and Royal Gorge Academy.
    So those are the eight cases of death and abuse.
    With the marketing, some of the 10 in there are multiple 
hits, if you will. So I will go through those.
    Case number one was the C.S. Landre Foundation, and that 
was one of the cases you saw in my opening statement on the 
monitor, of the tax scheme where people were asking others to 
make donations for their children.
    The second case was Spring Creek Lodge Academy. Cases 
three, four and five were Lonestar Expeditions, which was the 
same as our case number two, the death case.
    Cases six, seven and 10 were Teen Path, and that is a 
referral service. And cases eight and nine were Parent Help, 
and that is also a referral service.
    Chairman Miller. You know, if your child applies to 
college, they ask a lot of questions about your child when you 
finally get to the final steps; they want a lot of information.
    To what extent did--you played this series of tapes about 
representations about these programs. And you are not a mental 
health professional, and I understand that.
    But to what extent was there any attempt to delineate the 
information about the child, in terms of what maybe pre-
diagnosis had been, other placements of that child, what other 
determinations were made by mental health workers or 
psychiatric health workers that that child might have been 
exposed to? In many instances, these are not the first 
placements of these children.
    Was any effort to develop that history and then inform 
those parents what would or would not be available that was 
aligned with that?
    Mr. Kutz. I made some of the calls myself, actually. And 
for the cases that I called, I called five of them, and four of 
them didn't ask any questions at all about my fictitious child. 
The fifth one did ask a lot of interesting and good questions.
    We made, in total, 30 or so calls. And in most cases, the 
focus was on the marketing, not actually extracting information 
on the child and whether the child would be a good fit for that 
program. So I think that is kind of--do you want to add to 
that, Andy?
    Mr. O'Connell. Yes, most of the conversations centered on 
cost----
    Chairman Miller. Would you just identify yourself for the 
visual record?
    Mr. O'Connell. Andy O'Connell from GAO.
    Chairman Miller. Thank you.
    Mr. O'Connell. Of the 30 phone calls that we made, the big 
pitch was about the program itself and not about your child. It 
mostly centered on the cost and how you could finance the cost 
to pay to go to these schools.
    Chairman Miller. Ms. Whitehead and Mr. Martin-Crawford, 
after you arrived at your programs, was there any attempt to 
take your personal history, to discuss that with you, and then 
to tell you what the plan of treatment would be?
    I am not going into the validity of the treatment, but just 
if those acts were engaged in.
    Ms. Whitehead. Well, when I first arrived, actually, there 
was no real set of treatment plan established, but we were 
required to write out our life history and our sexual history 
in detail. And that was how they gathered information, or they 
would read our diaries from home.
    But we were never notified of any kind of treatment plan or 
goals or anything like that.
    Chairman Miller. Mr. Martin-Crawford?
    Mr. Martin-Crawford. Likewise, anything that we had 
actually been asked, as I mentioned earlier, when it came down 
to our past or, you know, any plan of treatment, it was really 
what we did. And then if we came with a list, you know, say, I 
smoked pot a couple times, that wasn't good enough, and we had 
to say that we were doing cocaine and crack in order to speak 
with our families.
    So any type of writing down what we needed help on was sort 
of--they told us what we needed help on, whether we did or 
didn't.
    Chairman Miller. Mr. Kutz, in one of the narratives in your 
report--and correct me if I am wrong--but I believe that, in 
fact, drug tests were administered to one of the students 
repeatedly. The drug tests were negative, and they were 
reported as positive to the parents. Is that correct? Including 
the initial test?
    Mr. Kutz. That is correct. And, also, what was just 
described here, we did see evidence where kids were forced to 
confess to things far worse than they had actually done. That 
was significant, and not just the kid we looked at, but a 
number of kids in that program were forced to do that at the 
admission process.
    Chairman Miller. And those confessions were then used how?
    Mr. Kutz. Well, then they had to keep repeating them during 
the counseling, that--I guess it is called the M.I.
    Is that correct?
    Mr. Martin-Crawford. Yes, it is called the moral inventory.
    Ours were used not as much for the counseling as for 
parents. So when we had a group----
    Chairman Miller. Those were then told to parents, that 
progress----
    Mr. Martin-Crawford. Right.
    Chairman Miller. Again, I don't want to put words in your 
mouth. But those were used to tell the parents what?
    Mr. Martin-Crawford. That way, when my parents came and I 
was saying, oh, yeah, well, by the way, I was smoking crack and 
shooting people or something, that way they thought that they 
did the right thing in putting me there and that I really 
needed to be there and this would, you know, save my life.
    Chairman Miller. Those admissions were viewed as progress 
being made.
    Mr. Martin-Crawford. Or at least as good enough reason for 
me to be there, so it made them feel better. Like, if I had 
just told them the truth, that I had smoked marijuana a few 
times, it wouldn't seem as though I really needed to be there 
as much.
    Chairman Miller. Dr. Bellonci, I could give you an hour, 
but I am only going to give you about 2 minutes, to tell me 
what, as a professional and in your experience, what your 
impression is of this. And I will come back to you in a second 
round, but I have got to move on to other members.
    Dr. Bellonci. It makes me ill, hearing it, frankly. And to 
think that this is being done in the name of treatment is 
abhorrent to me.
    You know, just to clarify, the difference between the 
programs that you are hearing about and my facility, we don't 
advertise. Children are referred to us by their public school 
or by the state of Massachusetts child welfare or child mental 
health agencies. Our admissions office is run by a licensed 
clinical social worker----
    Chairman Miller. I understand that, but let me explain. You 
know, the marketing here is to desperate parents who have gone 
through much of that before. I don't want to compare it to your 
program, at this point. I just want your professional 
impressions of this.
    Dr. Bellonci. It is abuse. There is nothing about what you 
are hearing that can be construed as treatment, therapeutic, 
intervention, care. I had the same association you had to Abu 
Ghraib when I was hearing this.
    This is no way to treat anyone, particularly someone who is 
already struggling with depression, substance abuse, mental 
health issues. It is only going to exacerbate the problem and 
not lead to treatment.
    So there is no way that I could begin to defend any of the 
practices that you are hearing as anything remotely appropriate 
or acceptable.
    Chairman Miller. Thank you.
    Mrs. McCarthy, recognized for 5 minutes.
    Mrs. McCarthy. Thank you, Chairman Miller.
    This is actually the second hearing that we have put 
together on this. And I thank the chairman for following 
through and his long work on this issue.
    Mr. Platts and I, when we had this hearing, going back last 
fall, and we had the parents speaking and telling their 
stories, it was heart-breaking.
    With that being said, the legislation that was introduced 
yesterday to try to make a difference, as with anything down 
here, you know, we saw the hearing pushed back immediately. And 
I find it hard, mainly because when we are trying to do 
something so that there are standards that children are not 
abused, I don't understand why there is a push-back. When we 
are looking at how possibly these schools or treatment areas 
can have some standards to take care of the children, I don't 
understand why there is a push-back on that.
    I don't understand, if you are dealing with children that 
already have some problems, why we shouldn't be doing 
background checks on those that are supposed to be helping 
them. So I have a real hard time understanding a lot of that.
    But with that being said, I need to ask some questions.
    And, Ms. Brown, your testimony said there is not a single 
Web site, federal agency and other entity that collects 
nationwide data on incidents in these programs. Our bill calls 
for a central Web site which will have data on these facilities 
and their operating systems, and requires marketing materials 
to include a link to this Web site so parents can see 
information for themselves.
    Would you think that this would actually help parents make 
a decision on exactly what they are putting their child into?
    Ms. Brown. I think that that Web site has a number of 
advantages that it offers.
    The first and most important one would be to give parents 
information that would help them make an informed decision. 
This is assuming that incidents of abuse and facility names and 
that kind of thing were all contained on the Web site.
    There are also a couple of other advantages. In the hearing 
in the fall, we talked about facilities that, if they were shut 
down in one state, move to another state. And a Web site like 
this could help try to prevent that kind of activity.
    And then the third piece is, in our surveys and in our 
state visits, we learned that state agencies--the officials in 
state agencies that place children in residential facilities 
don't always share information with each other in the way that 
they should. And so sometimes one agency may have decided that 
they didn't really want to place their children in a facility 
because of problems they knew and they didn't tell the other 
agencies.
    So, if this Web site could be constructed in a way that it 
had all of the information that you have in the bill, I think 
it would be helpful to the agencies, as well.
    Mrs. McCarthy. The other thing I wanted to follow up on--
with a lot of the issues that we deal with here on the 
Education Committee and the research that we do on certain 
bills, I have found that when we pass a law here, you know, and 
we put it out to the states, we really are not getting the 
information that we need to make the correct decisions. So I 
really become some person of--I like data. I like a lot of data 
now.
    And, with that being said, there is only one database that 
collects some of this information, the one operated by HHS 
called the National Child Abuse and Neglect Data System. The 
federal government provides funds to states for reporting abuse 
and neglect to this organization, but a lot of the states 
aren't putting that data in there. We found that with some of 
the educational standards.
    How would you feel about having a--why doesn't HHS get more 
comprehensive data from states on the number of incidents of 
youth abuse and death? And how can we improve on that?
    Ms. Brown. Well, you are absolutely right that the quality 
of the data in that system is only as good as what the states 
provide. And, as I said, there are a number of different areas, 
particularly related to private facilities, that states don't 
necessarily collect information on.
    There are also problems with the way that some of these 
systems are constructed, so that even though they may be 
reporting the data, it is impossible to isolate those incidents 
that happened at residential facilities versus other areas or 
within a child's family.
    One of the things that we have recommended in our report 
that will be coming out soon is that HHS does step up and try 
to work with the states and figure out what some of the 
problems are and how they can improve that data reporting for 
that system. Because it is used in HHS widely.
    And I think that there might be a loophole in the law right 
now, where states are expected to report these data that says 
``to the maximum extent practicable.'' And that does, I think, 
give a little bit of leeway. That I think it has been long 
enough that these states have reported this data, that it might 
be fair to expect them to report it more completely now.
    Mrs. McCarthy. I agree.
    I want to thank the whole panel for the testimony, and for 
the parents that are here that testified in the past. And, 
again, hopefully we can get a handle on this and get this bill 
onto the floor and passed and hopefully prevent abuse to many 
of the children that are out there and help the parents.
    Thank you. With that, I yield.
    Mr. Kutz. Mr. Chairman, could I just add one real quick 
thing to that? It will take just a second.
    What we found at the case-study level, too, is that a lot 
of the abuse and torture and things like that never gets 
reported to the state. So that is just another point, that even 
if the states aren't reporting it, they are not getting it from 
the programs. A lot of the programs we looked at were cited for 
not reporting abuse, and most abuse maybe never gets reported 
in the first place.
    Chairman Miller. Mr. McKeon will now be recognized for 15 
minutes. And thank you for your patience.
    Mr. McKeon. Thank you, Mr. Chairman, for yielding.
    I want to begin by thanking all the witnesses for their 
testimony here today.
    I strongly believe that the instances of neglect and abuse 
and death at these facilities that we have been talking about 
over the last few months are totally unacceptable and must be 
stopped. That goes without--probably should go without even 
needing to be said.
    I still don't feel, though, that the committee has a full 
grasp on the extent of the problem or possible solutions. As 
you just said, a lot of these things are not even reported.
    So I am glad this hearing has been convened today to learn 
more about these facilities and give members an opportunity to 
ask questions about them.
    Mr. Kutz, you talked about eight instances of death. Has 
there been any prosecution on those deaths that you are aware 
of?
    Mr. Kutz. Yes, there was one case of a criminal conviction 
for third-degree assault and false imprisonment, and that 
person served 1 month. There was also a plea, but there was no 
time served.
    On all the other ones, there were no criminal prosecutions 
or charges.
    Mr. McKeon. So murder is okay now. I mean, listening to 
just what you said about it, I can't even understand how we 
don't have eight people in jail for murder in those instances. 
How do you possibly not have----
    Mr. Kutz. I agree with you. It is very difficult to look at 
this and wonder why there is not more criminal aggressive 
effort in this particular case. There was a lot of civil 
activity, lots of civil settlements, but that doesn't fix the 
problem with the people who were doing the abuse.
    And the real issue, I think we talked about at your last 
hearing, these people are moving around. So who knows what 
program they will move to next, and----
    Mr. McKeon. But you have----
    Mr. Kutz [continuing]. There is no trail then.
    Mr. McKeon. I mean, you know of a death.
    Mr. Kutz. Yes.
    Mr. McKeon. The police don't find out about it? Or they 
just shrug it off and write traffic tickets, or what? I just 
don't even understand this.
    Mr. Kutz. It may be that it is difficult to prove in a 
court of law. I mean, I can't really explain it fully.
    Mr. McKeon. To prove how the death occurred, or that there 
was a death? I mean----
    Mr. Kutz. There was clearly a death and there was clearly 
abuse, in some of the cases we looked at. And why there was no 
more criminal on that, I just can't explain it for you fully.
    Mr. McKeon. I just don't understand that.
    Ms. Whitehead, Mr. Martin-Crawford, both of you seem to be 
doing quite well now--apparently not as a result of your stay 
in these institutions. But how did you get your lives turned 
around?
    Ms. Whitehead. Well, I think primarily just doing the work 
that I have been doing, in terms of advocacy. I mean, it really 
took a good 10 years for me to, kind of, get through all of the 
depression stuff and the anxiety. And----
    Mr. McKeon. It just happened, or did you have some 
professional----
    Ms. Whitehead. Well, no, I had some therapy around it, 
and--but really it was about not really understanding my 
experience, not really framing it as abuse, and speaking with 
Dr. Pinto at length and understanding that there is some 
legitimacy to my claim and finding a place to put that.
    So I think that, you know, it was that confusion and that 
internal battle that took so long, you know, the nightmares and 
understanding where that came from, and then understanding that 
it wasn't therapy.
    Mr. McKeon. What I am trying to get at is you apparently 
had some problems, which is why you were sent to this place. 
And if you could just block that out, how did you get the 
problems that got you to that point in the first place, how did 
those get taken care of?
    Ms. Whitehead. Therapy.
    Mr. McKeon. After you----
    Ms. Whitehead. Oh, after, yes.
    Mr. McKeon [continuing]. Came back home.
    And was your experience the same?
    Mr. Martin-Crawford. My experience, for the most part, when 
it came down to the issues that got me into The Family--
marijuana use, things like that--most of it really just came 
out of maturity. At some point I just realized that doing the 
right thing--going to school, getting a degree, and, you know, 
becoming a teacher--meant more to me than hanging out and 
getting high.
    And as much as I hate to say it, this testimony here, 
because of the thorough background checks that certified 
teachers get, could be problematic for that. But it is worth 
the risk. I mean, I guess my certification means more to me 
than these people's.
    Mr. McKeon. Thank you very much.
    Dr. Bellonci, in your testimony you seem to have pretty 
extensive knowledge of the legislation that was introduced last 
night?
    Dr. Bellonci. Yes.
    Mr. McKeon. When did you see the legislation?
    Dr. Bellonci. Tuesday of this week.
    Mr. McKeon. Tuesday of this week?
    Dr. Bellonci. Yes.
    Mr. McKeon. Today is Thursday?
    Dr. Bellonci. Yes.
    Mr. McKeon. Okay.
    I have some questions I would like to direct at all the 
witnesses. Can you tell me how many private residential 
treatment programs or boot camps there are nationwide?
    I guess that is a no?
    Ms. Brown. I think it is safe to say the answer, from our 
perspective, is no, we don't know.
    Mr. McKeon. And so, if we don't know how many there are, we 
probably would not have numbers to break them down by state?
    How many different types of treatment programs----
    Chairman Miller. Let the record show the answer appears to 
be no again. [Laughter.]
    Ms. Brown. The answer is no.
    Chairman Miller. Yes, thank you.
    Mr. McKeon. How many different types of treatment programs 
are there in the country?
    Mr. Martin-Crawford. I believe that would depend on what 
they call themselves. That goes anywhere from emotional growth, 
residential treatment, wilderness--I mean, there are so many 
different names that it is almost impossible to tell. Because 
if we listed 20 names right now, there would be 21 tomorrow.
    Dr. Bellonci. If I may, I mean, I think part of the problem 
in even beginning to get the scope of the issue is that there 
is no agreement on the terms to define these programs. And I 
think one of the things that we really need from the national 
level is a definition of the range of out-of-home care options 
that exist, and then clear standards to correspond to each of 
those definitions of care.
    Mr. McKeon. Okay.
    One of the solutions that has been suggested is some sort 
of federal oversight. And I am curious about the capacity that 
would be required to regulate these programs on a federal 
level.
    Can any of you talk about the manpower, expertise and 
funding that is going to be needed to establish and then to 
monitor these programs by a federal agency?
    If this doesn't----
    Ms. Brown. I was trying to think if there was anything I 
could contribute to that. And I guess the only thing I can say 
is, in our options that we lay out for Congress to consider, 
one of them is direct regulation, which is the first part of 
the bill that relates to asking HHS to monitor the facilities. 
And we don't know the cost of that or the capacity.
    When we looked at that option and other options, we 
considered the fact that there are really three factors that 
need to be weighed against each other, or traded off. And one 
is cost. And the second is the federal reach, how far you want 
the federal government to be involved in this. And the third is 
the extent of protection that children would receive or how 
wide the net would be.
    Mr. McKeon. Where would the federal government get the 
jurisdiction to be----
    Ms. Brown. For direct regulation?
    Mr. McKeon [continuing]. Directly involved in this? Yes.
    Ms. Brown. Well, according to our counsel, that would come 
from the issue of interstate commerce. And there are two ways 
that that could be applied. The first one is through the 
marketing practices that we talked about today and those 
occurring throughout the government. And the second one is 
related to the number of youth that are actually placed across 
state lines.
    Mr. McKeon. Okay, so if you have a state that had an 
organization within the state that did not cross boundaries, 
that only had students coming from within their state, where 
would the federal government have the ability to get involved 
in this program?
    Ms. Brown. Well, and that--the question there of, if they 
don't accept or place children in other states, would be, what 
are their marketing practices, and did those have a wider 
reach? I know that many of these facilities----
    Mr. McKeon. But the ones that are just done within a state, 
where would the federal government have the ability to 
intervene?
    Ms. Brown. The way that the federal government, in those 
cases, has influenced that and would be able to in the future 
would be through the use of federal funds. If you were to----
    Mr. McKeon. But if they are not receiving any federal 
funds, as I understand these programs aren't, where would the 
federal government have the ability to intervene, according to 
the Constitution?
    Ms. Brown. I have to tell you, first of all, I am not a 
legal or a constitutional expert, so----
    Mr. McKeon. Do we have any on the panel?
    Okay. That would probably be better to address somewhere 
else then.
    Ms. Brown. Right.
    Mr. McKeon. Okay. At this time, I yield to Mr. Platts for 
my remaining 5 minutes.
    Mr. Platts. Thank you, Mr. McKeon. And I want to thank the 
chairman and the staff of the committee for their important 
leadership and work on this issue.
    And certainly thank all of our witnesses here today, 
especially Ms. Whitehead and Mr. Martin-Crawford, for your 
efforts to try to take the trauma that each of you suffered 
through not to be repeated against others, and your willingness 
to be here, not just in testifying, but your advocacy for the 
rights of other children that are still in these programs.
    I tell you, as a parent sitting here today as well as in 
our last hearing, it is truly sickening to hear of the care 
given to children entrusted to adults to help better the lives 
of those children, and instead have resulted, as we have heard, 
in some instances, in the deaths of those children. And as a 
nation, we certainly have a moral responsibility to do our best 
to not allow this to happen.
    Mr. Kutz, I would like to start with your comments. First, 
in the four cases where there were deaths, are any of those 
facilities still operating today? Or, as to the best of your 
knowledge, are any of the individuals associated with those 
facilities still operating under, perhaps, different names?
    Mr. Kutz. The answer is yes. Cases two and four are still 
open under the same name and same individuals involved. Numbers 
one and three are closed.
    Mr. Platts. And under cases two and four, are those 
institutions or facilities ones that there were legal actions 
of any kind brought against them?
    Mr. Kutz. There was an investigation of case four by the 
state. And for the other one, there was a civil settlement, but 
no criminal.
    Mr. Platts. All right. As Mr. McKeon stated, it is hard to 
understand that scenario and that there is not more scrutiny 
and action, given the circumstances that you have shared with 
us.
    You reference in your testimony that, in three of the eight 
cases you looked at, the victim was placed in the program by 
the state or in consultation with state authorities.
    To the best of your knowledge, was there any follow-up, 
site visits, interviews, you know, investigations by the state 
authorities or entities that placed those individuals to make 
sure that the child being placed was receiving the care that 
they were intended to?
    Mr. Kutz. Not until it was too late, until it was a 
problem, and then there was lots of investigative activity. And 
that gets into the whole issue here, hopefully that the 
committee's focus here is on preventing these things from 
happening. And that is really what I would say you should focus 
on, because once you get to the investigative phase, it is too 
late. And, as we are hearing here, oftentimes there are no 
consequences.
    But we are talking, also, about Medicaid money. Several of 
them had Medicaid money. And then one of them had money from 
the juvenile justice system also. So there were various types 
of money, either paying for part or all the tuition, even 
though it was a private program.
    Mr. Platts. My focus is not the investigation after 
allegations of abuse, but if a state is saying, we are placing 
this child in your custody, at state direction, as to your 
knowledge, there is no, ``And we will be back in a month to see 
how that child is doing, how you are operating, how you are 
caring''? To the best of your knowledge, that did not occur 
again until it was too late?
    Mr. Kutz. I can't say that for sure, but if it was, it was 
ineffective oversight. And it may not have been random, 
unannounced visits, which is something I know that has been 
discussed, and that may be an element of your bill, I believe. 
But that would be something that I would suggest, no matter who 
is responsible, that random, unannounced visits would be 
something that could help this.
    Again, if it is a wilderness program, that would be 
difficult, because you would have to parachute into the 
wilderness to do a real unannounced visit. But, otherwise, some 
of the physical structures, you could do a random, unannounced 
visit.
    Mr. Platts. Probably a necessity, to truly get an 
understanding.
    In your testimony, you also talked about--you say, ``A 
number of states do not license or otherwise regulate certain 
types of private programs.'' Do you know how many states do 
regulate in some fashion private residential facilities?
    Mr. Kutz. I will let Ms. Brown answer that more so. I mean, 
with respect to our case studies, some were licensed and some 
weren't. That was true last fall also.
    Mr. Platts. Okay.
    Ms. Brown. I think one of the issues there is for private 
facilities whether they are receiving government funds or 
whether they are not. And all of the states that we heard from 
licensed some types of private facilities.
    The issue is that there are some that are exempt from 
licensing. In some cases, it might be, as I mentioned, 
academies and boarding schools are the ones that are most often 
not licensed. And then there are also examples like faith-based 
facilities that would also be exempt from licensing. There are 
six states that do that.
    Mr. Platts. Just a quick follow-up on that, is there a best 
example of a state that you would point to that does regulate 
private facilities?
    Ms. Brown. I wish I could give you a simple answer to that 
question. We have an idea of what we would like to see the 
oversight and regulatory structure look like. But as we looked 
at the states, none of the states that answered our surveys, 
which was all but one, had the complete package.
    Some had much more developed oversight standards, but they 
didn't reach very far, as far as the number of programs, the 
types of programs they covered. Some had much more broader 
coverage, but their standards and oversight were only this 
deep. So it is hard to pick one out.
    Mr. Platts. No one perfect example to point to.
    Ms. Brown. No, sir.
    Mr. Platts. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
holding the hearing. We are going to be dealing with this 
subject, if we don't deal with it directly, at least indirectly 
through the reauthorization of Juvenile Justice and Delinquency 
Prevention. So it is an important issue as we deal with 
juveniles.
    I would like to ask Ms. Brown, you know, we know what we 
are trying to cover. You, kind of, know it when you see it. But 
I was wondering if you had looked at the definition that we 
have in the bill to see if it covers everything that needs to 
be covered and doesn't leave anything out.
    It, for example, does not cover government-run programs. 
Should government-run programs be covered?
    Ms. Brown. In our survey, we looked both at government-
operated facilities and then private facilities, those that 
were exclusively private and those that received government 
funds. And we found very similar problems with the government-
operated facilities.
    The organization in the Department of Justice that 
investigates civil rights abuses for institutionalized persons 
in public facilities has an annual report that provides 
detailed information on different cases that they have 
investigated that sounds very similar to the case studies that 
Mr. Kutz reported on.
    Mr. Scott. Are there any other programs--that the 
government programs ought to be considered. Any other programs 
that would not be covered by this definition that ought to be 
covered?
    Ms. Brown. The issue of----
    Mr. Scott. If you are not prepared to answer that now, if 
you could think about it and get back to us, that would be 
helpful.
    Ms. Brown. Yes, I would be happy to.
    Mr. Scott. Mr. Kutz, I have seen studies that suggest that 
boot camps just don't work, if it is just a disciplinary 
program. However, if you have boot camp plus a significant 
education component, then it does work. And then it occurs to 
me, if you have an education component without the boot camp, 
it would probably work anyway.
    How do we deal with the question of whether boot camps 
work, as we try to regulate them?
    Mr. Kutz. The ones we looked at--and I can only speak to 
the case studies we looked at, and I am not an expert on this. 
The ones we looked at had very little educational program. It 
was more a discipline, more of a military style to, I guess, 
help youth that maybe had trouble with discipline or whatever 
the case may be.
    But I didn't see a lot of education in the case studies we 
have looked at, so I can't really address how effective----
    Mr. Scott. Well, did they accomplish a goal?
    Mr. Kutz. Again, I haven't looked at them all. The ones 
that we looked at, there was some more severe abuse, I would 
say, of kids at the boot camps. They had more of a difficult 
environment for the kids.
    Mr. Scott. Well, if they weren't abusing them, did the 
underlying program work?
    Mr. Kutz. Again, in the case studies we looked at, I would 
say no. But, again, I can only speak to a few case studies of 
that, so that is probably not a fair look at all of the boot 
camps.
    Mr. Scott. Dr. Bellonci, if you are having this physical 
activity, would it help if you required the students to have 
physical exams before they signed up?
    Dr. Bellonci. Absolutely.
    Mr. Scott. Should the staff be certified in CPR?
    Dr. Bellonci. Yes.
    Mr. Scott. Ms. Brown, we have in here that you ought to 
have standards. For example, there ought to be a medical 
emergency plan. But it doesn't say what is in the plan.
    Who should decide what specifics are in the plans? Should 
that be a state-level certification, or should the bill include 
specifically what should be in the plan?
    Ms. Brown. I haven't looked at the bill in that amount of 
detail, to be able to comment section by section on that.
    I know that there is something to be said for having broad 
standards that are agreed upon at a very high level that 
everyone can be expected to meet. When you get down to the 
details of what should exactly be in a medical plan, that may 
vary depending on the type of student that is being served.
    Mr. Scott. Well, maybe Mr. Kutz or somebody else could 
comment too. We have, staff shouldn't be convicted felons, 
particularly in child abuse areas. Should there be minimum 
standards for staff in these things? Education level?
    Mr. Kutz. Well, I would say yes. I mean, I am not, again, 
an expert on it, but I would say----
    Mr. Scott. Okay. Then who ought to set the standards?
    Mr. Kutz. I don't know who should set the standards, no, 
sir.
    But I think you mentioned something else in your comment. 
There are background checks too, because we did see certain 
programs do background checks, other ones don't do background 
checks. We had instances where prior felons were involved with 
these programs. We have seen that before. So that is something 
that is quite important, I believe.
    Mr. Scott. Well, if you are trying to accomplish a goal, 
there ought to be some minimum education requirement, some 
qualifications for staff, if you are trying to accomplish a 
goal. Who ought to set the standard?
    Well, Mr. Chairman, I guess that is something we need to be 
looking at. I yield back.
    Wait a minute. I think we might have an answer.
    Dr. Bellonci. I don't know if it is an answer. It is a 
recommendation.
    I think there are a number of accrediting bodies, there are 
a number of training programs that set their own standards, 
particularly around behavior management. And to expand on my 
earlier question of just yes to needing CPR training, there is 
so much that must go on before you even get to that point.
    And even then, I don't think that most of the interventions 
that you are hearing about are justifiable from a clinical 
treatment modality. It is just not clinical treatment.
    But even when you are a good program that is licensed and 
accredited and have highly trained and qualified staff, bad 
things can still happen. And so, having a rubric that you 
follow, that does meet some baseline platform of licensure and 
regulation, I think is at least the place to start to try to 
clarify, when bad outcomes happen, what you can learn from that 
so that it doesn't happen again.
    Mr. Scott. Mr. Chairman, my time is expired, but I would 
hope that somewhere along the lines we would consider what the 
goal of these programs might be, what outcomes they are trying 
to get, and the regulations really ought to be consistent with 
that. Just having plans and this kind of thing, at some point 
some of these programs are working, some of these methodologies 
are working, and some don't.
    Chairman Miller. Oh, I think that is part of the problem we 
have encountered here. Because there are some which are 
considered successful by parents and others and maybe even by 
those operators, the suggestion is, because some are good, you 
can't look at the bad.
    And I think we have to delineate these programs, because 
there are clearly practices here that have been designed over a 
period of years. And after various incidents and run-ins with 
various agencies, these people have learned to navigate the 
gray areas between federal, state regulation, definitions and 
all the rest of that.
    And this has not emerged by accident; this is designed. 
There have been numerous ones of these programs that are the 
most troublesome are third and fourth iterations of various 
problems and third and fourth career opportunities for people 
who were engaged in previous and serious offenses. So this is 
not an accident, that this industry has sprung up in the manner 
in which it has.
    Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you, Mr. Chairman. And I really have 
more of a comment.
    First I would like to say how sorry I am that you have 
experienced what you have. As a former social worker, I am 
absolutely horrified. I can't imagine why there wasn't any 
oversight, why nobody stepped in. And so, I say I admire both 
of you for being here and sharing your story and making a 
difference.
    And I would like to thank the chairman and those who worked 
on this to make sure that we have the changes.
    I would also like to say, the federal government does step 
in. They step in, they can provide money to states to help them 
license and oversee. So I see it as an appropriate role of the 
federal government. Indeed, you know, we have some groups that 
support animals that would have had more clout than some 
organizations had to help you.
    The other comment I wanted to make, simply was a question, 
I know that on the Web site one of the proposals would be that 
they would have access, that they could take a look. But do you 
know another way, from your own experience, to help families 
recognize the pitfalls of an organization? How would you go 
about it? Is there something else you could add to this 
discussion about how to warn families before they put their 
children in bad treatment facilities?
    Ms. Whitehead. Well, I think, sort of, what Dr. Bellonci 
was speaking to, in terms of accreditation. I think that, you 
know, regulation is important, absolutely, but anybody can open 
up a facility and call themselves a therapeutic location and 
yet use these aversive methods that are causing more harm than 
any benefit.
    So I think, you know, that would be a recommendation, 
accreditation, as well as a facility with an open campus. I 
commend the Walker School for opening up their school to 
parents. Because the facility I attended and a lot of the 
facilities I hear about, the campuses are closed, no 
unannounced visits. People have to call. Parents aren't allowed 
to come in, and so nobody really knows what is happening.
    So those are primarily the recommendations--and close to 
home. I mean, families shouldn't have to be torn apart to heal.
    Mr. Martin-Crawford. I would say even with the distance 
from home, even if kids were sent away, one of the main things 
that any parent should look for is, does your child have 
absolute access to Child Protective Services and to calling 
home to their family? Keeping those two things away, you are 
just looking for trouble.
    The other thing for parents that are just browsing Web 
sites and not really doing research, if that is the case, a lot 
of this is--you will see success stories that are, you know, 
``I just graduated.'' And it is really people that graduated 
this year or last year, you know, at the most 2 years, saying 
how the place saved their lives and all that.
    You look a little further down the road, and these kids--I 
mean, it took me probably about 4 or 5 years to start seeing 
it. And, you know, it progresses, as time goes by, to now, I 
even have my friends' parents that are telling me how much they 
hated the experience that their child went through. Because it 
takes a long time to really get over the brainwashing and the 
scars that you really go through.
    So, I mean, look at the Web sites and all the success 
stories that they tout out, from the parents to the students, 
graduation speeches, whatever the case may be--you know, try to 
be realistic. If you are only getting stuff that is within the 
last year, chances are it is because other people have stopped 
talking to them for some reason or another.
    Ms. Shea-Porter. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    Ms. Brown, a follow-up to when I asked about the best 
practices and you talked about a lot of these states have good 
aspects but no one state, kind of, had the whole package.
    And I don't expect you to have it here today, but you could 
follow up with us what you have identified what you believe to 
be the whole package, you know, of this state's good 
attributes, standards, this state's. But what would, from your 
investigations and research, be that whole package? If you 
could follow up to the committee in writing with that, that 
would be helpful.
    Ms. Brown. Certainly.
    Mr. Platts. Thank you.
    In your testimony, you referenced the Civil Rights of 
Institutionalized Persons Act and the authority of the attorney 
general to bring actions. And this relates to state and local 
facilities, public facilities.
    Are you aware of, in, say, the last 5 years, how many 
investigations and/or actions have actually been initiated by 
the attorney general of the United States under this act?
    Ms. Brown. The first thing to say is that the officials 
from this organization told us that they get more referrals 
each year than they can handle. But they do issue an annual 
report. And I am stalling right now, because I am hoping that--
--
    Mr. Platts. The attorney general's office gets more 
referrals than they can handle?
    Ms. Brown. Yes, this special litigation division that deals 
with the civil rights of institutionalized persons.
    And, okay, so in 2006 they investigated over 175 facilities 
in 34 states. And their report does contain quite a bit of 
detail about the problems that they saw.
    Mr. Platts. Mr. Chairman, if we could have the report 
included as part of the record and we receive copies of that, 
that would be wonderful.
    Chairman Miller. Without objection.
    [The three CRIPA reports for fiscal years 2004, 2005, and 
2006, respectively, are accessible at the following Internet 
addresses:]

      http://www.usdoj.gov/crt/split/documents/split--cripa04.pdf

      http://www.usdoj.gov/crt/split/documents/split--cripa05.pdf

      http://www.usdoj.gov/crt/split/documents/split--cripa06.pdf

                                 ______
                                 
    Mr. Platts. Thank you, Mr. Chairman.
    So it sounds like they are trying to be dutiful in their 
responsibilities but perhaps don't have the resources to be--
did they give any indication of, if they did, I think, 170-some 
investigations, was it twice that they received, so 50 percent 
they didn't get to? Or that wasn't shared?
    Ms. Brown. Well, they get many, many more referrals than 
they can investigate. How many of those would be valid ones 
that they should actually be pursuing, I don't know.
    Mr. Platts. Okay.
    Ms. Brown. I can tell you that, in our upcoming report, we 
are making a recommendation that relates to trying to encourage 
the other federal agencies to work closely with them so that, 
if they find information about problematic facilities, they get 
that referral over to the Department of Justice so they can 
follow up.
    Mr. Platts. Excellent. Because the more coordination and 
communication, the more likely we can get the bad apples 
identified and pursued.
    Mr. Kutz, a follow up. In your testimony, you talked about 
the referral services. I mean, clearly, it seems like false 
advertising. In Pennsylvania, we have an unfair trade practices 
act that would seem to govern some of this.
    Are you aware of any actions at the state level--or 
federal, but more likely at the state level--to pursue any of 
these entities that has engaged in the type of advertising or--
you know, fraudulent or apparently misleading information?
    Mr. O'Connell. Andy O'Connell from GAO, just to follow up 
on that question.
    We are in dialogue with the FTC regarding our work. And I 
don't know what they are doing right now; you would have to ask 
them. But we are----
    Mr. Platts. You have shared your results with the FTC, for 
them to----
    Mr. O'Connell. Yes, we have.
    Mr. Platts. Okay.
    Mr. O'Connell. And on the one tax scheme that you saw in 
our----
    Mr. Platts. Yes, on the 501.
    Mr. O'Connell [continuing]. We are making a referral to IRS 
on that.
    Mr. Platts. Great. Thank you.
    Mr. Kutz, I know you investigated these eight specific 
cases. What is the youngest age of any child, that you are 
aware of, that has been placed?
    Or if anyone else would want to answer that, as well.
    I have heard 12, a number of times 12-year-olds. Are there 
children younger than 12 in these facilities?
    Mr. Kutz. Of our cases, 12 is about the youngest. But there 
is evidence that there are kids under 10 years old in these 
programs, yes.
    Dr. Bellonci. My program actually works with children 
between the ages of 5 to 13 in our residential setting.
    Mr. Platts. How about in any of the wilderness or boot 
camp-type facility? Anyone----
    Mr. Martin-Crawford. At ours, as well, the youngest was 12 
years old. I think 6th, 7th grade was pretty much where their 
cut-off was at that point.
    But, I mean, there were kids that stayed there, although 
they were family members of staff members that ended up then 
being students later on. So they were there all the time.
    But the only ones whose parents actually admitted them, the 
youngest was about 12 years old, a kid that pretty much just 
had ADD and, while he was there, did develop the behaviors that 
most of the people pretended to have and that was actually shot 
last year as a result.
    Ms. Whitehead. I know of a facility in Utah called Majestic 
Ranch that admitted youth as young as 7.
    Mr. Kutz. At the other end of the spectrum, we had one 
program where kids were held beyond their will after 18, which 
is the other end.
    Mr. Platts. And that was one of your cases you referenced?
    Mr. Kutz. Yes. There were several kids--one was held there 
over 13 years.
    Mr. Platts. My time has expired. I don't know if we will 
have another round or not.
    Chairman Miller. We will.
    Mr. Platts. Thank you.
    Chairman Miller. Mr. Kutz, again, in a number of the case 
studies--I would like you and then maybe Ms. Whitehead and Mr. 
Martin-Crawford would want to respond also. But in a number of 
instances, we have students participating in physical actions, 
maybe abusive actions, against other students.
    Can you outline that or tell me what you know about that? 
And then I will ask the other two to respond from their 
experiences.
    Mr. Kutz. Yes, we saw students being involved in abuse and 
torture of other students, typically at the direction of some 
of the staff or owners. But, yes, kids, typically against their 
will, being responsible for that and being told to carry 
somebody around, kick them, beat them, whatever the case may 
be. And we saw that last time, too, the 10 cases from last 
fall, the same type of things, where kids were involved.
    One of the programs, the actual staff were people who had 
been program participants. So they went through the program, 
and their qualifications to be the staff were that they had 
been in the program.
    Chairman Miller. Ms. Whitehead?
    Ms. Whitehead. My facility didn't use any kind of physical 
intervention, you know, among students. But what we did, we 
were required to--it was called ``called out'' in group by 
other students. And, sort of, to deflect attention away from 
one student, we would have to call another student out on 
behavior, vague notions of dishonesty, and then they would get 
subsequently punished and have to do work crew for the day or 
rock-picking, things like that.
    Chairman Miller. Mr. Martin-Crawford?
    Mr. Martin-Crawford. The same was the case in my program. 
The students did actually have to physically restrain students. 
We had to chase them, bring them back.
    The first few times that a student would do it, if you had 
just become a senior member, you were told by staff, ``Okay, 
you are a senior member. You should go and chase them now.'' 
And then, after a while, it sort of becomes second nature. It 
is almost just a reflex, at that point, because you know that 
you are expected to do it.
    Chairman Miller. When you discussed wrapping students up in 
restraints, that was done by other students?
    Mr. Martin-Crawford. That was usually initiated by the 
faculty, but the students assisted. Like, a faculty would say, 
``Wrap them up,'' and then the students were the ones that were 
forced to do it. The faculty was then the one that would say, 
``Put them in the isolation room,'' and a student would 
observe.
    So, occasionally, we would let the kids out of the blankets 
if we thought we wouldn't get in trouble for it, if nobody was 
looking, but it was something that, if anybody was around, we 
had no chance of doing.
    Chairman Miller. Dr. Bellonci, what is your impression of 
this?
    Dr. Bellonci. Once again, I am horrified. There is no 
justification for having youth-on-youth interventions like 
that.
    Chairman Miller. Is there in, I don't know, what I would 
call a normal practice, is there a discussion of this within 
the profession of whether this is advised or ill-advised?
    Dr. Bellonci. Yes, I think it is very clear in the 
profession that this is ill-advised and unaccepted practice.
    You know, one of my comments, as I was listening to what 
could be helpful, you know, and what a parent might want to 
ask, I would want to know whether or not--you know, what were 
the professional qualifications of the staff. I would want to 
know if there was on-site medical involvement and oversight and 
an administrative capacity. I would want to know what the 
training guidelines were for the staff. I would want to know 
what the history of abuse claims were against the agency.
    In my state, you can find out more about a restaurant by 
doing a Web search for their health standards than you can 
learn about these kinds of programs that are caring for 
America's youth. And that is an outrage.
    Chairman Miller. Mr. Bellonci, I, I guess like many 
members, know of families and have been involved with young 
people and older people and their families--my wife does a lot 
of mental health work--with bipolar. I know the struggles and 
the difficulties, both for the individual suffering from 
bipolar problems and their families.
    Ever any suggestion that oatmeal--and I am not being flip 
here; I am very serious--any suggestion that oatmeal and 
exercise itself would cause bipolar to go away?
    Dr. Bellonci. I have never heard that. You know, it is a 
serious disorder. It needs to be taken seriously. There are 
treatment interventions that are successful, that are well-
studied in double blind placebo control trials. I have never 
seen an oatmeal study to show any kind of an outcome.
    There are some research studies looking at dietary 
interventions for ADHD. But, again, I don't believe that they 
have shown any significant positive outcome in double blind 
placebo control trials.
    That is not to say on a case-by-case basis I haven't 
anecdotally heard stories of reducing sugar content or caffeine 
benefiting children, particularly adolescents, but nothing 
regarding your statement.
    Chairman Miller. And, as I understand it, Mr. Kutz, this 
was held out as, in fact, a cure that would be offered, since 
this ``parent,'' this interviewer was told that this would make 
it go away.
    Mr. Kutz. That was one of the marketing pitches you heard 
in the opening statement, yes.
    Ms. Brown. An oatmeal diet?
    Mr. Kutz. Whole-grain diet, but I guess----
    Chairman Miller. Oh, excuse me, whole-grain. Let me correct 
the record: whole-grain diet.
    Again, what bothers me is that, again, a fair amount of 
experience with a lot of these parents and families, you get to 
your wits' end with a very difficult child, and a difficult 
child that you have tried different alternatives to help, and 
with school districts and all of what it entails for some of 
the clientele of these facilities. And to then suggest things 
that just aren't based in fact, science or otherwise, that this 
will all, sort of, come true, I really believe it is just 
preying, and in a very unethical fashion, preying on the 
anxieties and the stress that exists in these families.
    The repercussions, you know, of the families engaged in our 
first hearings and, I assume, many of the families that had 
their children either abused or died in this hearing, 
repercussions within those families are long-lasting and 
sometimes very devastating for the adults who later find out 
maybe that they had participated in this and how badly they 
feel about it, in some cases, or, as we discussed, in cases 
where they voluntary had their children kidnapped from their 
homes and then realized what had taken place when, certainly, 
later the child was tragically killed in those programs.
    So the idea that this is a harmful intervention at many 
levels I think is very dangerous for us as policy-makers to 
consider. Again, you know, we don't want to paint with a very 
broad brush here, but the fact of the matter is, we are 
starting to see emerge here some programs that are very 
dangerous, that are very reckless, with respect to the health 
and welfare of the children that they have in their custody. 
And, you know, they have gotten that custody, I think, under 
very suspect representations and conditions to those families 
and to the parents.
    Mr. Kutz, if I might--and I have a little bit of time 
left--these financial connections--you know, we went through a 
long scandal here on colleges referring people to certain 
student loan lenders and you might not have gotten the best 
interest rate. But here you have a referral service that may be 
financially connected, I assume through either fees or 
commissions for the referral of these patients. And so, again, 
you have no sense that you are getting informed, independent, 
ethical representations from the phone calls you made.
    Can you tell us about this or what you know about the 
financial arrangements that may create a conflict of interest?
    Mr. Kutz. I would say one case was worse than that. You had 
a husband-wife team claiming to be independent. One was the 
referral service; one was the actual program. We called the 
referral service three separate times, as three separate 
parents with three different, very different, kids, and each 
time we were referred to the same program. And it is because it 
was a husband-wife connection.
    Chairman Miller. But they hold themselves out as being 
independent referrals?
    Mr. Kutz. Well, they didn't disclose that to us, as the 
parents. So I don't know if they hold themselves out as that, 
but there was no evidence anywhere on their Web or anything 
they told us that, ``Yes, we are related to this program, and 
no matter what your problem is, we are going to put you to the 
same program,'' which appeared to be the reality of the 
situation.
    And there were other issues where I think the referral 
services are certainly getting money, in many cases, from the 
programs for the referrals. And those are undisclosed types of 
situations, typically.
    Chairman Miller. Excuse me, I lost you. Do you know that as 
a fact, or----
    Mr. Kutz. Yes, we have cases of that.
    Chairman Miller. Oh, I see.
    Mr. Kutz. Yes, absolutely. The one was the worst case, 
where you had the husband and wife. But you have other 
situations where you had undisclosed to the parents that the 
referral service was getting money for each referral they made 
to the program, or a vacation or--there were other things like 
that they were getting paid. So there was a financial 
relationship between them.
    Chairman Miller. A lot of these programs appear to have a 
28-day or 30-day--there was a time, and I don't know if it is 
relevant in this case, where that was related to insurance 
payment, that you got an insurance benefit that, sort of, had a 
30-day cut-off on it for mental health or treatment.
    Is that operative in this situation, with respect to 
placement of these young people?
    Mr. Kutz. I don't know.
    But with respect to health insurance, we were marketed by 
some of the programs, one in particular saying that you might 
be able to get money back from your health insurance. But what 
they told us was, ``Don't tell them in advance because,'' I 
think the word was, ``you will be up a creek.'' So they said, 
wait until the end. Well, you know most insurance programs 
require pre-approval for substantial disbursements.
    And so you advise a parent not to talk to the health 
insurance company, get them to believe they are going to get 
money at the end of the day. I believe they would be up a 
creek, probably, because most health insurance companies--even 
for hospital stays, you have to get pre-approval for health 
insurance. So, for something like this that is even possibly 
not covered at all, to give parents that advice is very 
misleading.
    Chairman Miller. Dr. Bellonci, do you know of that?
    Dr. Bellonci. Yes, absolutely. I think the point is that 
most health insurances would do the due diligence and not fund 
programs that were unlicensed or unaccredited. So I don't think 
most health insurances would actually support these programs.
    Health insurances also want to know that they are getting a 
return on their investment for treatment. And they would know 
that these are not programs practicing evidence-based practice 
or care, and, therefore, they would not allow payment to these 
programs.
    And I think that your point is essential, about the 
desperation that these families are finding themselves in as 
they are searching for appropriate treatment and intervention. 
I think it is a very large issue. It has to do with access to 
appropriately licensed, regulated, accredited programs. It has 
to do with the shortage of child psychiatrists in this country. 
It has to do with the limitations on health care, particularly 
behavioral health. And it has to do with mental health stigma.
    Chairman Miller. Thank you.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you again, Mr. Chairman.
    I was just wondering, as I was listening to the testimony, 
where a lot of these particular facilities are. I was just 
wondering, Ms. Brown, when you were looking at all this if 
there was a correlation between where these facilities are and 
maybe that particular state being extremely weak in child 
protective cases, you know, those states that might be weak or 
didn't have the finances to be able to do what they need to do, 
just even through, say, foster care of anything that had to do 
with children.
    Ms. Brown. We did see some correlation between a lack of 
oversight in some states and types of facilities, Utah being 
one that had a very large number of--a disproportionately large 
number of boot camps. Now, they have since started to make some 
changes in their laws in oversight. And we don't know how that 
has affected the number of facilities there.
    I think Mr. Kutz's team actually has a map that outlines 
where some of the different facilities and types are.
    Mr. O'Connell. Mr. Chairman, if I could add--Andy O'Connell 
from GAO--we have found that most of these boot camps, 
wilderness programs, residential treatment centers exist in 
about 48 states today.
    Chairman Miller. Yes. The map, I think, is page 22 or 23 in 
the GAO testimony, where they demonstrate where their case 
studies, where the student came--what state they came from to 
what state they went to the program.
    Mrs. McCarthy. Okay. You know, the more I keep hearing this 
testimony--some of us are old enough, going back to the 1960s 
and the 1970s when, unfortunately, children that had some 
mental illnesses were in these particular facilities that were 
supposed to be hospitals or treatments for them until 
investigations like yours were done to expose that these 
children were living under conditions that were totally 
unacceptable to the majority of people of the world.
    And I think that, you know, by having a hearing like this 
and trying to expose the issues that we are facing with, 
unfortunately, young people and parents who want to do the 
right thing for their children are led down this path, as Mr. 
Miller has said--you know, these parents want the best for 
their kids, and sometimes they do come to the end of the line.
    But I think that I do believe the federal government has 
the right and certainly we should be able to work it out, 
whether it is, you know, putting standards to protect children. 
Your facility--we are not concerned about facilities that are 
treating our young people at an early age. But in this day and 
age, I mean, it breaks my heart to hear about these particular 
facilities. You would think we would have grown or certainly 
gotten past on what we should be doing for our children and our 
young people.
    So hopefully we will go forward. Hopefully a hearing like 
this will educate those parents that might be having a problem 
with their young person now to really go out and--that is why I 
just think collecting the data and having a place to go for 
parents to really check out what it is, maybe even working with 
every D.A. in this country, to set up something with them so 
that we can put that data in that also, and really start 
collecting the information for more information for those 
parents.
    You know, today is the world of the Internet, today is the 
Web site. You know, put out the ones that are there, you know, 
that are the good ones, or even the bad ones, so parents can 
make an intelligent decision.
    But I do believe the federal government has a role, because 
obviously the states haven't done their job. And I think that 
is what we are seeing here.
    With that, I yield back.
    Chairman Miller. Thank you.
    Mr. Kildee?
    Mr. Kildee. Mr. Chairman, under general leave, I will 
submit questions in writing.
    Chairman Miller. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    Before questions, if I could move that we keep the record 
open for 14 days for additional testimony and for some of the 
documentation that we have requested?
    Chairman Miller. That is fine, without objection.
    Mr. Platts. Okay, thank you, Mr. Chairman.
    Dr. Bellonci, to follow up on your testimony, you talk 
about the membership of the American Association of Children's 
Residential Centers and that any member of the association has 
to be licensed and you encourage additional accreditation as 
well.
    Am I correct in understanding that, first, the license is 
by the individual state, wherever the facility is located?
    Dr. Bellonci. Correct.
    Mr. Platts. Are you aware, to be licensed, does it involve 
any--or does it mandate on-site visits of the facilities, to 
have those licenses?
    And then, also, does it involve or require any follow-up 
interviews with individuals who have gone through the 
facilities after they have left them?
    Dr. Bellonci. I think that is an excellent question.
    I can't speak to every state, because what you are hearing 
is there is really a patchwork of state licensing and 
regulation.
    Mr. Platts. Right.
    Dr. Bellonci. I can speak to Massachusetts, where they do 
come on site. They are authorized to come unannounced.
    There are actually multiple levels of oversight and 
regulation that my facility comes under. So Department of 
Education can come from the state. Child Welfare can come from 
the state because they have children placed in our program. 
Department of Mental Health can come from the state. Our 
licenser, which is EEC, can come.
    And whenever there is an allegation of abuse or neglect 
against our facility, they do on-site visits. They would meet 
with the staff. They would talk about the incident. We would 
provide them the data.
    We do our own internal investigation. We have a very low 
threshold. Even though we are serving children as young as 5, 
if a child makes an allegation against a staff person, we 
investigate that, and we do, at times, even report on 
ourselves.
    And there is a whole division of Child Welfare/Child 
Protective Service that has institutional investigational 
capacity.
    But I can't speak to whether or not----
    Mr. Platts. The other states.
    How about in Massachusetts, to your specific state, any 
follow-up with individuals after they have left your facility 
or other facilities, in other words, to get that feedback after 
they are no longer on site?
    Dr. Bellonci. It is a real problem, the follow up after 
youth leave programs.
    There have been times--and I have been at the agency 13 
years now--that I have heard about youth making an allegation 
against a staff person after they have left. And that would be 
also investigated, within the capacity of gathering the data, 
finding the staff that are probably no longer even there, to 
try to track down what occurred.
    Mr. Platts. But there is no--what I am really after was 
more like any random sampling, of just randomly picking--not 
because an allegation was made, but just a random, we would 
pick this patient or individual to follow up with, with the 
parents, with the individual.
    Dr. Bellonci. Not that I am aware of. We do try to do our 
own outcome studies, and we have staff that call 6, 12--we are 
trying for even further--months out, just to see, are we doing 
what Congressman Scott asked, can we have data to show that our 
intervention is yielding results. And it is a real challenge, 
but we are trying to do the best we can to gather data to show 
that it is a treatment worth the state's investment.
    Mr. Platts. Great. Thank you.
    I guess, to any of our witnesses, our focus has really been 
on the medical side or behavior modification, but an important 
part of any of these facilities, as the Committee on Education 
and Labor, is the education that is provided.
    And through some of our testimony--Ms. Whitehead, I think 
in your testimony you talked about it really didn't exist, that 
you taught yourself algebra and that you really didn't have an 
education aspect, even though you were there for a long period 
of time.
    What, to the best of your knowledge, each of you, education 
standards are adhered to or, you know, enforced, given that we 
have national standards, what we expect of our states to do for 
children? Whether it be in a public or private setting, we 
want, you know, a minimum level.
    What kind of oversight occurs, to the best of your 
knowledge, regarding education standards?
    Mr. Martin-Crawford. As far as education, that is the only 
thing that I can give The Family School credit for. We did 
actually have a decent education. Most of us--some of us have 
gone--a few people went to American University; I went to 
Vassar College. We had a bunch of decent graduates coming out 
of it.
    Whether or not these teachers were certified or not to 
teach the classes is a different question. We did have some 
that were qualified enough that they could have been certified, 
but I don't believe they were.
    At the same time, we also have no time to do anything but 
do homework. So, in that nature, our grades were obviously 
going to be improved. But, at the same time, it is the only 
thing that the school actually has credentials for. They do 
give out a New York state Regents Diploma that is actually an 
official New York state Regents Diploma, unlike a couple of 
other----
    Mr. Platts. So you took the Regents Exam?
    Mr. Martin-Crawford. I took the Regents Exams. I took A.P. 
college--not A.P., but college credits while I was a senior. 
You know, I was able to get into a relatively decent school.
    That is not the case with all programs and definitely not 
the case with some of them; it is completely the opposite. But 
when it comes down to misleading aspects of it, that is the 
only thing that I could say that they probably told my parents 
the truth about.
    Mr. Platts. And, Ms. Whitehead, yours was probably one of 
those opposite--or, from your testimony, not a very good 
standard?
    Ms. Whitehead. Right. I mean, my facility was accredited. I 
don't know what kind of documentation they needed to prove 
that. But what I can tell you is that we had schooling maybe a 
couple hours a day. And then we had one certified teacher that 
taught everybody both history and science. And then there was 
an uncertified teacher, the headmaster's wife, that taught 
English, which was pretty minimal.
    So, overall, maybe we had, I would say, 12 hours of 
schooling a week, maybe. And some of our field trips were 
considered schooling. You know, we would look at the trees and 
identify the leaves and things like that. But when I left the 
facility, I was far behind in everything. You know, I barely 
knew how to write a paper, and I was in 10th grade.
    Mr. Platts. Okay.
    Dr. Bellonci. If I may?
    Mr. Platts. Yes.
    Dr. Bellonci. Our students follow the same Mass Curriculum 
Frameworks. We have data to show that they have educational 
attainment. We actually do quite well with a very disabled 
population, particularly in terms of learning disabilities. 
Most of our children are gaining a year for a year in reading. 
We are struggling more with math, as the nation is.
    They have to take the MCAS, which is our state annual 
exams. So we have to meet all the same criteria. They are on 
individual educational plans, and we meet with the school 
district annually to update those.
    Mr. Platts. Okay.
    Mr. Kutz. I would add a couple things here for us.
    We saw some examples of schools that said they were 
accredited, and they weren't. So that has been something out 
there.
    And we had one kid, in our case study number five, who was 
there for 4 years and he got no education.
    Mr. Platts. Ms. Brown, did you----
    Ms. Brown. From the oversight perspective, I can tell you 
that in our survey of the states, when we asked about what 
aspects state agencies monitored, they presence of educational 
programming and also, in particular, the quality of educational 
programming were the least likely to be monitored.
    Mr. Platts. Of, kind of, a cross-section.
    Ms. Brown. Of other things, like physical plants, staff 
issues, use of seclusion and restraint.
    Mr. Platts. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Kutz, on your case number five, on page 15, you write 
about in the report the interaction between the parents and the 
placement facility. And you talk about, when the victim's 
father, the victim of this abuse, refused to attend therapy 
meetings for the fear of losing his job, the program told him 
to quit. When he would not quit his job or miss work to attend 
the meetings, the victim said the program convinced his mother 
to leave her husband. After the parents separated, the program 
would not allow the victim to contact his father. The victim 
said the program never told the victim's family that all of the 
drug tests they performed--and we referred to this earlier--
were negative results, including the initial one.
    I mean, I just don't understand this pattern of therapy, 
where this much trauma can be activated within the family. I 
don't quite get this. I have never heard of----
    Mr. Kutz. It is an incredible story, actually. It was 
almost like a cult-like organization. And they brainwashed a 
lot of the parents, it appeared from what we saw, and they 
became part of the process.
    And actually kids were going home at night sometimes to 
other people's parents' houses and staying, and there was abuse 
going on, in some cases, at other parents' houses.
    So it was a very bizarre thing, Mr. Chairman. There is a 
movie about it. ``Over the G.W.'' it is called. I mean, it is 
just an incredible story.
    And this was one of the ones that accepted Medicaid money. 
That is how they were primarily funded, millions and millions 
of dollars from Medicaid.
    But the parents became, kind of, sucked into the program. 
And there were apparently split marriages and things involved, 
because one parent might get sucked in, the other one didn't, 
and that caused pretty significant issues.
    Chairman Miller. Dr. Bellonci, you are----
    Dr. Bellonci. You know, we have learned a lot about the 
treatment of mental health disorders for children and youth in 
this country. There are established, evidence-based protocols 
and practices, largely funded by the federal government. The 
Substance Abuse and Mental Health Services Administration, 
National Institutes of Mental Health have funded studies to 
show what works and what does not.
    This is absurd that this is being done in the form of--or 
in the claim of treatment. And to think that federal dollars 
are being spent in this abuse is unconscionable to be and, 
certainly, not anything that any child psychiatrist, any 
medical professional, any mental health professional should be 
condoning or participating in.
    You know, it is not like we don't know what works. And the 
fact that we are not utilizing what is known is, I think, the 
greatest sin.
    Chairman Miller. Thank you.
    Mr. Kutz, you have, several times in your testimony this 
morning, used the word ``torture.'' And we have some discussion 
about the use of restraints and--I am sorry----
    Ms. Brown. Seclusion and restraint?
    Chairman Miller. Seclusion and restraints. Could you 
comment on this and why you used the word ``torture''?
    Mr. Kutz. Yes. I would say two things.
    Torture would be, for example, in case number one, where 
the boy couldn't walk, was having trouble breathing, yet they 
were forcing him to exercise. They were actually picking him up 
and dropping him on the ground as a push-up. In other words, he 
couldn't do a push-up, he was ready to die, and they were 
picking him up and dropping him on the ground. And I understand 
the last word he breathed was ``no.'' And so, that is an 
incredible case.
    But you are talking about the human restraint here too, and 
we saw human restraint in many forms. The ones that caused the 
death were typically the face-down restraint. And, again, some 
of those were done contrary even to the program's policies and 
procedures, where there were either three people on top of a 
child or one. And one of the boys, in fact, had asthma, and the 
staff had not been told that, and they did a face-down 
restraint, and he died.
    Some of the other restraints were, you know, it was called 
three-point, four-point, five-point; three-point being three 
people holding down limbs or the head. The five-point restraint 
would have been one person on each arm, one person on each leg, 
and one person holding the neck or the head still, many times 
for hours.
    And so, I would say that that is pretty severe abuse, 
bordering on torture. I mean, I am not sure what the 
distinction is between abuse and torture, but certainly I think 
that in some of the cases I would define it as torture, what we 
saw.
    Chairman Miller. I just wanted to make sure you weren't 
casually using the term. You are using it based upon the case 
studies that you examined.
    Mr. Kutz. Not just the case studies. Other kids in these 
programs had the same thing done to them.
    Chairman Miller. On page two of your long testimony, you 
explained how you selected these cases. ``We limited our cases 
to closed criminal cases and, thus, did not include ongoing 
cases from the last several years.''
    Can you tell us how many ongoing cases there were?
    Mr. Kutz. There is a lot. And we actually had more cases we 
looked at. We didn't include them in the testimony because they 
had some sort of ongoing litigation, or there may have been 
some other reason we excluded them.
    But, as I mentioned before, there are other big civil cases 
with hundreds of plaintiffs involved that are out there right 
now that have some of the similar types of things we have 
talked about here, that your two former victims, I will call 
them, sitting at the table here have described, the same types 
of things. So there are hundreds of cases out there of 
individuals involved with these.
    Chairman Miller. That is abuse you are----
    Mr. Kutz. Yes, those are abuse because the kids are still 
alive for that particular----
    Chairman Miller. Or, I don't know if there were families, 
but what about in--were there other cases of death?
    Mr. Kutz. Yes. Yes, there were others. Suicides and other 
types of cases of death, yes.
    Chairman Miller. Can you supplement your testimony for the 
committee with those numbers?
    Mr. Kutz. We can provide other information based on the 
other cases.
    Chairman Miller. Do you know those numbers?
    Mr. Kutz. We don't have any broad numbers, again, as Ms. 
Brown. I think just no one knows how many. But we can submit 
other information on what we know, yes.
    Chairman Miller. So these cases were selected from a larger 
number----
    Mr. Kutz. Absolutely.
    Chairman Miller [continuing]. Of cases either of death and/
or abuse.
    Mr. Kutz. Yes. And given another couple years, we could 
have used some of those other cases as they became closed, et 
cetera, yes.
    Chairman Miller. Yes.
    Ms. Brown, you know, very often this Congress has reacted 
very, very quickly to the question of background checks, 
certainly around the care of young children or the teaching of 
children, people working with children. We have criminal 
background checks. We are worried about sexual predators. We 
worry about all those kinds of things. In many cases, we have 
enacted statutes to require that of states or agencies or of 
programs.
    How do these programs fall within those kinds of background 
checks?
    In the first round of hearings, I think in a number of 
instances, we found very questionable characters working in 
these programs but no requirements for background checks. I 
don't know, again, what your survey told you about the 
background checks.
    And Mr. Kutz has alluded to, in a number of cases, where 
students were sexually preyed upon by some elements of these 
programs. What can you tell us about that?
    Ms. Brown. Well, according to what was reported to us, 
state agencies are saying that they do require background 
checks when they are funding facilities. Now----
    Chairman Miller. If the facility is required to be licensed 
by the agency.
    Ms. Brown. Correct.
    Chairman Miller. But if their facility is not required, as 
a number of these apparently were not, that would not apply.
    Ms. Brown. Correct.
    Chairman Miller. There is no generic state law with respect 
to that for a business?
    Ms. Brown. There may be some generic state laws. I don't 
know if we know the full answer to that.
    But certainly there are facilities that are exclusively 
private that are not under the purview of state agencies that 
would not be monitored for their background checks. Even if 
they were required to conduct them, there was no oversight, no 
one would know whether they had actually conducted them and 
what the outcomes were.
    Chairman Miller. Mr. Kutz, in any of your interviews the 
GAO did of prospective programs, was there any discussion about 
background checks, about staffing?
    Mr. Kutz. Yes. And sometimes they had been done; sometimes 
they hadn't.
    But remember what we talked about here earlier. A lot of 
these people were never convicted of anything. So even if you 
did a fingerprint background check on a lot of these people, 
they might come up clean, but they could have been involved 
with the cases of torture and abuse we have been talking about 
here.
    But I still would support a fingerprint background check as 
being one of the potential standards here.
    Chairman Miller. Mr. Platts, do you have any further 
questions?
    Mr. Platts. Thank you, Mr. Chairman.
    No other questions. Just, again, my thanks to each of you 
for your testimony.
    And, Mr. Chairman, also to echo your sentiments on the 
abuse that occurs to the youth, the children in these programs, 
and also the psychological, probably, ramifications to the 
parents who are probably in desperate situations, seeking what 
they think is help and trusting others to be giving assistance 
when, instead, they are not, and the long-term consequences 
within the family dynamics of the abuse that occurs in these 
facilities.
    I think that is an important aspect of the oversight you 
are leading and the efforts to reform it. So, again, my thanks 
for your leadership on the issue.
    Chairman Miller. Thank you. I want to thank you and Mrs. 
McCarthy for all your cooperation and your input in this 
matter. And I look forward to continuing to work with the whole 
committee on this.
    And I certainly want to thank GAO for all your work. I can 
tell you how much we appreciate it. I think you have given us a 
much better idea of the scope of the problem that we are 
confronting, some of the difficulties that we are going to have 
in trying to deal with it, given the patchwork of regulations 
and the creativity of some of these organizations.
    Tragically, you have also given us a pretty good idea of 
how dangerous and reckless some of these programs are, with 
respect to the students that have been assigned to their care 
by their parents.
    And maybe even more astonishing is almost the predatory 
nature of some of these programs, in preying on both the 
students when in their care and preying on these families prior 
to their surrendering their children to the care of these 
programs.
    Again, this is not an indictment of this entire industry. 
But clearly these reckless and dangerous programs should not be 
able to hide behind those who are doing the responsible thing 
with respect to the care of these children, in many instances, 
who are, in fact, very, very difficult problems and, as Dr. 
Bellonci pointed out, cannot be cared for in their own homes. 
They require some other kind of treatment outside of their 
homes.
    Ms. Whitehead and Mr. Martin-Crawford, thank you very much 
for publicly coming forward and talking about your experiences. 
And, obviously, I think every member of this committee wishes 
you the best in your continued endeavors. I am quite amazed, 
given your stories, to see where you are today, and you should 
be very proud of that.
    And, Dr. Bellonci, thank you for giving us a compass here 
of where we should be thinking about and some standards of what 
we should be thinking about, with respect to the program you 
are involved in but also the state's regulation of that kind of 
program.
    So thank you all. I am sure we will be back in touch with 
you in rather short order, because I think the hearing has 
raised some issues that we want to continue to clarify from 
both sides of the aisle. But thank you for your cooperation.
    And, with that, the committee will stand adjourned. Thank 
you.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, for holding this hearing about child 
abuse and deceptive marketing by some residential programs for teens. 
This is our committee's second hearing about residential treatment 
programs for teenagers and I commend you for your dedication to 
protecting teenagers and for your diligence in investigating these 
programs.
    Last October, this committee met to discuss cases of child abuse 
and neglect in residential treatment facilities. Since then, the 
Government Accountability Office (GAO) has continued to investigate 
instances of child abuse and deceptive marketing by some of these 
programs. Today, I am interested to hear about the results of the most 
recent GAO study and to learn about what role Congress may be able to 
play tin ensuring the safety of children at these facilities.
    Thank you again, Mr. Chairman, for holding this hearing. I look 
forward to continuing to work with you on this important issue.
                                 ______
                                 
    [Additional submissions of Mr. Miller follow:]
    [Compilation of testimony from Community Alliance for the 
Ethical Treatment of Youth, Internet address follows:]

   http://cafety.youthrights.org/wiki/index.php?title=Submit--Your--
                               Testimony

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


    Abuse at a Troubled Teen ``Faith-Based'' Program Using Physical 
              Restraint by a ``Chemical Straight Jacket''

    This is a case of physical abuse, of chemical restraint by illegal 
medicating of our daughter and other children using illegally obtained 
prescription medications without the child's or parents' knowledge, and 
what appears to be a local government cover up or simply repeated lack 
of actions by Public Servants that followed.
    This is our family's statement concerning our run-in with an 
unregulated ``religious'' teen program known as Mountain Park Baptist 
Church and Boarding Academy in Patterson Missouri. This program was 
owned by Bobby R. and Betty Sue Wills and operated by Samuel L. and 
Deborah Gerhardt.
    On or around January 15, 2003 my wife Katrina mentioned that she 
had called around to some of the local Baptist churches in our hometown 
of Lewisville, Texas. Katrina was looking for a boarding school for our 
daughter Erika. Katrina felt that Erika was falling away from God with 
some of the behaviors of adolescence that were starting to show needed 
a change in direction before the behaviors escalated. Erika was not a 
bad kid, or a troubled teen. She was starting to show how head strong 
she could be at times.
    My wife Katrina in her teen years had, herself, been enrolled in a 
boarding school in 1983 to 1984 in Mississippi called Bethesda Home for 
Girls. Katrina, from what she remembered, had a pleasant experience and 
felt Erika could gain from her own experience at a bible-based boarding 
academy.
    The first time my wife Katrina mentioned sending Erika away to a 
boarding school I had the usual fears that any parent would have. I 
wanted to make sure our daughter would be taken care of properly and 
could grow both mentally and spiritually.
    Katrina said that a church staff office worker at Temple Baptist 
Church in Lewisville, Texas had a name and number to a Baptist boarding 
school in Missouri. Katrina had called and talked to Brother Sam 
Gerhardt and realized during the phone conversation that Sam Gerhardt 
also had run Redemption Ranch for Boys in Mississippi. Katrina had 
remembered that it was the boy's academy owned and operated by Bobby R. 
Wills and Betty Sue Wills, and who also ran the Bethesda Home for 
girls.
    Katrina was excited to say the least she reflected on many of the 
good times she had while she attended Bethesda. She spoke highly of 
``Papa and Mama Wills'' (Bob and Betty Wills). Katrina told me of the 
bus tours they would take going around to different churches and 
singing for the church's congregations. With Katrina's memories of the 
good times she had while attending Bethesda, along with her fond 
memories of the Wills, and with the recommendation of a local church, I 
felt that I would need to take a leap of faith and go along with 
Katrina's decision to send Erika to a boarding school.
    January 18, 2003 we enrolled our daughter Erika in Mountain Park 
Baptist Boarding Academy in rural Patterson, Missouri.
    I understood from what was represented to us that Mountain Park was 
firm in discipline, and would be a good Christian environment that 
Erika would be involved in. When we were driving back to Texas from 
dropping off Erika we felt confident that, although Mountain Park 
Baptist Boarding Academy would be tough at first for Erika, it would 
ultimately be a good experience for her.
    Looking back this first impression was the furthest from the truth 
and only the beginning of a bad nightmare.
    For the first few weeks everything seemed like it was going well. 
Then Katrina came home from her Wednesday night church program at 
Northview Baptist Church in Lewisville, Texas with a folder from a 
church member by the name of Elaine Dawson. Elaine had asked previously 
which Boarding Academy Erika had been sent to. Katrina told her. Elaine 
went on the Internet and found several websites and articles concerning 
Mountain Park and the owners. Elaine gave Katrina the folder and told 
her to view it with an open mind. Katrina gave me the folder and asked 
if what was in it could be true. I read through the articles from the 
websites www.mountainparksurviors.com, www.mountainparkhorrors.com, and 
copies of lawsuits and bankruptcy concerning the Wills and Gerhardts. I 
was shocked at what I saw.
    If even an ounce of what was contained in the folder was true, I 
knew I did not care to be associated, nor have my family members 
associated with the Wills and Gerhardt clan.
    The next day I called to have our DSL Internet connection hooked 
back up so I could do my own research. One of the forum posts concerned 
a mother who tried to remove her daughter from Mountain Park Academy 
and was arrested for kidnapping.
    I told Katrina that when she spoke to Erika or the staff at 
Mountain Park Academy not to let on that we felt something was not 
right. My greatest fear at that time was for Erika's safety and to see 
what had to be done to remove her as soon as we could.
    Mountain Park required a Power of Attorney, and since access to our 
daughter was limited and from what I understood at that time concerning 
papers we signed, we could not just drive up and demand custody of our 
daughter. I now know different. Their power of attorney was not limited 
as it stated or even legal, although Mountain Park Academy 
Administrator/Principal Samuel L. Gerhardt presented that it was. The 
contract papers are illegal, according to Missouri Laws concerning 
``take it or leave contracts.'' Mountain Park Boarding Academy clearly 
had the upper hand as far as the contract agreement was concerned.
    As soon as the DSL was re-connected I started researching for 
myself. I have researched the stories of abuse, neglect, reaching back 
in to the early 1970's and also found that they had connection to 
Lester Roloff and his brand of discipline that gave me alittle more 
insight into how they operated.
    I decided then that we had to get Erika out of there as quickly and 
as safely as we could. I was torn because I wanted to confront Samuel 
and Deborah Gerhardt for the lies that we had been told, but I was 
concerned that if they were confronted over the phone something bad may 
happen to Erika. It was a tough decision, but we decided not to tip 
them off that we knew things weren't as they the Gerhardt's represented 
them to be. As parents we had to play along with Mountain Park's stupid 
manipulation game with their requests to help ``re-establish our 
authority as Erika's Parents.''
    The whole time they were trying to make it seem as if they were 
helping to re-establish our relationship with our daughter they were 
actually working to destroy the relationship.
    I knew in order to get Erika out safely it was a possibility that 
we would have to wait until our first ``four month family visit'' 
unless an opportunity arose before that.
    I knew that according to a copy of the Power of Attorney that had 
been posted on Mountain Park Survivor's website and comments that were 
with it, we needed to draw up a Revocation of Power of Attorney to 
remove any supposed parental right Mountain Park thought they had. I 
contacted a few attorneys and others for suggestions. I found out what 
the form needed to say and to whom to submit, etc. I found a generic 
version on the Internet and modified it. We would also have to have it 
signed, before a notary, and make sure it was also filed as certified 
in Wayne County, Missouri, where Mountain Park was located, before 
going for our visit.
    Meanwhile, on or around the first part of April 2003 Erika had 
mentioned that her tooth was cracked and she needed to see a dentist. 
We told her that she needed to tell the staff at medicine call so they 
could make arrangements for an appointment. It took close to two 
months, and only after Katrina made several calls to Debbie Gerhardt, 
for Mountain Park Academy to finally get Erika to their dentist. First 
they would use the excuse that Erika couldn't go to the dentist until 
her four-month family visit. Then the next excuse was that the dentist 
could not see her for a few weeks. Normally for emergency dental work 
it should be a few days at most, not a few weeks. That was pure neglect 
on Mountain Park's side. For them to allow a child that was suffering 
with a cracked tooth to continue to suffer until it was finally made an 
issue with the repeated requests by the parents. I guess Mountain Park 
realized that we as parents still had some authority. Or they noticed 
that we as parents would not allow our child to suffer as they would.
    Erika's tooth was repaired by sub-standard dental work to say the 
least. We had to take her to another dentist once she was set free from 
their Gulag to have a dentist repair the sub-standard work Mountain 
Park's dentist had done. We paid $144.00 for Mountain Park dentist, 
(because in Mountain Park's and their dentist words Erika had a huge 
cavity) and then another $351.00 to have the cracked tooth and crappy 
dental work corrected after she was out.
    While it took well over a month for Mountain Park get around to 
taking our daughter to a dentist of their choosing after our repeated 
requests, it took less than a week for them to send a notice that ``we 
as the parent of Erika needed to replenish her medical account.'' In my 
opinion Mountain Park's greed played a part since the coffer was not 
full to the rim.
    My wife Katrina had started requesting ``our first family visit'' 
around mid to late April. First Sam Gerhardt told her that request 
couldn't be made over the phone it had to be in writing. So Katrina 
hand wrote a request and sent it. Next the request came back, with a 
note saying that request had to be made on the request form that was 
contained in the PARENT/student handbook. So Katrina filled out the 
correct form and sent it. The next week we received it back with 
another note stating that the dates Katrina had chosen WOULD NOT work 
because that was the week of graduation.
    So Katrina, being a little peeved by this time, called up Mountain 
Park and asked Mrs. Harper (Mountain Park's Secretary) to please get a 
message to Sam Gerhardt that we will be there to see Erika on May 16, 
2003 for our family visit.
    Time was growing very near and although we didn't realize, at that 
time, the real reason that Mountain Park was trying to stall us on our 
visit. I now feel we caught them off guard alittle when we arranged our 
visit a week before graduation instead of two weeks after graduation. 
(explained later)
    On May 15, 2003 we left Texas for the long 10-hour drive to 
Missouri for Our First Family visit. On Saturday May 16, 2003 instead 
of going directly to Mountain Park Academy, we made a detour to the 
County Court House to file the revocation of Power of Attorney papers 
with the county clerk.
    Shortly after filing the papers we proceeded to the sheriff's 
office. There we asked to see Sgt. Handy. Another Deputy was on duty 
(Deputy Fox) and said that Sgt. Handy was off that day. We spoke with 
him and told him that we were going to Mountain Park to retrieve our 
daughter. I asked him if he was familiar with the Boarding School and 
he said ``Oh yes, we here of all kinds of things going on out there.''
    Deputy Fox asked if we needed an officer to go with us. At first we 
said yes but when he said that we needed to wait a little while until 
he called someone. I decided that I wasn't going to take a chance of 
wasting time, since I didn't know just how well he knew them and what 
if any his connection was. I knew through researching Mountain Park 
Academy they had a maintenance guy with the last name of Fox and I was 
not going to wait to find out if they were related. I told him that we 
go alone and if we needed them we would call.
    We drove straight to the Mountain Park Compound we arrived shortly 
after 9:00 am. Of course the front door to the office was locked. (They 
would not want any of their golden geese escaping.)
    My wife called from their front porch phone so we could gain access 
to the office. There we met Debbie Gerhardt. She asked who we were and 
allowed us in to the office.
    Katrina was allowed to go back into the dorm to get Erika. From 
what Katrina has told me, she grabbed Erika's bag and started filling 
it as fast as she could. Katrina said that the student guide that 
escorted her back to the dorm had an odd look on her face like she knew 
something was awry.
    While Katrina was getting Erika, I stayed in the front office 
making small talk with Debbie. She asked me where we would be staying 
for our visit and what sights did we plan on seeing while we were on 
our ``family'' visit.
    That was the longest ten minutes of my life, standing there 
listening to someone that I knew was an out-and-out liar and a fraud. 
And worst of all using religion as a tool to take advantage of people 
and their family in need.
    As soon as Erika had entered the office I started making a beeline 
for the front door. Debbie wanted to continue the small talk but at 
that point I really had one thing on my mind and that was to get Erika 
out of there.
    We exited the office and headed straight for our vehicle. On the 
road out of the Mountain Park Compound I turned to Erika and told her 
that I hoped that she got everything she wanted (as far as clothes and 
personal items) because if she didn't she would not be seeing them 
again. She had the most puzzled look on her face. And said ``Sir?'' 
Katrina repeated what I had said. I told Erika then that she was out 
and was not coming back so what ever she left she will not see again.
    I wasted no time getting out of Missouri; we drove as fast and as 
hard as we could to get back to Texas and away from Mountain Park's 
Culpable Regime.
    On the drive home Erika had complained that her right arm hurt and 
that she had three spots that looked like burns. Katrina asked Erika to 
pull up her shirtsleeve to see the spots. I didn't see them real clear 
until we got home. One spot was on the inside near her wrist, one spot 
was inside of her arm near her elbow, and the other spot was located on 
the inside of her upper arm.
    As soon as we arrived home I emailed Attorney Oscar Stilley, whom 
we had previously been in contact, to let him know that we filed the 
revocation of power of attorney and that we arrived home with Erika 
safely. I mentioned to him in the email that Erika had three spots on 
her arm that appeared to be possibly burns and she didn't know how she 
got them. I also asked him what, if any, repercussions should I expect 
from Mountain Park as far as Mountain Park expecting full payment of 
tuition.
    We spent the rest of the weekend enjoying the time with our family. 
On Sunday night around 5:00 PM CST, I stayed close to the phone 
expecting Mountain Park to be calling wanting to know if we were lost 
and why Erika was not back at the Academy.
    That call never came. I guess once again that Mountain Park has 
shown that they were not concerned about our daughter, or our family. 
They never even bothered to call to check up with us on her status.
    Of course, it might also be possibly someone in Wayne County 
informed Mountain Park administrators that we had filed the Revocation 
of Power of Attorney.
    On Monday morning Katrina faxed a copy of the filed revocation 
Power of attorney, just so if Mountain Park didn't already know they 
would then be notified that we did not plan on bringing Erika back to 
them.
    On Tuesday around 11:40pm CST, I receive an email from Oscar 
Stilley (a reply to the one I sent him on Saturday night) Oscar dropped 
a bombshell in that email. One I never in my wildest dreams thought 
would happen. In that email he mentioned that he and others suspected 
that Mountain Park Administrators/Owners/Staff may have been illegally 
medicating the children in their custody. Without a Doctor's 
prescription, without the knowledge of the children, and without the 
knowledge of the parents. He didn't know exactly what drug was used but 
asked if I would be willing to have Erika tested for a class of 
medications. He thought it was rather strange that Erika had burns on 
her arm but she didn't know how she got them. I printed a copy of 
Oscar's email with the list of drugs to test for and the following 
morning (Wednesday) I took Erika to our family doctor to have drug 
tests done.
    We spent another week in turmoil not knowing what the results would 
show. We would let all the abuse (burns on her right arm), and the 
neglect (dentist incident) pass as something to learn from and to never 
again take a leap of faith no matter how innocent and well-meaning 
people seem to be on the surface.
    But then the three-page tests results came back. The first page 
(urine test): ``none detected.'' I thought well good may be Mountain 
Park was abusive but not cruel and inhumane as other people on the 
Internet had portrait them to be. Then the following day I got a call 
from the nurse at the doctor's office. ``Mr. Hoover it would appear 
that the results I gave you yesterday were not complete there are two 
more pages that came in today and it shows that Erika tested positive 
for chlorpromazine in the serum (blood) test, which goes by the brand 
name Thorazine and traces of Mellaril.'' The test results on the third 
page clearly show that Erika was drugged with Thorazine at a level of 
198ng/ml.
    Horrified * * * ! Damn right. How dare they. * * * Mountain Park 
Boarding Academy states that they don't believe in Behavior 
Modification drugs. The BASTARDS were going against their own policies 
and violating the law by secretly medicating the children in their 
care.
    Looking back this would explain the complete change in Erika's 
headstrong attitude. When we picked her up from Mountain Park Academy 
she was overly submissive.
    It was not God, it was not Mountain Park's Miracle ``Religious'' 
Message and Discipline practices. It the simple fact that they were 
chemically restraining children that refused to conform.
    For the record, I do not know how many other children over the 30 
years that Wills and the Gerhardts claim to of been helping troubled 
teens were or may have been restrained chemically, but there are other 
children with positive serum tests and positive hair tests. Our 
daughter was not the only child to fall victim to these predators; we 
are not the only family that knows this to be true.
    Also for the record, based on my daughter's positive test results, 
I contacted the Wayne County Sheriff's Department about abuse of my 
child. I also called the Missouri child abuse hotline and complained. 
As a result, the Sheriff's Department and a unit of the State Highway 
Patrol went to Mountain Park, took urine samples from kids and drinks, 
and collected pills, and apparently hair samples to test for illegal 
drugs. But either the lab never received the samples, the samples were 
never tested, or the test results were lost or destroyed, because 
according to a state investigative letter sent to me almost 2 years 
later, they could not substantiate my claims because the Department 
could not get the Sheriff's Office or the Highway Patrol to give them 
results.
    On the surface it would appear to the general public that Mountain 
Park Baptist Boarding Academy is using religion to help bring change in 
the lives of children in their care. In reality it is not religion that 
this Clan (Bobby Ray and Betty Sue Wills and Samuel L. and Deborah 
Gerhardt, who are related by marriage, and any of the other family 
members of their staff) at Mountain Park Baptist Boarding Academy & 
Palm Lane Baptist Boarding academy were using to ``help troubled 
teens.'' Religion is simply the cloak that is hiding their abusive 
practices.
    These Faith-based programs need regulated as well as the other teen 
programs. If researched, you will find that many of the ``faith-based'' 
programs have a network behind the scenes.
    Some of the very referral services and non-profit corporations have 
the very people that run these programs sitting on the board of the 
non-profit corporations. The fox minding the hen house, so to speak. 
These non-profit corporations are believed also to be using the 
``Associations of Christian Child Caring Agencies'' that have been set 
up in several states: Texas, Florida, Missouri, and many other states. 
These agencies use referral services to transfer children from state to 
state. In some cases, even to out of the country and/or off-shore 
programs. The Founder of FACCCA is Bobby R. Wills. Michael Palmer was 
also on the board of FACCCA, as well as the corporate board of Palm 
Lane Baptist Boarding Academy in Florida, which the Wills also owned. 
Michael Palmer, who owned Genesis Ministries, as known as Victory 
Christian Academy, is believed to have transferred students out of the 
country to Palmer's Genesis-by-the-Sea Academy in Mexico, which was 
raided several years ago for abusive practices.
    When Mountain Park Baptist Boarding Academy in Missouri and Palm 
Lane Baptist Boarding Academy in Florida finally shut their doors, 
Mountain Park Boarding Academy's Principal Sam Gerhardt was quoted as 
saying, ``We've been in some battles for the last couple of years. It 
is just time for us to do something different.''
    My belief is that although we were unable to get these criminals 
charged, as they should have been, we got to close to what was actually 
happening. They were caught with their hand in the cookie jar. Instead 
of them standing on their religious soapbox much like they had done so 
many times in the past they instead closed the academies and fled to 
another state: first to Newport and now Knoxville area of Tennessee.
    Mountain Park Academy's Owners/Administrators/staff were likely 
illegally obtaining prescription medications to control, dominate, and 
warehouse the children under their care so they could fleece the 
parents of the tuition monies. And they were making quite a profit for 
their ``church''--only a rough estimate of well over $4 million a year. 
Of course the IRS may need to check to verify the actual amounts they 
claimed.
    To further add insult to the injury it would appear that they are 
using the profits of tuition money, along with donated mission funds to 
defend them in court and provide them with a nice retirement nest egg 
and to buy political favors along the way.
    I have screamed loud and I have screamed long and still in today's 
America I cannot get the civil servants of Missouri to do their jobs. I 
called and wrote all levels of local, state, and federal agencies, 
including the governor's office and the FBI. Sure Missouri Family 
Services investigated but never followed through. Instead they sent a 
letter dated April 18, 2005, stating, in part, the following:
Incident Number 03209148 and 03217038
    ``This case was pending until the results came back from the MSHP 
Division of Drugs and Crime Control. As of April 18, 2005, there are no 
results of these tests. The Wayne County Sheriff's office reportedly 
forwarded the evidence to MSHP Division of Drugs and Crime Control for 
testing, however, there is no report in the Wayne County Sheriff's 
Office in reference to this. Numerous attempts were made to obtain this 
information from Wayne County Sheriff's office and the MSHP Division of 
Drugs and Crime Control.''
    --Rick Engelhardt (by Dea Nobis, OHI Field Supervisor).

    My question is this: Why and how could a case be closed as 
unsubstantiated when the results have not been received?
    The federal court in the Eastern district of Missouri is clearly 
not impartial. Justice in America is not blind, in my personal opinion, 
it is being bought. If a person was to review the case Woods v. Wills a 
person would clearly have to reason that the premature summary 
judgments, along with rulings by the Judge were not impartial they were 
biased to the defendants. The issue of was Mountain Park using drugs on 
the children in their care never even was allowed in to the trial. The 
parents' portion of the complaint concerning fraud by Mountain Park 
Academy was also not allowed in. How is this happening?
    Please keep in mind that when we realized what Mountain Park 
Boarding Academy Owners and Administrators were using illegally 
obtained prescription medicine, and illegally medicating children in 
their care, we did everything in our power to get criminal 
investigation and charges to be brought against them before any civil 
actions were taken. The civil court actions were only brought against 
them after no criminal actions were taken. We have cooperated fully 
with the Government Agencies that are supposed to stop this type of 
Illegal activity. We will continue to cooperate fully if and when any 
criminal actions are finally brought against these religious frauds.
    Too many people in power positions mysteriously are turning a blind 
eye to what is happening.
    Finally, the Federal Government is looking into the physical abuses 
and the deceptive practices used by Owners and Administrators of 
programs in the troubled teen industry.
    Although the Hearing held on April 24, 2008 covered and made public 
the physical abuses, deaths, it covered a few of the deceptive 
practices in only a few programs. I heard mention of physical 
restraints used against several of the children in these programs, but 
what was not mentioned was use in these programs of chemical 
restraints.
    From the research, I have done it clearly shows the effects of 
chlorpromazine is a chemical restraint also known as the ``Chemical 
Straight Jacket.'' In Mountain Park Academy's use of this chemical 
straight jacket it achieved for them what physical abuse could not. 
With chemical restraints there are no outward signs of abuse, but it is 
no less dangerous. There are many side effects from the use of 
chlorpromazine some that will not appear until years down the road. I 
hope that Erika will be fortunate and any adverse effects will not 
affect her in the future.
    In closing I would like to thank the Committee for allowing our 
statement to be included into the records.
    I hope that the committee, lawmakers, and the general public will 
see that this issue is not an isolated incident. In researching 
Mountain Park Boarding Academy, the only regulation through the state 
of Missouri was an annual fire inspection. What a joke. I hope that 
regulating the programs will promote the safety and well being of our 
children and to stop the abuse and torture that has existed for many 
years. It is well past time to regulate these programs.
    It has been shown that these programs are either unable or 
unwilling to self regulate for the safety of children these programs 
have placed profits above the well being and safety of children.
            Thank you,
                                               Doug Hoover.
                                 ______
                                 

       Letters Received Concerning Residential Programs for Teens

                                             Beth Goldberg,
                                       Gloucester, MA, May 7, 2008.
    To Whom It May Concern: My son attended the Family Foundation 
School from January 2003 until December 2004.
    After many interventions, which included school counselors, 
doctors, therapists, drug counseling and two psychiatric hospitals he 
was sent to Family Foundation School
    Prior to his being accepted as a student, I was required to visit 
the school, speak with admissions directors, get a tour of the campus, 
and participate in a family lunch. At that time, I determined that this 
was the place that my son needed to be to address his addiction issues.
    My son was heavily involved in drugs and alcohol, was abusive both 
physically and verbally, stole, lied, cheated and was sexually 
promiscuous. He punched holes in walls, broke doors, snuck out at 
night, refused to go to school, and was completely out of control. He 
had no respect for himself or anyone else. No matter what interventions 
were put in place here at home, it became painfully clear that they 
were not working, and that he was in need of long term rehabilitation. 
I felt completely hopeless, and without any viable options to help my 
son.
    I heard about the Family Foundation School from a parent whose son 
had attended the school, and was then attending Northeastern University 
after completing the Family School program. A year later my son was 
enrolled at the school. He was sixteen years old.
    Today, my son is a senior at Binghamton University and is slated to 
graduate in a matter of weeks. He has been sober for five years. The 
tools he received at the Family Foundation School were far beyond 
anything I could have imagined.
    Not only did he learn the tools to become a responsible, caring and 
sober adult, but he experienced many educational opportunities which 
included taking college credit courses while at the school, 
participating in national debate competition in Salt Lake City, Utah, 
and found his voice in Family Foundation School's award winning chorus 
and theatre productions. He was a contributing editor of ``The Family 
Times'' newspaper and surrounded by caring adults who encouraged him to 
be the very best he could be. My son also learned the value of giving 
back, and has returned to the school to work part time while attending 
college.
    There are no words to express my gratitude to the Family Foundation 
School. I believe that my son is alive today because of his attendance 
there. He went to the school as a defiant, irresponsible, drug and 
alcohol addicted teen and left the school as a caring member of this 
world with a sense of how to use the tools he was given to maintain a 
sober and healthy life. He has a strong sense of community and of the 
importance of helping others. There is no doubt he gained these 
important convictions as a result of his stay at the school.
    The Family Foundation School also works very closely with parents 
to help them understand addictions and encourages participation in 12 
step programs, as well as offers family meetings to address specific 
issues. Parents are given many insights and opportunities to gain tools 
to move into the future as a healthier parent. The healing that 
occurred as a result of my son's attendance at the Family Foundation 
School has been felt though out our family system. I have an honest, 
loving and open relationship with my son today and he has healed 
relationships with his brother and father as well. I will forever be 
grateful to the caring and talented staff at the school.
    If you have any questions, please feel free to contact me at the 
address and phone number above.
            Sincerely,
                                             Beth Goldberg.
                                 ______
                                 
                                                  January 14, 2008.
Re: Education and Labor Full Committee Hearing ``Cases of Child Neglect 
        and Abuse at Private Residential Treatment Facilities'' (10/10/
        07)
    Dear Representative: As leaders in the private outdoor behavioral 
healthcare industry, we were instrumental in obtaining regulations in 
our state and would like to offer our expertise and experience to you 
as you consider drafting legislation for programs such as our own. 
Unfortunately, we recently received negative attention at the Education 
and Labor Full Committee Hearing ``Cases of Child Neglect and Abuse at 
Private Residential Treatment Facilities.'' We hope that you will take 
the time to look beyond what was conveyed, listen to the other side of 
the story, and to consider our recommendations for regulation.
    Twenty years ago, Catherine Freer Wilderness Therapy Programs was 
founded on the belief that combining therapy and outdoor experiences 
would offer troubled teens and their families a valuable treatment 
option. Since 1988, our program has helped thousands of adolescents 
address the issues that are causing them to struggle. These youth, as 
many will attest, would most likely still be abusing drugs and alcohol, 
alienated from their families, in jail, or worse if their parents 
hadn't intervened and sent them to our therapeutic wilderness program. 
(Enclosed please find letters from clients and their parents discussing 
their experiences at our program.) We currently hold multiple 
licensures in the State of Oregon and are accredited by the Joint 
Commission on Accreditation of Health Care Organizations (JCAHO).
    Catherine Freer Wilderness Therapy Programs serves 300 adolescents 
per year and helps middle class youth whose parents have run out of 
options for saving them from self-destruction. These are kids that 
haven't found success in outpatient treatment, have not yet become 
enmeshed in the criminal justice system, and who don't qualify for 
federally or state funded programs. These working families often fall 
through the cracks and can do little to help their children with 
emotional and behavioral issues. We strongly believe that these 
families deserve to have options for their children. With our licensing 
and accreditation, 70 percent of our families are able to receive some 
third party (insurance) reimbursement for their treatment, which is a 
critical factor for most of our clients. Taxpayer dollars are not used 
to run our program.
    Our program was mentioned in the Government Accountability Office's 
testimony due to the tragic loss of life of one of our participants 
(Refer to GAO-08-146T--Case 8). Even with licensing, accreditation and 
regulation, incidents can happen as our program has learned to our 
great sorrow. With all of the information before them, the 
investigating authorities came to the conclusion that this young 
woman's demise was not the result of abuse and neglect. (Her 
dehydration was later found to be caused by the use of a prescription 
drug for which no FDA warnings existed at the time of her treatment 
with us.) It is unfortunate that not all the details were brought forth 
in the GAO's testimony regarding this incident. We also suffered the 
unrelated loss of a participant that died from a falling tree limb and 
a client who died of natural causes while sleeping. In all of these 
cases, we reached out to the authorities, asking for them to thoroughly 
examine and review these incidents. And, in each case, neither abuse 
nor neglect was found.
    We firmly believe that well-crafted and thoughtful regulation can 
raise the bar for outdoor therapy programs and other privately funded 
therapeutic programs. These programs offer effective approaches to 
treatment for families. At Catherine Freer, we have invested heavily in 
outcome research to verify that our treatment is helping families. 
Following is some of the data gleaned from multiple studies:
<bullet> Long-Term Outcome Research Program
    A study by the Outdoor Behavioral Healthcare Industry Council 
(OBHIC) and the University of Idaho Wilderness Research Center of 850 
parents and adolescent participants indicates that clients entered 
wilderness programs with about the same level of dysfunction as 
adolescent patients entering psychiatric hospitals. At graduation their 
average scores were slightly above the normal adolescent range. Another 
phase of this study suggests that a large majority are doing well 24-
months after treatment. More than 80 percent of parents and over 90 
percent of graduates contacted believed that their wilderness treatment 
experience was effective two years after the process. (Enclosed please 
find detailed information on the research and a summary of other 
research from 1999-2006.)
<bullet> Catherine Freer Customer Satisfaction/Outcome Study
    This study found that 90 percent of parents said they would 
recommend the Catherine Freer program to others. The average 
satisfaction score for their children being treated with dignity and 
respect was 2.84 on a three-point scale. On a four-point scale (one 
indicating an ``extremely serious problem'' and four indicating ``not a 
problem''), parents rated their children on 13 behavior items with an 
average pre-program score of 1.81, a one-month post-program score of 
3.38, and a one-year post-program score of 3.45.
    As this research clearly indicates, outdoor therapy is a proven 
solution for troubled youth. Our industry is helping serve families in 
need and deserves attention and regulation, not censure. Presently 
there are 102 outdoor behavioral healthcare programs. Ninety percent of 
these programs are licensed by state agencies, and more than 60 percent 
are nationally accredited by the Joint Commission or the Council on 
Accreditation (Russell, K. C. [2007], Adolescent Substance Use 
Treatment: Service Delivery, Research on Effectiveness, and Emerging 
Treatment Alternatives. Director, Outdoor Behavioral Research 
Cooperative, College of Education and Human Development, University of 
Minnesota.) We believe that the risks to adolescents participating in a 
licensed and accredited private therapeutic wilderness program are not 
significantly different from the risks to adolescents in the general 
population. Unfortunately, there are some programs that are not 
licensed and have created both service quality and risk problems for 
some families and their children.
    Understanding the importance of regulation, we strongly advocated 
that Oregon develop regulatory rules for outdoor therapy programs 
operating within the state. We had the honor of consulting on 
legislation and participated actively in helping craft the regulations. 
Oregon created a good process, with clear assignment to Child Welfare 
for both writing and enforcing the regulations, while including both 
program stakeholders and outside parties as consulting participants. We 
believe the result could serve as a national model for regulation of 
outdoor therapeutic youth programs.
    From our experience, some of the issues that should be addressed 
through regulation include management issues, following the JCAHO 
model: how policies are created, monitored and enforced; outside 
oversight on those processes; and how incident reports are analyzed and 
then utilized to alter policies and to provide staff training. In 
addition, intake procedures, medication management, and staff 
qualifications and training should be considered in the regulation 
process.
    We humbly request to join you at the table to help create 
regulations that would protect families, while at the same time 
preserving viable options for children in need. We also ask that there 
be a serviceable level of appropriations allocated to fund this 
regulation and abuse and neglect prevention. We would be happy to 
discuss approaches to regulation creation with you and your staff and 
be helpful in the future in any way that we can.
            Sincerely,
                                      Robert Cooley, Ph.D.,
                                                Executive Director.
                                            Paul Smith, MA,
                                                  Program Director.
                                 ______
                                 
                                             Cody W. Traub,
                                       Kalama, WA, January 9, 2008.
    Dear Congressman Miller: It has come to my attention that you are 
working on some legislation to regulate outdoor wilderness programs. 
Putting restrictions and capping these programs would be a mistake.
    In 2002 I attempted to take my own life. I was only an 8th grade 
student. I suffered severely from depression, behavior and family 
issues. Many times I thought there was no hope for me. My parents also 
felt similar at times.
    I was in and out of different behavioral treatment centers in the 
Portland, Oregon area. Nothing worked. I came home to the same 
destructive environment and fell back on bad behavioral habits. It 
seemed as if I was lost and had nowhere to go.
    I had little aspirations in my life. After being stuck in different 
facilities and coming home to the same issues, I found hope. Catherine 
Freer Wilderness Therapy Programs answered my call for help.
    One March day in 2002, my parents picked me up at a behavioral 
health center in Washington State. They transported me to the offices 
of Catherine Freer Wilderness Therapy Programs in Albany, Oregon. I was 
terrified. As I was in all of the facilities I went to.
    After having a group meeting with other families and participants, 
my journey began. I said goodbye to my parents, as I would not see them 
for the next twenty-one days.
    The group of complete strangers left for an unknown location in the 
Oregon Cascades. We arrived in the unknown location and began our trek 
through the Oregon wilderness. The next three weeks would be the 
hardest and most influencing events of my life.
    After completing the three week trek through the Oregon wilderness, 
I was a new person. I left the trek and spent a day with my parents in 
Bend, Oregon. A day later, my parents transported me to Burns, Oregon 
where I stayed on a mule ranch with a well structured family.
    I stayed on the ranch for two months. I was stripped of all of my 
materialistic items and lived a simple life working on the ranch. This 
experience helped shape me.
    Overall, my experiences with Catherine Freer Wilderness Therapy 
Programs were phenomenal. I would not have the drive, personality and 
sense of humor I have today without this experience. There is the 
possibility that I could have taken a different path in my life. I 
could be a criminal or even dead today without this program.
    I went from a depressed, self destructive middle school student to 
a mature young man that made history in his small town. In high school, 
I served on the Washington Association of Student Councils as the 
President and held the office of President on my high school student 
council. I had the opportunity to meet with several Washington 
legislators, Governor Chris Gregoire and U.S. Congressman Brian Baird. 
My teachers and principals described me as a history maker and dream 
student.
    I started working at the age of fifteen years old for the City of 
Kalama, Washington as a Computer Network Manager and Administrative 
Assistant. In January 2008, I started working full time for the City of 
Kalama with my old position and in a new position at the Kalama Police 
Department as a limited authority law enforcement Community Service 
Officer. I am also currently enrolled in the Associates in Criminal 
Justice program at the University of Phoenix.
    Without Catherine Freer Wilderness Therapy Programs, I would have 
never made those accomplishments. I would not have the sense of humor I 
have nor would I have the motivation and morals I do today.
    Please do not put a cap on outdoor and in-patient therapy programs. 
These programs are life changing for many people and it would be a 
devastating event to see the programs botched because of government 
regulations.
            Best wishes,
                                             Cody W. Traub,
                                                        Kalama, WA.
                                 ______
                                 
                                                   January 4, 2008.
    To Whom It May Concern: I am writing to express my support for 
wilderness programs. It has been five years since I first participated 
in a Catherine Freer Wilderness Expedition and five years now that I 
have been sober. I owe my sobriety to Catherine Freer Wilderness 
expeditions. Without the program's support, I would not have had the 
motivation to drop my addiction to drugs and alcohol and return to 
values that I once knew were important. In all honesty, I would have 
ended up dead or in prison without the intervention the Catherine Freer 
program offered.
    The program was effective because it took place in the wilderness. 
The wilderness offered the necessary space to evaluate my life and an 
important reminder of what is necessary to survive in this world--food, 
water, shelter, clothing, and friends--and what is not--drugs and 
alcohol. Catherine Freer used the wilderness to make me responsible for 
my own life. In the wilderness, I was responsible for wearing the best 
clothes for the weather, eating enough food, and making sure my water 
was clean. These skills demonstrated how good life is when I do the 
right things and how miserable it can be when I do not. With the 
support of my Catherine Freer Wilderness expedition and the lessons 
learned from the wilderness, I was able to rekindle a relationship with 
my family, return to school, and take advantage of opportunities not 
before available.
    One of the opportunities that I took advantage of was being a field 
staff for Catherine Freer. With the perspective of being both a field 
staff and a client, I know Catherine Freer takes the necessary 
precautions to create safe experiences for their clients. As a client, 
I always felt safe and cared for by the staff leading me through the 
experience. As a staff member, I learned that my trust in those staff 
that led me through the wilderness was not blind.
    I would like to think that Congressman Miller's intent is good, but 
I am worried about the type of legislation he may propose. Miller has 
capitalized on the misfortunes that have occurred in the wilderness 
programs while overlooking the success these businesses have in saving 
lives. I therefore believe that Miller's proposal will hinder 
wilderness programs' success. Congress should not restrict Catherine 
Freer from being able to effectively change destructive behavior. I 
applaud Catherine Freer for being safe and humane, and I find Miller's 
proposals unnecessary.
    I would not have been awarded three years in a row Academic All-
American in college or have continued to pursue a love for the 
wilderness with my father as a companion if it had not been for 
Catherine Freer. I urge you to think about the good that this program 
has had for me and the many others and balance it against the risks 
those must take to effectively participate in a wilderness program. 
Please let Catherine Freer and the other businesses in the industry 
provide their services without restricting or hindering them.
            Sincerely,
                                            Chas Biederman,
                                                   South Haven, MS.
                                 ______
                                 
                                                  January 10, 2008.
    To Whom It May Concern: I am not sure where I would be right now if 
it weren't for the Catherine Freer Wilderness Program. I am actually 
frightened when I think about it. My life was on a road to disaster, 
and I had refused the help of my loved ones, close friends, and 
professionals who tried to stop my self destructive behavior. I felt 
angry, lost, and alone, and the only comfort I could find was in drugs 
and alcohol. If it weren't for my father enlisting me in this program I 
most surely would be in serious trouble today, if I were around at all.
    My mother died when I was very young and, despite therapy and 
support from my family, I self-medicated with drugs and alcohol. I felt 
as though nobody could really understand what I was going through, and 
I longed to get away and be on my own with my friends who also used. I 
attempted to run away from home several times, and went on binges that 
sometimes lasted several days. I was fifteen years old.
    By the time my drug use was at its worst I had experimented with 
cocaine, ecstasy, methamphetamines, and prescription drugs. I was also 
a regular user of alcohol and marijuana. Although these drugs made me 
feel better while I was using, I was destroying my relationships with 
everyone around me, most importantly my father. I feel so guilty when I 
think of what I put him through during that time. I am so lucky to have 
family that cares about me so much, and even though they did everything 
they knew how to help me, I was destroying their trust and abusing 
their help.
    My father tried so many ways to reach me. He sent me to several 
counselors, which I manipulated into thinking that I was fine by 
blaming everything on him. We tried to ease my depression with drugs 
such as Zoloft and others, but it didn't help. I was still using, 
lying, sneaking out in the middle of the night, and getting in trouble 
with the law. It seemed like nothing was working. I didn't want to 
stop. Then my dad found out about the Catherine Freer Wilderness 
Program.
    He heard about it from the parent of one of my friends that I first 
started using with. He had sent his daughter on a trek to try and 
change her destructive behavior and drug use. Although it seemed 
extreme, it was like a last hope. So one day my dad woke me up early 
and took my brother and me to the Catherine Freer office. It was there 
that I met the other kids who I would be sharing this experience with 
and their families. Everyone had a chance to tell their stories, and I 
realized that even though our situations were different we all had a 
lot in common. It was heartbreaking to here everyone's families share 
the effect that their child's and sibling's actions had on them. 
Everyone cried. I was scared, because I knew that we were about to be 
sent away.
    At first I resisted, as I am sure most kids do, but after a week or 
too out there in the wilderness things started to become more clear. 
The Catherine Freer staff was so amazing; you could tell that they were 
really there to help us. It was hard to open up in group every night, 
it's hard to be so vulnerable with people you hardly know, but over the 
period of three weeks I learned more about myself than I ever had. I 
knew I wanted to change my life. I knew that I had to make things right 
with my family and loved ones. I made the decision to change and, in a 
way, it was scarier than being on trek. It was very emotional, 
physically challenging, and eye-opening. I learned important tools to 
stop my addiction and become the person I want to be. These tools have 
helped me tremendously to this day, and will continue to help me 
throughout my life.
    After trek was over I had the opportunity to stay in a transitional 
home. It was there that I learned even more tools to help me overcome 
addiction and rebuild the damaged relationships with my family. The 
Catherine Freer staff was still very much involved with my progress, 
making phone calls to the home to see how I was doing, and planning 
weekend retreats for the people in the transitional homes. I felt very 
cared for and valued by these people, and I still do. I have received 
multiple emails and phone calls from members of the Catherine Freer 
staff even years later.
    When I left the transitional home and returned to my home town 
things were not easy. But with the help of those people who had 
supported me for the last couple of months I became active in AA and 
NA. They encouraged me to communicate with my father and use the tools 
I had acquired to rebuild our relationship. Now we are closer than we 
have ever been. I learned how to communicate my true feelings and have 
conversations in a way that I had never had before with my family.
    My senior year of high school I applied for my small communities' 
royalty court for the Strawberry Festival. It might not seem much to 
people that have never been to the Strawberry Festival, but for my town 
it is huge. I couldn't believe it when I was accepted onto the court 
and went on to win the title of queen. It was a great honor, and an 
experience I will never forget. It was so rewarding to share with the 
Catherine Freer staff this accomplishment, because I give them a lot of 
credit for my success, as I mentioned in my newspaper article when I 
was on the court.
    Since the Catherine Freer Program worked with my school I was able 
to earn credits for the time I was away, which helped me to graduate on 
time. Since graduation I have gone on to attend Western Oregon 
University, where I am well into my third year. My inspiration to 
become a teacher came from the woman who tutored us at the transitional 
home. Somehow she was able to get us to actually care about our 
education, and she allowed me to take on extra credits which helped me 
to graduate. It was her dedication and compassion for our learning that 
really inspired me to teach. It couldn't have been an easy job, we were 
a group of girls with many behavior issues, but she didn't give up on 
us. I want to have that impact on my students someday. I want to show 
them that I care about them as people, and I want them to succeed.
    I have been living on my own know for about three years. My first 
year I spent in the dorms on campus at Western, and now I live in an 
apartment close by with a roommate that I met in the dorms. I have been 
spending my summers working at a grass seed research farm in Albany, 
and for a little over a year I have also been working at Target in 
Salem, Oregon. I am supporting myself and continuing my education, and 
I am very happy. I have many friends who do not use, and I am very 
close with my family.
    I still read my journals that I wrote while I was on trek from time 
to time to remind me how far I have come. Whenever I am frustrated or 
upset I think about all of the good things I have in my life because of 
the changes I have made. I cannot thank the people at Catherine Freer 
enough for this opportunity to be a whole, happy, and healthy person, 
and for caring enough to keep in contact with me years later. If it 
were not for completing this program when I was 16 years old I probably 
would not have even completed high school. I owe so much to them, and I 
hope they are able to continue helping troubled kids for a long, long 
time. Thank you for reading my story.
            Sincerely,
                                             Erin Van Atta,
                                                   Montana Academy.
                                 ______
                                 
                                                       May 4, 2008.
    Dear Chairman Miller and Ranking Member McKeon: After studying your 
proposed bill, I write to include my reactions in the public record. I 
applaud your intentions and efforts to improve the safety of private 
programs, but I strongly oppose H.R. 5876 as written.
    I am an owner of a private therapeutic program that would fall 
under regulation with the proposed bill. I agree that we must place 
safety and appropriate care of children as the foremost priority in all 
residential care, in both public and private settings. I also agree 
with the general safety requirements outlined in Section 3 with the 
possible exception of section E (access to telephones must in many 
cases be supervised to ensure that access is restricted to parents and 
a child abuse reporting number). Unrestricted access to telephones has 
great potential to corrupt treatment with calls to undesirable and 
unsafe contacts.
    However, I strongly disagree with the suggestion that the law turn 
over authority for regulation of these basic safety principles to the 
federal government. Federal authority to regulate will override and 
conflict with the many states that have worked for years to understand 
and create regulations responsive to this level of treatment. Federal 
regulation in all fifty states will also create a costly, inefficient, 
bureaucracy that largely duplicates state and county agencies that are 
already in place to provide on-sight inspection and assurance of 
compliance with safety standards. It would also be impossible for the 
federal government to create well informed and reasonable regulatory 
rules and enforcement procedures within the ninety day period allowed. 
Appropriate regulation can only derive from a careful and diligent 
attempt to examine and understand these programs and the need they 
fill.
    The mandate from your committee to the GAO was simply to 
investigate and document any evidence of abuse in private programs. The 
investigation did indeed document a few clear incidents of abusive 
practices. They made no attempt to compare these incidents of abuse to 
the incidence in the public at large, or in public residential 
programs. However, it should be noted that the GAO's suggestion that 
they uncovered ``thousands of allegations of abuse in residential 
programs'' came directly from the Department of Health and Human 
Services NCANDS data base, a data base that derives almost entirely 
from public, state funded, and licensed residential treatment programs. 
If anything, the GAO report provided clear evidence that whatever child 
safety laws are passed with regard to residential care must apply 
across the board to publicly run programs, groups homes and foster 
homes as the evidence overwhelmingly suggests that the incidence of 
abuse is much greater in these programs than in private placements in 
which parents have complete authority over making and terminating the 
placement.
    What was lacking in the mandate was any effort to understand and 
report on the important care that is now given to thousands of children 
in private residential treatment facilities. Tens of thousands of 
families are paying out of pocket to place their children in private 
residential programs each year because of inadequate and failed 
treatment in their community settings. Virtually all of the children in 
our private therapeutic programs have tried and failed to respond to 
conventional outpatient therapies, community based psychiatric 
facilities, and medication. And yes, there are a few remaining programs 
that are highly disciplinary in nature, the so called ``boot camps'', 
but they have nothing in common with virtually any of the private 
programs that would fall under the regulation of this law. In fact, the 
vast majority of military and boot camp programs are run by state 
correctional facilities which are not covered by your bill.
    The problem for most troubled adolescents in private residential 
care is that they are grossly immature, and have failed to develop a 
personality structure sufficient to handle the stress and demands of 
being a teenager in a culture that is loose, unstructured, and toxic. 
It is extremely dangerous to be an adolescent who relates to the 
demands of being a teenager with the approach of a child. Such 
adolescents display a variety of DSMIV-R Axis I psychiatric symptom 
clusters such as anxiety, depression, school failure, impulsivity, and 
lack of morality. However, the underlying problems are primarily 
failures in character development. Treatment of such problems does not 
require a hospital level of care, but often does require removing 
children from their locally toxic environments and placing them in 
safe, nurturing, well structured programs that allow them to repair the 
wounds that have led to their failures to mature.
    Attempts to regulate such programs must first involve an effort to 
understand them in order to establish regulations that are appropriate 
but reasonable for the levels of care. Failure to take the time to 
understand and be responsive to the different levels of care required 
for character growth can result in eliminating these important 
programs, or turning them all into inpatient hospitals, or day 
treatment programs, solutions that have already been tried and failed 
for these children and their families.
    Most states have worked with programs for many years to understand, 
and modify standards to fit treatments and yet protect children. The 
federal government does not have this local level of expertise, and 
making a mistake in this type of regulation that eliminates or alters 
significantly these programs will put thousands of children in eminent 
danger for their life.
    I strongly urge you to amend your bill to provide funds for states 
to meet or exceed your basic standards of section 3 within one year of 
passing this law. In this way we will have strong basic standards, but 
each state can demonstrate how they meet these standards for the 
various types of programs that operate in their jurisdictions. You will 
also greatly reduce the funding requirements of the bill, empower 
states, and eliminate a costly bureaucracy.
    I feel that I own and operate a high quality therapeutic school, as 
do many of my colleagues. We support the intent and goals of your bill, 
but are terrified that arbitrary and uniformed regulation can easily 
make it impossible for us to operate our facilities that truly have 
saved thousands of struggling adolescents.
            Respectfully,
                                      John L. Santa, Ph.D.,
            Licensed Clinical Psychologist, Owner, Montana Academy.
                                 ______
                                 
    To Whom It May Concern: I was one of those parents who had my son 
at 15 escorted to The Family Foundation School on April 23, 2003. He 
was escorted at 4:30 A.M. After coming home drunk and God knows what 
else. He graduated on June 25, 2005 with a high school diploma, above 
average grades, and many extracurricular activities. It was one of the 
few times in his life he finished what he started to my amazement and 
did it better than I would have ever dreamed. The experience may even 
have saved his life!
    But most important, he was sober for 26 months and experienced life 
on life's terms and allowed his brain, (frontal lobes) to develop. Now 
he is my only child, and I am here to tell you that I was a very 
protective parent who hated the idea of doing this in the first place. 
But it does not take a keen eye to see the spiral of drugs and alcohol 
coming to a point of critical mass. I did what was right and stand by 
it to this day.
    Was the school tough. * * * yes? Did it brainwash my son * * * yes. 
But he needed the structure and he needed his brain washed. He will 
tell you for himself that he needed the structure. He watched the 
testimony along with me and after he discussed it, his comment was that 
he wants to go back and visit the school one day.
    I would encourage you to invite parents and former students, sober 
or not to tell their side of the story of their experience. Ask any 
military person, West Point Cadet or grunt and they will tell you the 
school was a cake walk. Go to any AA meeting and you will hear that 
there is no ``easy or soft'' way of combating addiction.
    Yes, the school has evolved, grown for the better made changes but 
it was never the hell this kid is portraying. And regarding scars, I am 
not buying it. As for the failure of his military career, what part did 
he play in that? What part did he play in getting to the school in the 
first place? Everyone has scars, get over it.
    Did you watch the PBS program about life aboard the Nimitz, the 
aircraft carrier? You will hear young kids at 18 talk about the 
horrendous conditions they escaped to find that the structure in the 
military was the best thing for them. Furthermore, they did not allow 
their awful environment to become an excuse for any failure. They got 
off their back sides and had the courage and presence of mind to do 
something about it. Now my son does not walk the line as I would like 
him to but I am convinced that the school planted a seed that for ever 
more will stay with him.
    Yes, like anything out there, there are the good schools and bad 
schools for wayward youth. There are some losers that need to be shut 
down or tweaked. But The Family Foundation School is not one of them. 
The school is an open book.
            Regards,
                                               Gene Lysick,
                                                   Montana Academy.
                                 ______
                                 
                                                       May 6, 2008.
    Chairman Miller and Committee Members: I write, after studying your 
bill, to place my observations about its surface good intentions and 
its deeper fatal flaws into the public record. Unfortunately HR 5876 
addresses upsetting and real state-level problems with an expensive, 
massively inefficient and duplicative federal solution that is likely 
to do substantial collateral damage to useful, innovative, 
irreplaceable high-quality programs that have nothing to do with these 
incidents or flawed practices. As written it ought not to be passed. If 
amended sensibly, it could serve a useful purpose.
    Since my comments are critical, my motives may be relevant. Let me 
introduce myself briefly. I am a democrat, who has trained and worked 
as an economist. My objections to your bill are not to do with a 
doctrinaire allergy to regulation, for surely some sectors of the 
economy, like medicine, surgery and psychiatric programs that involve 
high-risk youth, need regulatory structure and constraints. With my 
colleagues I have supported sensible state regulation of therapeutic 
programs for teenagers in Montana. Inasmuch as there has been 
resistance to this effort in our state, your bill could help us if it 
encouraged responsible state supervision for adolescent programs here. 
Yet, as written, your bill seems unlikely to help very much with 
Montana's own effort--and instead it overrides state regulation with 
new federal bureaucracy.
    I was trained as a physician--educated at Harvard College, 
Cambridge University (UK), Case-Western Reserve School of Medicine 
(Ohio) and in Yale's Department of Psychiatry. For 8 years I was a 
professor of psychiatry at University of California (San Francisco), 
where I helped direct the training of young psychiatrists. Since then I 
have become experienced in private outpatient and hospital inpatient 
practice with both teenagers and adults. I have led adolescent hospital 
start-ups in Texas and Montana, serving as clinical or medical 
director, and I have decades of outpatient office experience. In 1997, 
in a break from the enforced mediocrity of managed care and unnecessary 
overhead costs of inpatient units, I joined other experienced 
clinicians to co-found a first-rate therapeutic school in a remote 
valley west of Glacier Park--called Montana Academy. In this past 
decade we hired and trained a remarkable staff: 8 PhD psychologists, 2 
board-certified psychiatrists, 3 MSW therapists, 7 certified teachers, 
and tens of BA-level supervisory staff, who together address the 
protean serious developmental problems of 85 floundering teenagers.
    In sum, in 35 years of clinical and administrative experience I 
have become expert in some of the problems of troubled American 
teenagers and knowledgeable about the various approaches to the 
treatment of their own and their families' many troubles.
    Given my involvement in an innovative, safe and well-managed 
clinical and academic program, given our professional ethical 
scruples--about which I may say that we need no instruction from 
anyone--it is clearly in our interests to promote competent, firm 
regulation and licensure. It is in our interest that sensible 
regulation weed out irresponsible, incompetent programs and practices, 
and expel the bad actors. For both can harm children and, when they do, 
they tar our collective reputations. There is no protective motive on 
your committee that we do not share, nor is there any fierce 
indignation about wretched adult misbehavior or mismanagement that we 
did not also feel long before your committee hearings. In fact, we know 
more about what it takes to provide safe, responsible and useful 
treatment than you have any reason to have learned. Moreover, most of 
the measures your bill calls for--e.g., criminal background checks, 
proper training of staff, prohibitions of staff violence or sadism, 
adequate medical supervision, and the proper care and feeding of 
growing children--already are established aspects of our routine 
practice and should be enforced--by competent regulation--in any 
program involving children and teenagers. We have been impatient about 
the lack of enforcement of ethical standards in program marketing and 
in the referral process.
    Yet the values and good intentions we share do not produce great 
enthusiasm for HR 5876. In fact, I have three substantial reasons to 
oppose your approach to these problems--and to propose an alternative. 
In brief, your hearings documented a few egregious clinical debacles 
and unethical marketing practices--and, as to the latter, we could add 
examples of practices more troubling than those the GAO cites. But as 
egregious as those cited cases may be, the GAO report and the evidence 
cited in your hearings fail to justify the solution you propose: a 
massive new federal howitzer to be fired immediately and from 
Washington, DC at distant private programs taking care of troubled 
teenagers.
    First, your data provide no reliable measure of the size of the 
problem for which you propose this massive federal solution. The GAO 
report claims to have ``identified . . . ``thousands of allegations of 
abuse . . . at residential programs across the country'' (p. 1)--but 
these data concern public programs for adjudicated youth. Those data 
are not relevant to private programs for troubled teenagers. The 
populations of adjudicated teenagers in public programs is not at all 
the same as the population in private NATSAP programs, nor are those 
programs structured or staffed in the same ways, nor are the results of 
residential treatment at all comparable (Ellen Behrens, 2008). There 
are not ``thousands of allegations of abuse'' in private residential 
programs. And HR 5876 specifically excludes all those public programs 
from its regulatory mandate, so that, in effect, the GAO report 
demonstrates a substantial problem about apples so as to justify 
federal regulation of oranges.
    Second, a few egregious cases of abuse, incompetence and unethical 
marketing practices certainly might justify sudden massive federal 
intervention if there were no state regulation in place already. But in 
many states, particularly in states in which most of the private 
programs for troubled youth have long been up and running, there 
already are regulatory rules and licensure standards, which are firmly 
enforced by state authorities. In some of those states (e.g., Utah) 
this structure and those nuanced regulatory practices are the result of 
years of experience and expertise. State regulators know well the best 
programs and best practices as well as those programs with egregious 
problems, and have adjusted their regulatory practices in a nuanced way 
to their local, innovative programs. Surely it would be useful for 
federal pressure to push states new to regulation to learn from those 
whose tested practices result from solid experience and years of data, 
but to ride roughshod over those informed local regulatory agencies and 
to invest massively in yet another centralized federal bureaucracy 
seems another example of Washington arrogance and contempt. Moreover, 
if (as implied in HR 5876) the goal is to promote state governments to 
accomplish their own adequate regulation, massively funding a new 
national bureaucracy for inspection and enforcement hardly seems like a 
rational way to do it. To argue, as you have, that some examples of 
incompetence or misbehavior justify a massive new federal juggernaut is 
no different than to urge, on the basis of regularly published examples 
of physician malpractice, impairment or error, that we need massive 
federal regulation to over-ride, supercede and supervise California's 
own medical licensure board. I expect the honorable chairman's own 
state board would discover a fatal flaw in this logic.
    Parental due diligence, already in place, makes the need for a new 
federal bureaucracy less than obvious. Unlike teen inmates in public 
programs, teenagers in private residential schools have parents 
involved--at the very least to give consent and to pay the tuition. At 
Montana Academy we have never enrolled a student without requiring 
parents first to come to Montana themselves--to discuss their 
children's problems, meet our staff, visit our school and talk 
privately with other students. Moreover, the parents of every child we 
have ever enrolled has been referred to us by an independent 
educational consultant, who has visited our program and knows all 
alternative programs in the nation.
    In addition, there are independent accreditation bodies that, in 
our case, make federal inspection redundant. Montana Academy's academic 
program is accredited by the Northwest Association of Schools and 
Colleges (NWASC), which accredits Montana's public schools. Our 
clinical program--policies and procedures, safety, staff credentialing, 
clinical competence--has been accredited by the Joint Commission on the 
Accreditation of Health Care Organizations (JCAHO). Both academic and 
clinical aspects of our program has been reviewed and accredited by the 
National Independent Private Schools Association (NIPSA). The state of 
Montana is putting in place a state licensure, and we must demonstrate 
that we meet state fire codes. This being so, a reasonable person must 
ask why--in addition to NWASC, JCAHO, NIPSA, Montana's Fire Marshall, 
Flathead County Public Health Department (kitchen standards) and the MT 
Department of Labor--the legitimate regulation of Montana Academy also 
requires a new federal bureaucracy, located three thousand miles away, 
to duplicate these requirements and inspections. At the least, it makes 
sense to exempt from new federal scrutiny any program that achieves 
regular, substantial on-site inspection in other ways.
    Finally, neither the GAO report nor hearings before your committee 
seem to have bothered to ask a representative sample of parents about 
their experience--and so discover the worth of many of these private 
residential programs. I can tell you, as they would, that there are no 
equivalent services available within conventional psychiatric and 
psychological and academic facilities. I can tell you, as they would, 
that their children already had failed to respond to outpatient 
therapies tried at home, brief hospitalization, and competent 
prescriptions of (usually multiple) medications. I can tell you, as 
they would, that they would not have some so far, or endured a painful 
separation from their much-loved children, if contemporary psychiatric 
remedies had resolved their many potentially crippling problems.
    Yet I can find little evidence in HR 5876 to suggest that, prior to 
offering this legislation, the committee has given respectful 
consideration to the collateral damage this legislation could do--as it 
creates a remote, federal bureaucracy and mandates unknown new rules, 
regulations and costly requirements. Given the total lack of 
consideration and knowledge about the unique virtues of these 
alternative programs, there is a significant risk, many of us 
recognize, that such a federal bureaucracy will, with the best 
intentions in the world, transform our less-costly, ingenious, 
innovative and effective private programs into stereotyped, massively-
costly psychiatric hospitals. That is, we fear that, out of an 
imprecise picture of alternative private schools and programs, and out 
of indignation at the egregious misbehavior of the few, you may destroy 
something valuable for the many--innovative useful programs that have 
taken us years to develop, and about which we are justly proud.
    I hope that these observations and objections can get a serious 
hearing from members of the committee and the Congress--and that 
responsible legislators will consider the duty to which physicians must 
swear an oath: first to do no harm.
            Sincerely yours,
                                    John A. McKinnon, M.D.,
                                                Co-Founder and CEO.
                                 ______
                                 
                                            Kristie Henley,
                                    Bonners Ferry, ID, May 6, 2008.
    To Whom It May Concern: My name is Kristie Henley (formerly Vollar, 
maiden name Woodbury). I'm a graduate of Explorations Wilderness 
Assessment Course in Trout Creek, MT, as well as Mission Mountain 
School in Condon, MT. I graduated Explorations in 1993 and Mission 
Mountain School in 1994. I am also an Affiliate member of NATSAP 
(National Association of Therapeutic Schools and Programs), and a 
student member of the American Psychological Association. I work at 
Woodbury Reports, Inc., owner of the resource web site 
Strugglingteens.com.
    I'm not sure where to start, as I wasn't sure I'd be given a chance 
to share my story / experience with schools and programs in the private 
parent choice network. I want to thank Mr. McKeon for allowing 
additional testimony from graduates who hold other views of their 
program than those that were allowed to testify. No one coerced me (or 
even asked me) to share my story, it is of my own free will and desire.
    I initiated contact after I watched the second of Congressman 
Miller's hearings on abuse in residential treatment centers, emotional 
growth schools and programs, therapeutic boarding schools, wilderness 
camps, etc. and saw the testimony of Kathryn Whitehead, former student 
at Mission Mountain School. One reason I felt it was important for me 
to speak up is because I was Kathryn's roommate at Mission Mountain 
School for almost eight months. She was the first roommate I had upon 
arrival. My intention here is not to poke holes in her testimony or 
bash her in any way, as each of us will see things differently and each 
interprets experience differently. However, I know there was at least 
one inaccuracy in her testimony that I'd like to be addressed for the 
record.
    That inaccuracy is in the educational component of Mission Mountain 
School. According to Ms. Whitehead's testimony, ``we only attended 12 
hours of unaccredited education (by uncertified teachers) per week with 
``extreme amounts exercise''.'' This is an exaggeration. We attended 
school Monday through Friday. Classes started between 9:00-9:30 am 
(after a community meeting to communicate with each other how we were 
all doing) and ended at 2:30 or 3:00 pm. At 3:30 pm we had a 45 minute 
aerobic exercise time, Monday, Wednesday and Friday. Depending on the 
season, this was either 45 minutes of biking or cross-country skiing. 
On Tuesday and Thursday, we did yoga or stretching. This exercise was 
for health reasons as well as Physical Education credits, not for 
punishment.
    Our lunch period was an hour and a half each day. For part of the 
lunch break, we did community chores * * * the same type of chores 
rural families would do in a home, or people would do on a working 
ranch: cooking, dishes, kitchen cleanup, taking care of pets, cleaning 
horse stalls, gathering/ chopping firewood, etc. These were designed to 
help the students learn work ethic, discipline, responsibility, 
carrying your own weight, etc. There was a daily rotation so groups of 
girls would each take turns on different chores.
    Educational classes included Health, Sciences, English, Math, etc. 
There were also a couple independent study programs, which provided a 
variety of options. The independent study classes were a lot like being 
homeschooled. One of the Sciences we did was Environmental/ Earth 
Science. As part of the labs of Earth Science, we would take field 
trips to the surrounding forests to identify different plant life.
    We also attended 3-4 hours of standard education on Saturday 
morning. The classes we took were accredited and we did receive high 
school diplomas. My transcripts were fully accepted by North Idaho 
College, which would not have happened if the school were unaccredited. 
We even took monitored SATs, which were also accepted by my community 
college. I did not have to take an entrance exam, nor did I have to 
take a GED exam prior to being accepted in college.
    I have written numerous articles over the years based on my 
experiences in both a wilderness program and a therapeutic boarding 
school, which were published in the Woodbury Reports newsletter and on 
the website Strugglingteens.com. I have attached many of them to this 
letter showing that although the programs I attended were not easy, 
they did help me and I am grateful.
    It has been 14 years since I graduated and there hasn't been one 
day over the last 14 years that I felt either of my programs were 
abusive or punitive. In fact, I currently work in the network of 
private, parent choice, emotional growth/therapeutic boarding schools. 
Many alumni do. I chose to work in this network because I believe my 
programs saved my life, changed me for the better and gave me tools to 
lead a very successful life and work through life's trials. I also know 
how bad it can be if a mismatched placement is made, and want to help 
ensure that doesn't happen.
    Over the last eight and a half years of working in this network, I 
have visited numerous schools and programs. I have talked with 
children, out of the presence of others, under no scrutiny of the staff 
or other students. I have asked them questions about their programs and 
experiences, and shared my experiences with them. Although there are 
bad programs and referral services out there, many programs are highly 
reputable and know what they are doing. I have helped place a handful 
of students in programs, based on their needs. I have written articles 
about my experiences and done a lot of research on which schools and 
programs work well and which don't.
    In this second hearing, all the examples except one (not including 
the two witnesses who attended schools) were outside the network in 
which I work. Many were actually state run/ state placed facilities or 
boot camps, rather than private, parent choice therapeutic boarding 
schools or wilderness programs. In addition, the ``referral agencies'' 
the GAO contacted were not in fact Independent Educational Consultants 
experienced in successful placements of children. The GAO did not for 
example objectively contact my office, which is one of the largest (yet 
legitimate) companies of information for parents and professionals. 
They contacted us before the first hearing, where we shared with them 
some of the research we do annually on schools and programs in the 
private, parent choice network. They did not use any of the information 
we provided. We also would like to see those illegitimate referral 
agencies and programs shut down, but not at the detriment of the good 
schools and programs available to help the thousands of children who 
need (and succeed) in private programs.
    If more information is needed, I can be contacted via email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e48f968d97908d81a4938b8b808691969dca878b89">[email&#160;protected]</a>, via my office 208-267-5550, on my cell phone at 
208-610-9831, or postal mail at PO Box 1107, Bonners Ferry, ID 83805.
                                 ______
                                 
    To Whom It May Concern: I attended the Family Foundation School for 
two and a half years starting in 1991 and ending shortly after 
graduation from high school in 1993. During my stay at The Family I was 
involved in all levels of the organization, first as a troubled teen 
being admitted, then as a student, a senior member of the student body, 
an employee, and eventually as a college student.
    I was shocked and appalled by the allegations made by a fellow 
Family School alumni, Jon--Martin Crawford, before the US House of 
Representatives. I know that many of the statements made by Mr. 
Crawford are untrue and feel compelled to do whatever I can to restore 
any damage to the reputation of the Family School suffered as the 
result of this testimony.
    It is not easy for many people to understand the profoundly 
positive impact The Family School has had in my life and the lives of 
countless other troubled teenagers. All who have known me from my teen 
years through today mark two phases in my life, before The Family 
School and after The Family School. My parents, brothers, friends, and 
others are still in amazement and grateful fifteen years later for the 
process I went through at The Family and the results that it has 
produced.
    Today I own and run a rapidly growing Internet Advertising company 
with over 50 employees in Lake Mary, Fl. Many of the virtues I learned 
while attending The Family School are actively in place in our work 
environment. Honesty, Work Ethic, Integrity, and the pride associated 
with being a contributing member of society are all alive and well 
within our organization. I know of many of my fellow alumni who have 
made significant improvements in their lives and have benefited their 
families and communities as the result.
    I believe it is enormously important that everyone who heard the 
testimony of Mr. Crawford learn the reality of what really happens at 
The Family School. In admirably high numbers, troubled teens become top 
students, athletes, painters, actors and actresses, singers, golfers, 
debaters, chess players, and most importantly, positive members of 
their families. All of this is accomplished in a very loving 
environment that empowers people to move beyond their current troubles 
and issues and ``act their way to right thinking''.
    There are undoubtedly organizations that profess to change lives, 
and do so under the conditions Mr. Crawford described. Like any 
reasonable person * * * I am horrified that such institutions exist. 
Please be assured that The Family Foundation School * * * is not such 
an institution. The greatest shame that could come from this testimony 
would be if legislation were passed that contained provisions which 
hampered the ability of life saving organizations like the Family 
School from carrying out their good work. Undoubtedly, there is a need 
to protect teenagers from mistreatment at the hands of others, let's 
not do so by removing the ability of The Family School to protect them 
from themselves.
            Most Sincerely,
                                        Michael E. Jenkins,
                                     Founder & CEO, MarketLeverage.
                                 ______
                                 
                                           Michelle Funaro,
                                         Guilford, CT, May 8, 2008.
    To Whom It May Concern: After viewing the latest senate hearings on 
the child abuse and deceptive practices of residential programs, I felt 
compelled to write as I have a daughter who attended The Family 
Foundation School in Hancock, NY from Sept. 2003 to June 2005. I will 
share some of our family history with you. My daughter was a difficult 
child growing up. We, her parents, always made sure she received all 
the love and care that she needed. By the age of 14, she was drinking, 
drugging, getting in trouble in school, stealing, and getting in 
trouble with the law. By the age of 16, she was stealing credit cards, 
money, the car and taking off in the middle of the night. By this time, 
she would go to parties, use drugs, get drunk, and was sexually active 
without use of protection. She became verbally and physically abusive 
to us.
    My daughter was the driver involved in a car accident that could 
have taken the lives of three other girls, as well as her. By the age 
of 17, she was failing in high school. The school said that they could 
not provide an education for her and that we needed to find someplace 
else for her to go. My daughter had been through the court system for 3 
separate offenses (possession of drugs, possession of stolen credit 
cards, and for physically abusing me). She was mandated by the court to 
wear a monitoring device and was restricted to home, medical/therapy 
appointments, and school only. She was using her therapist to obtain 
medication that she then crushed and snorted up her nose, along with 
the medication that she and her friends were taking from family 
member's medicine cabinets or buying off the streets.
    We had gotten to the point that we had to lock up our wallets/
purses/money and put locks on bedroom doors so she didn't steal from 
us. We hired an attorney so that we did not violate our daughter's 
rights. We went through the court system to get permission from the 
courts to take her to The Family Foundation School in Hancock, NY. It 
would have been her choice to go to an adult woman's prison instead of 
going to a residential program. The court felt she was not capable of 
making good decisions and gave me the power to make the decision for 
her. The court and the school system monitored the entire time she was 
at the school. Reports were supplied and I continued to go to court for 
her with her attorney. She faced a mandated jail sentence if she didn't 
complete her program at the school.
    This was not an easy decision for us. It took research, talking to 
other parents, students, visiting the school, and investigating it plus 
figuring out where we were going to get the funds for this. The place 
was clean, spiritual, food was good, educational standard were high, 
and the staff was well qualified and caring. Some of staff members 
having been former addicts themselves understood the disease. We 
understood that, they could help guide our children.
    I took my daughter to the school with a court order in hand. She 
was under the influence of drugs. When we got to the school, she and 
her belongings went into the administrative building. She was searched, 
as was her clothes, toiletries, etc. They found sleeping pills hidden 
in a makeup container. I was allowed to say goodbye to her, which she 
refused, and I left. We were not allowed communications for 30 days, 
although I was in weekly contact with the school and a staff member who 
was overseeing her program and her family group.
    After 6 weeks we had a meeting with other parents and staff and got 
to visit with our daughter. We were also exchanging letters and 
receiving phone calls each week for 10 minutes. If she acted up then 
she lost the privilege of speaking to us and we did not get the call. 
As her parents, we were required to go to a 12 Step Meeting. In our 
case, we went to Families Anonymous, a 12 step program for people 
affected by a family member or friend who was an addict or had 
behavioral issues. We also attended family and parent group sessions at 
The Family Foundation School. We learned how to not enable the 
behaviors of our loved ones.
    My daughter went to school, did chores and was expected to 
participate in gym, help maintain the grounds (shoveling snow in the 
winter, sweeping, garden, etc). There were some things that I thought 
odd and that I questioned. My questions were answered to my 
satisfaction. Medical and mental healthcare was provided as needed. She 
went to the OB doctor, dentist, eye doctor and talked to the school 
psychologist. She was on some medication while she was there. My 
daughter was expected to participate in two extracurricular activities 
(chorus, art, debate, school newspaper, yearbook, or sports). The 
school has a nationally recognized 1st place chorus and debate team.
    There were times that she received consequences. Sitting in the 
corner, running around the building for exercise, and yes, moving 
gravel size rocks back uphill to the upper parking lot when she refused 
to go to class. I was always informed about what was going on with her. 
I was aware that if the child was a danger to themselves and to others 
that they would be separated from the group. There was no wrapping with 
duct tape and blankets. There was a padded room with cameras to monitor 
the child if they tried to hurt someone and were completely out of 
control. At no time were they left alone or physically abused.
    We visited our daughter many times, ate lunch with her family 
group, took her off campus and made visits back home. The school went 
on daytrips and overnight trips to competitions, historical sites, the 
movies, bowling, the park and even had special programs brought into 
the school. There is a spiritual aspect to this school as they run the 
program with the principles of a 12 step program. Respect of other 
religions and cultures was taught. The children would go on spiritual 
retreats to a retreat house, in Pennsylvania, twice a year. They put on 
a play for the community and the parents once a year and also a holiday 
show. These children have amazing talents when channeled in the right 
direction.
    I would also add that the school was open to me coming there at any 
time. I agreed to limit my visits to times that were best for my 
daughter. Personal possessions were limited due to space and need. We 
were allowed to send clothing and personal items as needed. Money was 
sent at Christmas so the children could go shopping (at a mall) for 
each other.
    When my daughter graduated, she graduated with 30 high school 
credits and 9 college credits. The school works with local colleges to 
allow students to take college courses while they are there. After 
graduation she went on a trip to Lourdes, France with the Dean of 
Education, Father Stephen Morris, with many other graduates and staff 
members. They were escorting mentally and physically handicapped women 
to Lourdes for 9 days. After that my daughter remained at the school 
working in a paid position in the office for the summer before 
returning home.
    It has taken time for things to settle down after she returned. I'm 
not going to say that it was perfect, because it has not been easy. She 
does have resentments at being sent away for 21 months. She tells us at 
times that she was traumatized and yet I know that she had a difficult 
time leaving the staff and students. I believe that I got back the same 
child that I sent to that school. It's the behaviors that have changed. 
She also knows that there are consequences and that we are strong 
enough to follow through with them, if she returns to her old ways. She 
now makes better choices, lives on her own, works, and is going to 
college. She is no longer that angry, abusive child. She is turning 
into a responsible adult, who still has some anxiety issues. We 
continue to support her seeking counseling.
    Not too long ago she said to me: ``Mom, I know someday soon that we 
are going to be the best of friends.'' I know that had we not sent her 
to The Family Foundation School, she would not be alive today. At the 
very least, she is still alive 4\1/2\ years later. I'm sure things have 
changed at The Family Foundation School even in the past 10-plus years. 
I can't vouch for what happened then. I can tell you what my experience 
has been over the past 4\1/2\ years. We've healed as a family. We have 
gained back a daughter. We will always be grateful to The Family 
Foundation School.
            Sincerely,
                                           Michelle Funaro.
                                 ______
                                 
                                       Robert H. Kieserman,
                                      Cherry Hill, NJ, May 8, 2008.
    To Whom It May Concern: I am writing this letter to praise the 
efforts of the staff and faculty of The Family Foundation School in 
Hancock, New York. My son Benjamin was taken to the school on December 
20, 2005 by escorts. Ben never had any substance abuse problems, but 
rather behavioral issues that reeked havoc and chaos in our home for 
over two years. Despite going from psychologist to psychologist to 
psychiatrists, no one was able to reach Ben. He shut himself up in his 
bedroom, refused to attend school, and was in jeopardy of heading down 
a road of self-destruction. Finally, in desperation, we sent him to 
FFS.
    No words could ever describe the gratitude we have for the folks at 
FFS. They devoted every ounce of perseverance they had to turn Ben 
around toward a positive life direction. There were times that they 
needed to be firm with him, but always in a loving manner. Ben 
graduated from the Family Foundation School in December, 2007 with a 
high school diploma. He now holds down two part-time jobs and just 
finished his first semester of college. He lives with us, and he is a 
different person than he was three years ago. FFS helped Ben look at 
himself, develop the self-confidence that he needed, and provided him 
the coping skills that he will have for the rest of his life. 
Throughout Ben's two years at FFS, his sponsor Chris Stein along with 
his co-Family leader Cindy Argiros, worked arduously with Ben and was 
always available to us as well, and Chris became our dear and trusted 
partner in changing Ben's life for the better. Susan Runge, Director of 
Psychological Services, was also a tremendous influence on Ben and on 
us, teaching us how to be better parents to an adult child. Every 
member of the staff interacted with Ben, and since he has been home, we 
have had many opportunities to openly and candidly discuss his life at 
FFS. Ben now acknowledges that although everyone on the staff 
challenged him to live up to his fullest potential as a person, they 
always treated him with respect, and most importantly, with a dedicated 
love. He has told us that there were times that other students were 
isolated for bad behavior, but at no time, was there any concern by any 
of the students that those students were mistreated. At all times, 
according to Ben, discipline was administered with sternness, but with 
compassion and with a parent's love.
    I wish to go on record that both my wife and I strongly support the 
work of the entire staff and faculty of FFS. They have created one 
miracle after the next, and if not for them, most of the children who 
have entered through their doors as lost souls, but have walked out as 
accomplished high school graduates and better men and women, would 
never have seen that transition in their lives. We will forever be 
indebted to each and every member of the FFS team.
            Sincerely,
                                 Robert & Regina Kieserman.
                                 ______
                                 
                                        Roberta M. Mathews,
                                         New York, NY, May 7, 2008.
    Dear Mr. Chairman: I am writing because I respectfully oppose the 
elements of the recently introduced H.R. 5876, ``Stop Child Abuse in 
Residential Programs for Teens Act of 2008''. I would like to submit to 
you and the Committee that there are many residential treatment 
programs for teens which are providing very high quality clinical 
services and which abide by the highest ethical standards of 
professional conduct and delivery of services. While a small minority 
of the programs across our nation has proven to be negligent and should 
be held accountable on a case by case basis, it is my opinion that 
federal regulation of the many programs in our nation is unnecessary. 
However, the already existing regulation and licensure by each of the 
States as well as professional accreditation should continue as it has 
to assure high standards and ethical delivery of services.
    My own experience with these matters makes me certain of the 
necessity for families to have personal choice of private treatment 
options for youth which are safe, ethical, and professionally 
effective. My teenage son, who has struggled for the past two years 
with serious clinical depression and severe anxiety disorder, has been 
receiving highly effective, professional treatment, first at a 
therapeutic wilderness program and then at a small residential 
treatment center and school. In both these private programs, the 
treatment services are rooted in respect, dignity, expertise, and 
compassion. I can assure you that many programs like the ones my son 
has experienced are delivering truly life-saving services to youth.
    Parents of teenagers in crisis have often first utilized all modes 
of out-patient treatment in order to keep their teenager at home; but 
in some cases, like my son's, the personal crisis deepens and there 
needs to be a more intensive and sustained treatment intervention that 
cannot be provided in out-patient therapy or even in brief in-patient 
hospitalization. Parents, like me, who have searched for help through 
established channels, can find very high-quality private residential 
programs with the help of educational consultants who can answer all 
questions about licensure, accreditation, and standards of each 
program. Also, parents can go and visit the programs in person, which 
is what my husband and I did before we decided on one for our son. It 
is highly important to preserve the element of personal choice because 
what parents and their consultant need to find is a program whose 
specialized services match the individual needs and specific problems 
of each teen. When parents are searching to identify that match, they 
often find that the best program(s) are not in their home state. It is 
a very difficult decision to send one's child out-of-state for 
treatment, but my husband and I feel that it was the best decision that 
we've ever made because our son has received the specialized help that 
he needed so badly and which couldn't be had near home.
    There have been absolutely no abusive treatment practices in the 
programs that I have come to know well. Both in the therapeutic 
wilderness program and at the residential treatment center where my son 
still currently resides, he has been kept safe and has been met with 
treatment protocols which place a priority on personal dignity and 
respect. The credentialed, highly professional clinicians who have 
worked with him and with our family have operated on the highest 
standards of professional conduct and also have demonstrated a solid 
foundation of expertise and compassion in their work with struggling 
teenagers.
    These private programs deserve to continue their life-saving work 
unencumbered by federal regulation. It is far better for the States, 
individually, to take on the responsibility of oversight and regulation 
because there can be a closer working alliance between a state 
government and its constituent programs to ensure that professional 
licensure and the highest quality standards are upheld and enforced. 
This, in turn, will best protect the necessity for families to have 
personal choice of private, professional residential treatment programs 
which are safe, ethical, and clinically effective.
            Sincerely,
                                        Roberta M. Mathews.
                                 ______
                                 
                                                       May 7, 2008.
RE: A Realistic Commentary on The Family Foundation School
    To Whom It May Concern: My name is Sal Guarino and I have had a 
close association with The Family Foundation School (`The Family') for 
nearly twenty years. The following is my personal and well qualified 
letter of support for a tremendous institution that has served the 
desperate needs of so many so well for decades. You will find my 
testimony to be fundamentally in direct contrast with the one-sided 
comments offered by Mr. Martin-Crawford recently. I would like to thank 
you sincerely in advance for your consideration of my words.
    Having been an employee of The Family for the better part of a 
decade, who was closely involved in The Family's early days of becoming 
the truly exceptional haven for troubled kids and families and 
academically superior school that it is today, and knowing its founders 
and many of its principal architects and contributors very well, and 
being acquainted with many of its alumni too, I assure you that my 
assessment of this wonderful institution that has helped so many is 
based on a solid foundation of a rich history of direct experience and 
observation.
    I have witnessed hundreds of The Family's graduates transform from 
children who were typically rejected by their home schools due to 
behavior problems, were underperforming academically, were unhappy and 
in many cases profoundly sad and unmotivated to do much of anything, 
were abusive toward their parents (by any reasonable measure of 
professional or lay assessment), were putting themselves at serious 
risk due to a variety of high risk behavior, such as drug use, sexual 
promiscuity, illegal acts, self-mutilation and numerous other 
maladaptive behaviors, who were once `good kids' from caring families 
who tried in vain to help their children, only to meet blatant and 
often forceful resistance from them, who had typically been treated by 
numerous mental health professionals by the time they came to The 
Family, with limited or no positive results to speak of, and I can 
assure you that contrary to Mr. Martin-Crawford's testimony, which was 
at times clearly untrue, and at other times, at best incomplete, The 
Family is not only being unjustly characterized in a negative light, 
but it is in fact a truly unique and remarkable place--a superior 
school academically and perhaps more importantly, a refuge that offers 
the safety and security that its `at risk' students and their families 
need, as well as the right combination of therapeutic variables 
required to address the short term needs of stability and compliance 
for these adolescents and the long term development of strong, healthy 
and well developed coping skills.
    Upon viewing Mr. Martin-Crawford's faulty and obviously jaded 
testimony, I was struck by several of his points on which I will offer 
comment below. Please note that I am paraphrasing his comments:
    <bullet> Mr. Martin-Crawford mentioned that he suffered from 
relapses after leaving The Family due to his nightmares about his 
experiences there.
    By even the most extreme brand of psychological analysis, one that 
would already be pushing the limits of common sense, to offer the clear 
causative relationship between his supposed nightmares and the relapses 
that Mr. Martin-Crawford suffered subsequently is spurious. This seems 
more clearly to be a casting of blame and inaccurate responsibility on 
the Family for behavior that Mr. Martin-Crawford engaged in of his own 
volition. The fact that Mr. Martin-Crawford, years after his successful 
graduation from the Family, continues to claim it was responsible for 
his ongoing personal struggles, is dubious at best.
    <bullet> Mr. Martin-Crawford asserts that 4 of his 25 classmates 
are `sober' today. (Please note that at The Family and elsewhere, 
`sober' is often the word often used as a general term to describe 
someone being in a positive state of recovery from what may be numerous 
negative behavior patterns.)
    Whether Mr. Martin-Crawford is using the term in this general sense 
or in the more literal one, suggesting that those referenced are 
abstinent from alcohol, it is clearly a positive attribution to The 
Family. This raises another interesting point. Presuming that this is a 
correct statement and assuming that none of the other classmates have 
reaped any legitimate benefits from their experience at The Family, 
(another logical stretch for the point of argument here), then Mr. 
Martin-Crawford is in fact asserting that 16% of his group has made a 
significant positive accomplishment! If Mr. Martin-Crawford were to 
further investigate the data on recovery rates and behavior change for 
troubled adolescents over time, as difficult as it is to gather and 
interpret accurately, he may be surprised at the success he attributed 
to The Family, albeit perhaps unwittingly, in his House testimony.
    <bullet> Mr. Martin-Crawford indicated that he had to fabricate 
stories of how poor his behavior was before arriving at The Family in 
order to create the illusion that he was getting better as a result of 
his stay at the school. He asserted that this was necessary in order to 
appease the staff members.
    While he did perhaps engage in fabrication, as he claims, it was 
not in fact necessary. In viewing the dynamics of The Family, or any 
other environment that is attempting to help troubled teen-agers come 
to terms with their own behavior in an honest and straight-forward 
manner, one is advised to consider a proposition that I suspect almost 
all parents, including me, would be in accordance with. That is that 
the full truth may not always be included in the initial explanations 
offered by our kids! This is especially likely when the teens are in 
the midst of negative behavior or other addictive patterns. Perhaps if 
Mr. Martin-Crawford had spent more time and attention on examining his 
own personal liabilities, which is a core tenet of The Family's and 
many other therapeutic models, rather than on attempting to `beat the 
system,' he would have gained further useful insight into how even the 
`small' deceitful actions of word and thought may be at the root of 
one's difficulties or at the least be contributors to one's problems.
    There are many other drastic misrepresentations and key omissions 
in Mr. Martin-Crawford's testimony. I am sure that anyone with even 
minimal exposure to The Family would find the comments of Mr. Martin-
Crawford both outrageous and frankly, rather sad. As much as I dispute 
his erroneous testimony, I can also honestly say that I feel bad for 
John in light of his apparent state of mind at present. That he seems 
to be mired in a morass of self-pity and blame toward, as they say, 
`the hand that fed him' troubles me on a personal level. As The Family 
suggests though, it is important to oppose someone's actions at times 
but to also reach a hand out to them simultaneously. This is a 
challenging call to action of course but one that I will certainly take 
on regarding John. I will make myself available to him as a friend and 
mentor should he wish to make that connection.
    Beyond the scope of his commentary though, I would like to conclude 
by suggesting that members of this great body, those in whom we as 
citizens have placed our trust to do what's best with our most precious 
resources, visit The Family personally. You could then experience 
firsthand a place where so many thankful parents have entrusted their 
most precious resources--their children--into the hands of the most 
caring, wise and humble group of dedicated helpers and teachers you 
will find. Taking the time to do so would likely be a welcomed and 
refreshing change from the daily grind of Washington and would give you 
the unrivaled benefits of direct exposure to assess its merits and 
intentions. The Family School is not perfect but it has been so dearly 
close enough for so many grateful parents and alumni who swear by it. 
As successful as The Family has been, however, it remains very open to 
constructive criticism to improve itself at every level. Its track 
record clearly reflects its commitment to a constant, open-minded and 
positive evolution. And by the way, it couldn't hurt to know of a great 
place for a troubled teen. Perhaps someday you may need it!
    Thank you again for your patient consideration of my comments. It 
is deeply appreciated.
                                               Sal Guarino,
                                                       Sanford, FL.
                                 ______
                                 
                                          Scott Montgomery,
                                                    West Point, TX.
    To Whom It May Concern: This Letter is in support of the Family 
Foundation School and staff who work miracles with kids having a 
difficult time finding their way. My daughter has been at the school 
for 1 year and is doing extremely well compared to what she was like 
when enrolled. My daughter thanks me every time I see her for saving 
her life and I agree. There may be other programs out there but I was 
fortunate enough to find this one and am very pleased at what my 
daughter has accomplished with the care and guidance of the FFS staff. 
I can actually say I am proud of her today, something I could not have 
said a year ago. I am sure that what ever comes of this the staff at 
the FFS will learn from it and incorporate it into the every day life 
at the FFS. If you are in doubt I urge you to visit the FFS and see for 
yourself what this place of miracles is all about.
            Thank You
                                          Scott Montgomery.
                                 ______
                                 
                                                       May 2, 2008.
    To Whom It May Concern: The intention of my letter is to encourage 
the members of the Education and Labor Committee to make therapeutic 
programs (specifically wilderness and residential treatment centers) 
available to struggling adolescents and their families which are safe 
and therapeutically appropriate.
    I write as a parent and taxpayer to communicate my experience with 
two programs (the Aspen Education Group (SUWS-Idaho wilderness program) 
(``SUWS'') and the New Haven Residential Treatment Center (``New 
Haven'')) we used which helped save our adolescent daughter's life. The 
SUWS therapeutic wilderness program took place outside Boise Idaho and 
New Haven is located in Spanish Fork, Utah should you wish to look into 
their programming. My daughter has successfully transitioned from both 
SUWS and New Haven to a therapeutic boarding school this past year and 
continues on her journey in a less structured environment.
    My daughter had a traumatic childhood. In 2006 we required the 
different interventions offered by SUWS and thereafter New Haven. When 
we started down this path of intervention we were full of fear, anxiety 
and hopelessness. SUWS (for the summer) and New Haven (the following 
school year) provided us with a sanctuary of safety, compassion and 
hope so that we could all develop life-strengthening skills and begin 
to examine the core issues that got us to this point.
    Tragically, there have been instances of abuse and neglect in 
wilderness and residential treatment center programs. There is a 
compelling need for states to license and regulate therapeutic programs 
so that the safety and welfare of children in need of such services can 
be carefully safeguarded. The U.S. House Education and Labor Committee 
has convened hearings to consider allegations (some verified, some not) 
of abuse and neglect within private therapeutic wilderness and 
residential treatment center programs. To date, the majority of the 
voices heard have condemned such programs. There are, however, 
thousands of positive stories of rehabilitation and healing at many 
residential treatment centers and wilderness programs. I would like to 
go on record stating that our daughter's life and the life of our 
family have been saved by two of these programs. We have been given a 
second chance. We could not have done the work needed without this 
intervention.
    Programs like SUWS and New Haven have saved lives, overcome 
incredible challenges, restored broken families through the 
participation of family members themselves, and helped youths reclaim 
their lives to become productive members of society. You should be 
aware that there is a broad spectrum of available programs run 
responsibly, safely and with integrity. I urge you to consider what 
programs like SUWS and New Haven are doing and support their life 
changing work with regulation to weed out the horror story programs. 
Please share our experience with your colleagues in Congress. You have 
an obligation to protect families and children by ensuring that 
responsible, safe and much-needed programs like SUWS and New Haven may 
continue into the future with proper regulatory oversight.
    Our family has been blessed by many, many gifts we received from 
the staff, therapists, and treatment personnel at both SUWS and New 
Haven RTC. We hope that such services will be available to others in 
the future in their time of crisis.
                                                 Sincerely,
                                                Wendy M. Broadbent.
                                 ______
                                 
                                     Jupiter, FL, April 28th, 2008.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.

Re: Hearing on ``Child Abuse and Deceptive Marketing by Residential 
        Programs for Teens''
    Dear Congressman Miller: I would like to thank you and the 
Committee for exposing a multi-billion dollar plus industry that has 
been allowed to run amok without effective regulatory oversight, 
licensing or enforcement. It is my understanding that I may submit the 
following, for Congressional Record. I apologize for the length of this 
letter, however to give an accurate summation of the depth of deception 
and corruption that we encountered, I found it necessary.
    In November of 2004, my daughter Tenley Aleksandra Ryan was 
admitted to what we understood was a ``Therapeutic Boarding School'' 
called Hidden Lake Academy (HLA) in Dahlonega, Georgia, owned by 
Leonard Buccellato. We were referred to the academy by her psychologist 
who provided a brochure of Hidden Lake Academy. I visited the academy 
web-site, telephoned the academy and was forwarded literature including 
a ``Parent Handbook''. Up until this point, I had no idea what a 
``Therapeutic Boarding School'' entailed. I was desperate to save my 
daughter, as all else was failing. Hidden Lake Academy offered hope, we 
were vulnerable and thus a continuing nightmare unfolded.
    Hidden Lake Academy Marketing Representations as apparent in all 
literature/media provided:
    <bullet> Licensed Therapeutic Boarding School
    <bullet> All peer group counselors were licensed with a Masters 
Degree level or higher
    <bullet> All teachers were certified in their field by the State of 
Georgia
    <bullet> Clay Erikson, ``M.D.'' Director of Addiction 
Services(Addiction counselor)
    <bullet> 24 hour RN on staff to dispense psychotropic medications
    <bullet> SACS accredited ( including Science lab required for 
College Preparatory Credit)
    <bullet> No violent or court ordered children were accepted
    <bullet> Safe, nurturing environment
    <bullet> Restrictions involved light tasks such as raking and would 
not be `corporal'; duration would be limited one hour, to an hour and a 
half after classes.
    <bullet> Pre-paid tuition refunded minus last month's deposit (if 
child was pulled early)
    <bullet> As a ``Therapeutic Boarding School,'' fees/expenditures 
were tax deductible
    The Truth:
    <bullet> Hidden Lake Academy was not a ``licensed Therapeutic 
Boarding School'' ( in their attorney's own written words to Carol 
Winstead ORS, ``therapeutic is a marketing term'' Quirk and Quirk P.C., 
August 8th, 2004''). HLA was marketed to other states as a licensed 
TBS, accepting out-of-state IEP students and children under the ``No 
Child Left Behind ACT''. No record of students transported from state 
to state pursuant to the ICPC, as exempt from licensure, although HLA 
accepted students nationwide for a `therapeutic' program.
    <bullet> All peer group counselors were not licensed by the State 
of Georgia. The only licensed counselors were the owner, Leonard 
Buccellato, who did not counsel children, but instead signed off on 
counseling bills for tax purposes and Joe Stapp (currently new 
Headmaster). For example, Kees de Ventes, Spiritual Coordinator, was 
given a peer group to counsel and taught English without any 
qualifications. Another counselor, Chris Grimwood lists an M.S.W. 
from'' Farington University'' an on-line diploma mill.
    Farington University is not accepted by the State of Georgia 
Department of Education, therefore he cannot be licensed.
    <bullet> All teachers were not certified in their field by the 
State of Georgia (cross utilized without permission from SACS) 
Example:. Kees De Ventes, Spiritual Coordinator .
    <bullet> Clay Erikson, M.D. Director of Addiction Services was 
stripped of his M.D. in the State of Washington in 1999.
    <bullet> R.N. was not always on staff to dispense medication, 
office receptionists frequently dispensed medications. There were 
dangerous mistakes made.
    <bullet> SACS--There was never a Science Lab on premises. HLA 
counsel Quirk and Quirk wrote that ``a mobile lab was purchased'', but 
HLA Director of Operations, teachers and staff later confirmed that a 
mobile lab was never purchased.
    <bullet> Violent and court ordered children were accepted into and 
attended Hidden Lake Academy. Psychiatrists later reported that Leonard 
Buccellato asked them to change the children's diagnosis so the child 
could meet school parameters. For example, changing a diagnosis of 
Pedophilia to ODD(Opposition Defiant Disorder).
    <bullet> The environment was not safe, nor was it nurturing. It was 
based on fear. Relentless screaming and grilling of the children 
ensued. Attempted suicides, rapes, cuttings, broken limbs, zip-tying, 
cold-cocking, hazing, and other egregious harms occurred that were not 
properly documented or reported, and were denied by the school. 
However, EMS records clearly indicate the incidents occurred, including 
``life flight'' transport.
    <bullet> Restrictions would go as long as eight hours. Parents 
requested restriction guidelines during a `parent workshop' and the 
guidelines were never provided. Climbing up and down a hill for hours 
at instructors pace in all weather.
    Carrying logs and boulders across a field for hours in all weather.
    Relentless push-ups in a Goose Laden Field, no gloves provided
    Picking up Goose feces with no gloves provided
    Girls were not permitted to use lavatories, but instead told to use 
the ``wood-line''
    <bullet> Leonard Buccellato used the children as labor both at HLA, 
his private home, at his mother's home and clearing land for new 
stables. (OSHA)
    <bullet> HLA withheld pre-paid tuition monies for services not used 
or provided, if child was withdrawn.
    <bullet> Because HLA was specifically and intentionally not a 
licensed Child Caring Institution under the tax code, the fees of the 
mere private boarding school were not properly tax deductible. 
Nevertheless, Owner Buccellato signed off on the counseling bills, when 
he never saw the children, for the unauthorized deductions taken by the 
unknowing parents.
    Other Abuses:
    <bullet> At no time, was I or other parents, informed that our 
minor children would be strip searched by HLA staff, without parental 
consent.
    <bullet> At no time were we ever informed our children would be 
held at ``the Chalet'', away from the main campus, if on restrictions 
when agencies or educational consultants visited.
    <bullet> At no time was I or other parents informed that children 
would be used as informants against each other during ``fall-out''. If 
a child did not oblige, there were severe negative consequences.
    After much research about HLA, the following Georgia authorities 
were contacted by me and several other parents regarding the 
misrepresentations and abuses at HLA:
    Governor Perdue; Secretary of State Cathy Cox(then); Attorney 
General Thurbert Baker
    Tobin McDaniel GAO State of Georgia; Department of Human 
Resources--Office of Regulatory Services--Residential Child Care--CPS; 
Margaret Palli DHR; Carol Winstead DHR/ORS; Nina Edidin ORS Attorney; 
Tamisha Jones ORS;
    Keith Bostick DHR/ORS; Sharon Dougherty ORS; Amy Murphy DHR/ORS
    Katherine Wallace DHR/CPS; Cara Adams DHR/ORS/CPS; Mollie Fleeman 
Secretary of State Professional Licensing Board; Georgia Medical Board 
Agent: Adrienne Baker; State Fire Marshall; IRS Fresno, CA(on-line 
Fraud reporting); Department of Education; GAC;
    SACS--Southern Association Of Colleges--Dr. Judy Flatt
    CASI--Council on Accreditation and School Improvement--Dr. Judy 
Flatt
    SAIS--Southern Association of Independent Schools--Tom Redmon
    The Georgia ORS refused to require licensure of HLA as a Child 
Caring Institution (Therapeutic Boarding School) despite years of 
parent inquiries, complaints and pressure until HLA was hit by a class 
action based on fraudulent business practices that brought public 
attention. The ORS finally succumbed, and CPS launched an investigation 
into Hidden Lake Academy in the summer of 2006. CPS investigators told 
me they found that suicide attempts, rapes, cuttings, broken bones, zip 
tying, cold cocking and the like were never reported to CPS by either 
HLA, the Lumpkin County Sheriff's Department, Chestatee Hospital, and 
other responsible institutions. Either there was no protocol in place, 
or if there was protocol in place, it was not followed. The ORS knew 
that psychotropic drugs were being dispensed, there was a ``Director of 
Addictions,'' albeit stripped of his medical license, and many children 
were given the wrong medication by a receptionist or whoever was 
available to dispense meds. ORS also was aware of the lack of licensing 
among the counseling staff. Nevertheless, ORS Director Keith Bostick 
still refused to require HLA to be licensed as a Child Caring Facility, 
until finally in December of 2006, the ORS was forced to admit that 
Hidden Lake Academy had indeed been operating under the radar for 12 
years as a ``Therapeutic Boarding School'', a ``Child Caring 
Institution'' without proper licensure. Despite the CPS report of 2006, 
ORS granted HLA two consecutive six month temporary licenses. Mr. 
Bostick assured us that if HLA did comply with the regulations in the 
first six months, ORS would shut them down. Nothing had changed, he did 
not shut them down.
    Now ORS has allowed HLA owner Buccellato to recently open a new 
school, Mountain Brook Academy(MBA) on the same premises as HLA. The 
ORS license shows ``Ridge Creek-Mountain Brook as a single entity, 
though Ridge Creek is the `sister' Wilderness Program to HLA and a 
separate entity. Mountain Brook Academy advertises itself as a 
``Residential Treatment Center''. According to the Georgia Department 
of Juvenile Justice (DJJ), they were told Mountain Brook ``is some kind 
of wilderness program'' and Chris Grimwood of HLA called looking to 
take ``base-line offenders'' initially. Mountain Brook would be a lock 
down facility on the same campus as the three other non-secure schools. 
ORS will oversee the residential aspect of the program, granting a 
license and MHDDAD will oversee mental health. The DJJ stated ORS will 
make their recommendation for application and contract of MBA to the 
JDD. Mr. Grimwood assured the DJJ that facilities were separate and 
apparently already has counseling in place. MBA will utilize all staff 
from Hidden Lake Academy. To put it mildly, this is highly irregular.
    Numerous letters and calls to SACS and SAIS were also to no avail. 
Even with proof that HLA was operating at a sub-par educational level, 
with hand-picked colleagues making the accreditation visit and 
review(no Science lab, cross utilization of non-degreed teachers in 
different fields), they all did nothing.
    Attorney General Thurbert Baker's office in a phone call, suggested 
``off the record'', I go to the media. I was told the AG's office 
represents the ORS and the ORS has ``sovereign immunity''. I received a 
letter this year from the AG's office stating that I may wish to call 
``the Better Business Bureau''.
    In March of 2006, I contacted Berger and Montague of Philadelphia, 
September 2006, a class action lawsuit was filed. August 15, 2007, 
Judge O'Kelley denied the Class Suit, without prejudice. I have since 
objected to `minute' class wide settlement with prejudice, as it would 
bear no responsibility for what has been allowed to transpire, not just 
pertaining to Leonard Buccellato, but the ORS and all State of Georgia 
agencies, entities that turned their back on our children.
    In the interest of the Committee, the testimony of Dr. Christopher 
Belloncini of the Walker School, may be conflicting. In the spirit of 
full disclosure, the President of the Walker School is listed as 
Benjamin W. Thorndike, of Bain Capital, LLC. Aspen Education was 
acquired by CRC Health; Bain Capital acquired CRC Health, owning Aspen 
Education. As reported on FICA:
    <bullet> 10/27/2007--Emily Graeber, a 15 year old Missouri girl, 
goes `missing' on the way back to Aspen Education Group--owned program 
Island View RTC.(still missing as of 11/09/2207
    <bullet> 06/28/2207--Brendan James Blum, a 14 year old California 
boy, died of a bowel obstruction after complaining of pain, losing 
bowel control and vomiting, but only given over-the-counter medicine 
and being told to go to bed. He was enrolled in Aspen Education Group-
owned Youth Care RTC in Draper, Utah.
    <bullet> 04/2007--Unidentified 16 year old attempted to hang 
himself from a tree at the ranch with a shoelace. After some time the 
staff found him unconscious and revived him, but he later died in the 
helicopter transporting him to the hospital. This took place in Aspen 
Achievement Academy in Loa, Utah.
    There is far more regarding Hidden Lake Academy, but I will not try 
your patience any more. I have submitted documents to Keith Steck of 
the GAO and Keith is very aware of Hidden Lake Academy and Leonard 
Buccellato. I hope this letter will be of some help to the Committee 
and
    I would be happy to address any questions you all may have and do 
whatever I can to bring safety, transparency, effectiveness and 
accountability to an out-of-control industry.
    Thank you again, for the children.
            Respectfully,
                                       Jill Ohanesian-Ryan,
                                                       Jupiter, FL.
                                 ______
                                 
                                         Plano, TX, April 28, 2008.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.

Re: Hearing on ``Child Abuse and Deceptive Marketing by Residential 
        Programs for Teens''
    Dear Congressman Miller: Thank you for your dedication and efforts 
regarding this matter. As a parent of two children who were abused in a 
three private facilities, and who received no assistance from 
government agencies, I understand the importance and necessity of this 
action and legislation. I share your mission and have worked diligently 
on public internet forums to expose the fraudulent nature of such 
programs for the past seven years, trying to get accurate information 
to parents so they might make informed choices for their children. No 
child should be subjected to abuse and the risk of death under the 
guise of ``therapy'' or ``treatment''.
    My older son attended Harlingen Marine Military Academy in the late 
90s, which had many similarities to these behavior modification 
programs. He was heinously abused during the six months he attended. My 
son was a plaintiff in a class action suit and received one of the 
largest settlements, due to the nature of his abuse.
    Four years later, my former husband enrolled our younger son at San 
Marcos Baptist Military Academy which was closer to home and had a 
better reputation. A week after he was there he reported his dorm 
officer for molesting the children in his dorm. A repeat offender, that 
staff is currently serving a 95 year sentence. Since then, there was 
another incidence of sexual misconduct by staff. SMBMA promptly changed 
their name to San Marcos Baptist Academy, to avoid public scrutiny, and 
continues to operate. Aspen Education now has a weight loss program 
operating on SMBA's sizeable campus.
    Following that incident, my son was terrified and began to act out. 
Consequently, he was expelled, at which time his father took him to 
Hidden Lake Academy (HLA) in Ga. I was not informed or consulted, my 
parental rights ignored. That is when I first learned of the private 
behavior modification industry. He was 14 at the time. While I did not 
enroll my son, I believe my testimony is worthy of your consideration. 
I have been in contact with many divorced parents who have found 
themselves in this situation and were unable to get their child out of 
a program once they were enrolled. Hidden Lake Academy presented false 
information to the judge, via telephone, in our family court hearing; 
that swayed the judge to rule that my son would stay, consoling me with 
the promise to make up my lost visitation. To that, I would implore you 
to add something into the legislation that would prevent this from 
happening to other divorced parents. Admittance should require the 
approval and signatures of both parents.
    My former husband used an Educational Consultant, as required by 
HLA. When I spoke to her some time later, she knew nothing about my 
son. She knew nothing of HLAs methods and policies and stated that she 
referred to HLA based on the owner's reputation. I contacted the 
authorities in my state to inquire as to whether she was licensed or 
required to be if placing children out-of-state. In fact, such a person 
is required to be licensed, but they did not pursue this because she 
hadn't physically taken him to HLA. She never met him or my son, simply 
spoke to my former husband by phone, and collected a significant sum of 
money for a referral to a program she literally knew nothing about.
    As part of this fraudulent industry, there should be stringent 
requirements placed on Educational Consultants, who should also be 
regulated. At a minimum, they should be required to confirm that the 
facilities they refer to are properly licensed, ensure that a pre-
placement evaluation has been conducted to prove the necessity of such 
an austere placement, and face adverse action if they violate 
regulations. I taped, then transcribed my discussion with her and 
posted it on the internet to educate prospective parents. While 
kickbacks from programs to Ed Cons may be difficult to prove, HLAs 
Headmaster told parents attending the workshop that while HLA couldn't 
compensate Ed Cons, parents who provided a receipt would receive a $250 
refund that they could do with as they pleased. His tone made his 
intention clear. In a NATSAP press release it was reported that Aspen 
Education granted $100,000 to the IECA--Independent Educational 
Consultants Association, earmarked for training Ed Cons on placing 
teens in private residential programs.
    Merideth Burns PhD of HLA testified by phone at our family court 
hearing. She impressed upon the judge that my son was on a ``slippery 
slope'' and needed the treatment HLA offered. My son had no diagnosis 
prior to attending HLA. He was diagnosed as ODD by HLA, ``based on his 
father's complaints'' the day he was enrolled. I felt this to be a 
conflict of interest. I went to court to ask that he be brought home 
for Christmas so I could have an independent evaluation conducted to 
show the placement was unnecessary. Ms Burns told the judge that his 
father would loose $110,000 in pre-paid tuition if our son left the 
facility. After the hearing I learned that this was false, based on the 
refund policy, which is documented.
    When I received the call from Mike Witherspoon at HLA stating that 
my son had been enrolled, I asked by what authority he was able to 
severe contact between me and my son. Was he in trouble with law 
enforcement? Were they a Psychiatric Hospital? Was there a court order 
stating that contact between us was not in his best interest? No. They 
were a Therapeutic Boarding School, that was their policy, and his 
father had agreed to abide by it. I had grave concerns, which only grew 
with each passing day. Contact with his siblings, grandparents, and 
extended family was also severed; for no just reason. He was totally 
isolated from the outside world, and everyone who loved him. Mail and 
phone calls were censored. He was, for all intents and purposes, 
treated like a criminal. Tragically, a criminal who was not afforded 
due process.
    My son was placed at HLA in violation of the ICPC (Interstate 
Compact) which at that time applied to these programs. I contacted the 
ICPC office in my state. They deferred to the Georgia ICPC office's 
decision that HLA was a private boarding school, therefore exempt from 
ICPC requirements. I provided ample documentation to refute that ruling 
and prove that they indeed met ICPCs criteria based on ``services 
provided''. Neither office pursued it further. In fact, my state office 
didn't even know the criteria or how to implement the ICPC. My 
interactions with them are documented in emails. Yet, another failed 
attempt to have my son removed from HLA. Another mishandling of our 
situation by a government agency.
    In case you're not aware, due to the efforts of Robin Arnold-
Williams, the ICPC no longer applies to ``parent-choice'' residential 
programs. Ms Arnold-Williams was Executive Director of Utah DHS before 
becoming Secretary of the Washington State Department of Social and 
Health Services in 2005. As one can imagine, the industry disliked the 
ICPC and sought to exempt their programs. Pre-placement proof of need 
could significantly decrease profits by interfering with their ``strike 
while the iron's hot'' strategy.
    I first saw my son three months after he was enrolled at HLA. 
Unfortunately, I don't have photo documentation, but he looked almost 
as bad as Aaron Bacon did before he died. He was thin, skin was ashen 
and dry. He was ill and had been for days. Our 36 hours together was 
spent treating his symptoms. He explained to me the so-called treatment 
he had received. I was a Counseling student at the time and was 
appalled by his accounts. He cried frequently. He expressed frustration 
and confusion. He didn't know how to comply because the rules were 
constantly changing. They twisted his words and used them against him. 
My once vibrant, confident, gregarious, son could not make eye contact 
with people in public. He declined to make any decisions about where we 
went or what we did. He was jittery and terrified of making a mistake 
at the restaurant, and when he inevitably spilled his drink, he lost 
his appetite and demanded we leave. In the car, I reached to hold his 
hand. He cried and asked me not to show him affection, it was too 
confusing. We both cried. What kind of treatment was he receiving? As I 
would come to understand, the so-called therapy practices were not 
evidence-based, but based on Synanon and est, employed by mavericks of 
the Human Potential movement. Might I add, concepts that even adults 
struggle to comprehend. The origins of the ``therapy'' provided by CEDU 
programs and all their cloans, of which HLA is one, is well documented 
and I'd be happy to provide that if it is useful to this investigation. 
I believe this to be one of the most significant frauds being committed 
by most programs. Parents assume, based on the advertising and cost of 
the program, that their child will be receiving stellar, evidence-based 
treatment.
    At this juncture, I have to ask, why insurance companies are paying 
for ``therapy'' that is not evidence-based? Further, why are parents 
allowed to take tax deductions for travel expenses to visit their 
``disabled'' child, if that child is enrolled in an unlicensed facility 
which fraudulently claims to their regulatory agency to be nothing more 
than a private boarding school, but all the while advertises to the 
public as a Therapeutic Program? Why are school districts paying 
tuition to unlicensed facilities for children with IEPs who need 
specialized care, when education is typically inadequate in programs? 
Citizen of the US are assisting parents in paying exorbitant money for 
non evidence-based behavior modification.
    During our short visit my son divulged that he had been on 
restrictions for most of the time he'd been there for minor offenses 
and many times for unsubstantiated claims made by others. He detailed 
the diet he had consumed while on restrictions. This explained his 
weight loss. The Headmaster had mentioned that we might hear about the 
infamous ``Restrictions Diet'' in the parent workshop, stating that 
``while sparse, the diet had been approved by the Health Dept''. He 
implored parents not to be manipulated by their child's complaints, but 
rather tell them that they were aware of the diet and supported what 
HLA was doing. Months later, when another issue arose, I inquired with 
the Health Department to confirm that they had approved the diet. They 
had not approved the diet and further stated that it wasn't within 
their scope of duties to do so. This is documented in emails.
    The restrictions diet was not mentioned in the Parent Handbook, 
just as many other punishments. My neighbor, who was the Head of the 
Nutrition Dept at a local community college told me it was a starvation 
diet, most likely used for submission, as in Oliver. She said that no 
teen should consume that diet for more than 24 hours. She also said 
that given the strenuous nature of the work my son was required to do 
as punishment, that he should be consuming 3000 calories per day. This 
is documented in email. My son developed a dependence on Claritin and 
Flonase due to the excessive consumption of white bread and cheese 
sandwiches for two meals per day, for months on end.
    When my son was denied his first home visit at 7 months, under very 
suspicious circumstances, I began to research the facility more 
thoroughly. He was instead sent to Ridge Creek (RC), their newly opened 
wilderness program. He was in the second group of kids and his 
placement there was a violation of HLAs own policies at that time. 
Their marketing stated that RC was not a ``boot camp'', but rather an 
outdoor leadership program. The facts didn't support that. The Director 
and all the staff that had daily contact with the children were ex-
military. The Director did not possess the necessary credentials or 
experience to run such a program and most of the staff did not possess 
credentials or experience working with youth. I have documentation of 
all staff at that time and their biographies.
    In my research I discovered that residential and wilderness 
programs were required to be licensed in Georgia, but neither HLA nor 
RC were. Meredith Burns at HLA told me that wilderness programs were 
not required to be licensed in Ga and refused to have my son removed 
from RC and sent back to HLA. In June 2001 I contacted Jo Cato at the 
Office of Regulatory Services (ORS). I sent her ample documentation to 
aid her in identifying the services provided by both facilities, 
including links to their online marketing and information from the 
Parent Handbook. They conducted an investigation and reported that RC 
was required to apply for licensure, but they determined that HLA was 
exempt due to their classification as a private boarding school. This, 
in spite of the significant documentation I had sent to refute it. I 
requested to be sent a copy of the final report of their investigation 
of HLA through the open records act. I never received it.
    When HLA discovered that I had reported them to ORS, they executed 
a successful plan to label me ``adversarial''. They falsely claimed 
that I was harassing staff at home and on campus. Without demonstrating 
any form of proof, it was decided that I would be forbidden from 
calling the facility; all calls had to be placed through their 
corporate attorney. Calls were slow to be returned, if at all. I rarely 
received my scheduled phone calls with my son for the remainder of his 
stay, which was almost a year. They successfully severed contact 
between us. It was very difficult to get a pass for my son to attend my 
father's wake. HLA offered 24 hours to travel over a thousand miles, 
attend the wake, and be back on campus. Their attorney overrode them 
and allowed 72 hours. This is documented in email.
    As for the College Prep education HLA advertises, my son was an A/B 
student before attending HLA. He left there, just short of two years, 
five credits behind his peers at home. He had to attend summer school 
in order to graduate with his class.
    Prior to my former husband withdrawing our son from HLA two months 
before graduation, he was slated to attend a traditional boarding 
school in the NE. This was required by HLA policy as part of their 
``warranty''. If a child did not attend one of their pre-approved 
boarding schools following graduation, the warranty would be void. This 
is common to the industry, and it's my belief that it's designed to 
keep the child as far away from their parents as possible in order to 
further the illusion that the ``program worked''.
    Resigning myself to the fact that no one could aid me in getting my 
son out of HLA, I began to report my experience on the internet in 
hopes of contacting other parents who had similar experience with HLA 
and other programs. Several years later, I did meet other parents who 
were displeased with their experience. We formed a group and 
collectively made demands to ORS to properly license HLA, to no avail. 
I'm aware that you have received detailed testimony on this issue, so I 
won't reiterate all the details of our experience. Except to say that 
after several failed attempts, appealing all the way up to the 
Governor, HLA was finally required to apply for licensure in 2006, six 
years after my first request.
    Aware that scores of children had died in wilderness programs, I 
was very worried about my son while he was at RC. I asked ORS amongst 
others, to act on my son's behalf and remove him from HLAs unlicensed 
wilderness program. He remained the full 28 days. He had been out of RC 
just a few weeks when I learned that our former neighbor, Ian August, 
had died at Skyline Journey in Utah. Ian was one of the GAOs case 
studies in the first hearing. I closely followed that case, which was a 
gross miscarriage of justice. Familiar with Utah regulations, I noted 
over 20 violations based on public comments made by the program owner 
and staff, and law enforcement alone. The Licensing Rep who was sent to 
investigate attended the same LDS ward as the owner of SJ, and no 
violations were cited. When the DA filed charges, Stettler's comment 
was, ``Crud, there's got to be something''. He sent a different rep 
that cited 4 violations. As you may know, SJs license was eventually 
revoked but they continue to operate under the name Distant Drums.
    Regarding deceptive marketing practices in general, I can provide 
documentation that many of the so-called independent studies published, 
touting the effectiveness of the programs, were indeed conducted by 
people who formerly had or still have direct connections to programs. 
One such study was prepared by Ellen Behrens and staff at ``Evidence 
Based Consulting''. She was formerly the director of Aspen's Youth Care 
facility where Brandon Blum died recently due to medical neglect. 
Partners Smoot and Fenstermacher have connections with Aspen and other 
programs. Jan Moss of NATSAP then attempted to apply that study to the 
entire industry when it only included 9 Aspen programs. To my knowledge 
there hasn't been one genuinely independent, third-party study 
conducted to date.
    Over the years, I've noticed serious problems with State Licensing. 
Woodside Trails Wilderness was closed due to deplorable conditions, 
resulting from an investigation by the Comptroller. The state revoked 
their license and removed all state placed children. Woodside changed 
their name to Eagle Pines Academy and continued to do business as 
usual, as a private boarding school which was exempt from regulation. 
The state was aware of this. I sent a letter to Licensing imploring 
them to act, telling them that this was a common strategy within the 
industry. I didn't get a response. The owner of Woodside, Bebe Gaines, 
was on the first Board of NATSAP at that time that this happened.
    Star Ranch's license was revoked following two deaths (restraint 
and negligence) and numerous violations of abuse and neglect. While 
they aren't allowed to apply for a license to operate an RTC for five 
years following a revocation, they are operating with a permit as a 
non-residential summer camp called Charis Hills Camp. A non-profit, 
religious-based program.
    Aspen Education (now CRC/Bain Capital) owns several programs here 
in Texas. Excel is one of them and is not licensed. Recently a child 
was taken from the facility to the county jail for a wake up call. He 
was turned over to inmates who forced him to disrobe and proceeded to 
smear vasoline on his back side. He was taken by the Director of Excel 
and an employee of Excel who also worked for the Sheriff's department.
    To this day, Aspen's Academy at Swift River remains unlicensed. 
They escorted the state off their property. Why doesn't licensing take 
a stronger stand? They could enter the property with a court order and 
demand that ASR apply for licensure. Why aren't they motivated to do 
so?
    As Ken Stettler--Director of Licensing in Utah--commented, the 
state is ``reactive'', not ``proactive''. That is a fundamental flaw 
where states are concerned given that they have the authority and are 
sanctioned to inspect programs they suspect are operating without a 
license. Due to public pressure, Utah has the most comprehensive 
regulations of all the states, but are still lacking. The problem in 
Utah and elsewhere, solid regulations will not protect children if 
Licensing doesn't fulfill their obligation to enforce them. When Ken 
Stettler stated publicly that he trusted his fellow moron saints to 
correct the violations found at NorthStar (prior to Aaron Bacon's 
death), he should've been removed from his post and replaced with 
someone who had no direct personal connections to the industry. It has 
always seemed a conflict of interest that Utah licensing has articles 
written by one of their employees, Carol Sisco, which promote 
wilderness therapy.
    I particularly appreciate that this legislation provides for a 
website for the purpose of disseminating information. I hope that 
advocates such as my self will be allowed to submit public information 
for consideration. ISAC--International Survivor's Action Committee has 
a useful format that could be considered as a model At a minimum, I 
feel it would be useful to provide links to the state licensing page, 
and that states be required to post all investigations of abuse and 
violations of regulations that were cited during monitoring visits. 
Texas and Georgia do post most inspection reports, but Utah and other 
states don't post any.
    One common defense used by state licensing agencies is that there 
is not ample financial resource to adequately monitor these programs. 
Attention should be give to that. Programs should pay a significant 
permit fee and should incur stiff fines for violations of regulations. 
If their record shows repeated violations, they should be put on 
probation and monitored more frequently and incur the necessary expense 
of this extra monitoring. Just as reckless drivers pay a higher 
insurance premium. The taxpayer should not bear the burden.
    I'm very pleased about the National Hotline. Careful thought should 
be given to how to ensure that children and staff have access to that 
phone at all times. If a program is ever found to have denied access to 
or retaliated for a call placed to the hotline, that should be grounds 
for immediate revocation of their permit and significant fine. 
Ironically, these programs desperately need the discipline and 
consequences that they purport to provide to children.
    NATSAPs creation was funded by the owner of HLA. They claim that 
their programs are either licensed or accredited with agencies such as 
JCAHO, giving parents a false sense of security. Last I checked, only 
\1/3\ of their programs were licensed. Most parents do not understand 
the difference between the terms ``licensed'' and ``accredited'' and 
what aspect of the program are monitored by each. Fourteen deaths at 
Vision Quest and still accredited by JCAHO. Four deaths at Catherine 
Freer and still accredited. Ironically, Paul Smith of CF was appointed 
to JCAHOs Behavioral Health Advisory Board and CF was selected as a 
test site for the purpose of ``sharpening the focus on the 
accreditation process, emphasizing safety and quality of patient 
care''. Considered an ``Industry Leader'', there had been 3 deaths at 
CF at that time, and a fourth shortly after.
    Regarding Sen McKowen's comment regarding the lack of criminal 
action in these deaths, there are several reasons I believe this to be. 
First and foremost, there appears to be a general feeling that these 
kids deserve what they get, by some citizens, judges, and prosecutors. 
On Track Wilderness, displeased with the first Medical Examiner's 
stated cause of death, hired a private Medical Examiner who coined the 
term ``excited delirium'' which puts the blame for a child's death 
during restraint squarely on the child. Appalling, but true. This was 
the Chase Moody death. If one investigates thoroughly, they will find 
the reasons there are no criminal charges filed. But, that is possibly 
a different investigation.
    I will close there. It is very difficult, as this is but the tip of 
the iceberg. I have been researching and compiling information on the 
industry and the people involved for seven years. I would love to put 
that information to good use, and would be happy to answer any 
questions or provide further information that might assist this 
investigation.
    Thank you again for your time.
            Sincerely,
                                   Deborah Thomas-Vigliano,
                                                      Plano, Texas.
                                 ______
                                 
    [Questions submitted to the witnesses and their responses 
follow:]
                             U.S. House of Representatives,
                                       Washington, DC, May 9, 2008.
Christopher Bellonci, M.D.,
Medical Director and Senior Clinical Consultant, Walker School, 
        Needham, MA.
    Dear Dr. Bellonci: Thank you for testifying at the April 24, 2008 
full Committee hearing, ``Child Abuse and Deceptive Marketing by 
Residential Programs for Teens.'' Below are the questions which 
Committee members have asked you to respond for the record. Please send 
an electronic version of your written response the Committee staff. If 
you have any questions, please contact us.
    Ranking Member Howard P. ``Buck'' McKeon (R-CA) has asked that you 
respond to the following questions:
    1. Does the Department of Health and Human Services (HHS) have the 
capacity to carry out direct Federal regulation of the variety of 
residential treatment centers discussed at the hearing?
    2. If not, how long would it take HHS to develop the capacity?
    3. How many staff would HHS have to hire to carry out inspections 
of every program and location in the country? How many staff would HHS 
have to hire to investigate all reports of child abuse and neglect 
reported by the states and all complaints of child abuse or neglect 
received by the proposed national hotline?
    4. If States were able to do a good job of regulating these 
programs, would direct Federal regulation be necessary?
    Thank you for your time at the hearing and in responding to these 
questions.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

           Follow-Up Statement of Christopher Bellonci, M.D.

    Dear Chairman Miller: The Ranking Member, Howard P. ``Buck'' McKeon 
has asked me to respond to several additional questions since I 
provided testimony before your committee on April 24th. The first three 
questions address the capacity of HHS to the goals of your legislation 
entitled ``Stop Child Abuse in Residential Programs for Teens Act of 
2008''. In that regard I am not prepared to render an opinion as I have 
no knowledge of the functions and capacities of the HHS.
    Regarding the fourth question, addressing whether Federal oversight 
would be needed if States were doing a better job of regulating these 
programs, I have some thoughts. I think there is an appropriate role 
for the Federal government to set clear definitional guidelines of what 
qualifies as a Residential treatment center, a therapeutic boarding 
school, a wilderness program or a bootcamp. These terms are often used 
interchangeably and add to the confusion that exists for parents and in 
the field of children's behavioral health. Once definitions were agreed 
to, then States could more easily enforce regulation that may already 
exist or develop or amend legislation and regulation if needed. 
Unfortunately, experience has shown that States have either lacked the 
ability or the will to regulate and license these programs on their 
own, leaving untold thousands of children, youth and families 
vulnerable to predatory marketing practices as was heard during your 
hearings on this topic.
    I hope that this additional testimony is helpful as the committee 
continues its deliberations.
            Sincerely,
                                 Christopher Bellonci, M.D.
                                 ______
                                 
                             U.S. House of Representatives,
                                       Washington, DC, May 2, 2008.
Ms. Kay Brown, Director,
Education, Workforce, and Income Security, the U.S. Government 
        Accountability Office, Washington, DC.
    Dear Ms. Brown: Thank you for testifying at the April 24, 2008 full 
Committee hearing, ``Child Abuse and Deceptive Marketing by Residential 
Programs for Teens.'' Below are the questions which Committee members 
have asked you to respond for the record. Please send an electronic 
version of your written response the Committee staff. If you have any 
questions, please contact us.
    Ranking Member Howard P. ``Buck'' McKeon (R-CA) has asked that you 
respond to the following questions:
    1. Does the Department of Health and Human Services (HHS) have the 
capacity to carry out direct Federal regulation of the variety of 
residential treatment centers discussed at the hearing?
    2. If not, how long would it take HHS to develop the capacity?
    3. How many staff would HHS have to hire to carry out inspections 
of every program and location in the country? How many staff would HHS 
have to hire to investigate all reports of child abuse and neglect 
reported by the states and all complaints of child abuse or neglect 
received by the proposed national hotline?
    4. If States were able to do a good job of regulating these 
programs, would direct Federal regulation be necessary?
    Representative Robert Scott (D-VA), has asked for your 
recommendations on oversight for programs not covered under the 
definition of H.R. 5876 that you thought should be covered.
    Representative Todd Platts (R-PA) has asked for a description of 
the ideal oversight/regulation that should be practiced by states; and
    Representative Platts also asked that you submit the CRIPA report 
referenced during your testimony for the record.
    Thank you for your time at the hearing and in responding to these 
questions.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

                  Follow-Up Statement of Kay E. Brown

    Dear Chairman Miller: Mr. Chairman: This correspondence addresses 
questions submitted by committee Members to the GAO on May 2, 2008 
following our testimony at the above-referenced hearing.
Questions Submitted by Ranking Member Howard P. ``Buck'' McKeon
    1. Does the Department of Health and Human Services (HHS) have the 
capacity to carry out direct federal regulation of the variety of 
residential treatment centers discussed at the hearing?
    2. If not, how long would it take HHS to develop the capacity?
    3. How many staff would HHS have to hire to carry out inspections 
of every programs and location in the country? How many staff would HHS 
have to hire to investigate all reports of child abuse and neglect 
reported by the states and all complaints of child abuse or neglect 
received by the proposed national hotline?
    4. If states were able to do a good job of regulating these 
programs, would direct federal regulation be necessary?
    GAO Response: We do not have the information necessary to respond 
to questions regarding the capacity of HHS and the staff needed to 
directly regulate residential facilities. This information is beyond 
the scope of our study.
    Regarding the question of whether direct federal regulation would 
be needed if states were able to do a good job of regulating 
residential facilities: We found that states' regulation and oversight 
and the existing patchwork of federal legislation and oversight have 
failed to provide needed protections to youth in some facilities. 
However, in our forthcoming report to be issued in mid-May, 2008 (see 
Residential Facilities: Improved Data and Enhanced Oversight Would Help 
Safeguard the Well-Being of Youth with Behavioral and Emotional 
Challenges, GAO-08-346), we identify actions that states, federal 
agencies, and the Congress could take, either together or 
independently, to address these issues, and we offer policy options for 
each to consider. Options for states focus on ways to expand and 
improve oversight for residential facilities. States could expand 
licensing coverage to establish minimum standards for youth in all 
facilities. In some cases, this would require changes in state law or 
regulation. Other options include requiring accreditation for all 
residential facilities that serve youth, either in addition to or in 
lieu of licensing, or creating common contract provisions for all 
facilities. States would need to devote the necessary resources to 
support regular and effective monitoring to ensure that their new 
efforts were achieving the goals.
Question Submitted by Representative Robert Scott
    What are GAO's recommendations for oversight of programs not 
covered under the definition of H.R. 5876 that GAO thinks should be 
covered?
    GAO Response: Our report showed that youth well-being was at 
greater risk in all types of government operated and private facilities 
that did not benefit from the full spectrum of oversight activities, 
such as licensing, standards of care that address common risks to youth 
well-being, and monitoring. We identified gaps in licensing for both 
government-operated and private facilities--such as juvenile justice 
facilities and residential schools and academies. As currently written, 
H.R. 5876 covers a wide range of types of residential facilities, 
including private facilities. It is important to cover all types of 
private facilities to prevent facility operators from self-identifying 
their program as a type that is not covered by state licensing or, in 
this case, by federal oversight.
    However, the bill does not cover programs that are operated by a 
governmental entity. Based on our work, we have found that some 
government operated facilities, such as juvenile justice facilities, 
are often exempt from state licensing requirements altogether. Annual 
reports prepared by the Department of Justice Civil Rights Division 
document patterns of severe youth maltreatment and civil rights 
violations in these government-operated facilities. Therefore, our 
report results would support a comprehensive system of licensing for 
all residential facilities with the common goal of serving youth with 
behavioral and emotional challenges, regardless of type of facility or 
whether such facilities were owned or operated by government or private 
entities.
Question Submitted by Representative Todd Platts
    What is a description of the ideal oversight/regulation that should 
be practiced by states?
    Please submit a copy of the CRIPA report referenced during the GAO 
testimony.
    GAO Response: Our forthcoming report describes a set of fundamental 
elements that are needed for an effective oversight system. These 
include:
    <bullet> minimum standards of care that address the primary risks 
to all aspects of youth well-being;
    <bullet> comprehensive state licensing that covers the spectrum of 
facilities with the common goal of serving youth with behavioral and 
emotional challenges, regardless of ownership, operation, and type;
    <bullet> regular, timely, and rigorous monitoring that includes 
announced and unannounced on-site visits to ensure facility compliance 
with standards;
    <bullet> a full range of enforcement options to give oversight 
bodies the flexibility to quickly address identified problems depending 
on their severity;
    <bullet> data collection and reporting systems that can act as a 
feedback loop to assess adequacy of oversight efforts, identify areas 
of weakness or risk, and inform changes in oversight policy; and
    <bullet> disclosure of data and reports to government agencies and 
the public to allow them to make informed choices about use of 
facilities.
    It should be noted that these elements together form the foundation 
for a minimum system of oversight to help ensure the safety of youth in 
residential facilities. For example, the basic standards we cover in 
our in our report include requirements that facilities pass inspection 
of the physical plant and have procedures in place for use of approved 
seclusion and restraint techniques, among others. However, these basic 
standards do not address the quality of the services provided or ensure 
a facility's success in helping youth address their behavioral or 
emotional challenges.
    The past three CRIPA reports used in the GAO testimony for fiscal 
years 2004, 2005, and 2006, are included as attachments to this 
correspondence. In addition, these reports and other information on 
investigations done under the auspices of the Civil Rights for 
Institutionalized Persons Act can be found on the following Web site 
http://www.usdoj.gov/crt/split/findsettle.htm#congrep.
    We appreciate the opportunity to provide this information to you 
and the committee on the issues of safeguarding youth well-being in 
residential facilities. We would be happy to provide any additional 
information upon your request.
            Sincerely,
                                    Kay E. Brown, Director,
        Education, Workforce, and Income Security, U.S. Government 
                                             Accountability Office.
                                 ______
                                 
                             U.S. House of Representatives,
                                       Washington, DC, May 9, 2008.
Mr. Gregory D. Kutz, Managing Director,
Forensic Audits and Special Investigations, the U.S. Government 
        Accountability Office, Washington, DC.
    Dear Mr. Kutz: Thank you for testifying at the April 24, 2008 full 
Committee hearing, ``Child Abuse and Deceptive Marketing by Residential 
Programs for Teens.'' Below are the questions which Committee members 
have asked you to respond for the record. Please send an electronic 
version of your written response (in Word format) to Sarah Dyson of the 
Committee staff at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86f5e7f4e7eea8e2fff5e9e8c6ebe7efeaa8eee9f3f5e3a8e1e9f0a8">[email&#160;protected]</a> If you have any 
questions, please contact Ms. Dyson at (202) 226-9403.
    Ranking Member Howard P. ``Buck'' McKeon (R-CA) has asked that you 
respond to the following questions:
    1. Does the Department of Health and Human Services (HHS) have the 
capacity to carry out direct Federal regulation of the variety of 
residential treatment centers discussed at the hearing?
    2. If not, how long would it take HHS to develop the capacity?
    3. How many staff would HHS have to hire to carry out inspections 
of every program and location in the country? How many staff would HHS 
have to hire to investigate all reports of child abuse and neglect 
reported by the states and all complaints of child abuse or neglect 
received by the proposed national hotline?
    4. If States were able to do a good job of regulating these 
programs, would direct Federal regulation be necessary?
    Thank you for your time at the hearing and in responding to these 
questions.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

                  Follow-Up Statement of Gregory Kutz

    Dear Chairman Miller: This correspondence addresses questions 
submitted by Ranking Member Howard P. ``Buck'' McKeon to Gregory Kutz, 
Managing Director, Forensic Audits and Special Investigations (FSI), on 
May 9, 2008, following our testimony at the above-referenced hearing.
Questions Submitted
    1. Does the Department of Health and Human Services (HHS) have the 
capacity to carry out direct Federal regulation of the variety of 
residential treatment centers discussed at the hearing?
    2. If not, how long would it take HHS to develop the capacity?
    3. How many staff would HHS have to hire to carry out inspections 
of every program and location in the country? How many staff would HHS 
have to hire to investigate all reports of child abuse and neglect 
reported by the states and all complaints of child abuse or neglect 
received by the proposed national hotline?
    4. If States were able to do a good job of regulating these 
programs, would direct Federal regulation be necessary?
    In addition to these questions, you asked FSI to create a chart 
that reflects the state and local response and outcome of any 
investigation or action taken by the state for the cases of death and 
abuse FSI examined.
GAO Response
    In a letter dated May 8, 2008, GAO's Education, Workforce, and 
Income Security (EWIS) Director, Kay Brown, who also testified at the 
Committee's April 24, 2008 hearing, submitted GAO's response to these 
four questions. Similar to the EWIS response, FSI does not have any 
information to respond to questions regarding the capacity of HHS and 
the staff needed to directly regulate residential facilities or 
investigate complaints of child abuse received by a national hotline. 
This information is beyond the scope of FSI's work.
    Regarding the question of whether federal regulation would be 
necessary if states were able to ``do a good job'' of regulating 
residential facilities:
    As previously cited by EWIS in their response submitted May 8, 
2008, GAO found that states' regulation and oversight and the existing 
patchwork of federal legislation and oversight have failed to provide 
needed protections to youth in some facilities. FSI found that, in some 
cases, even after action was taken against a program or staff member in 
one jurisdiction, that program or staff member was able to move beyond 
the jurisdiction of the admonishing court or agency and continue 
working in the industry in another jurisdiction, potentially placing 
additional children at risk of abuse or neglect.
    GAO identified gaps in licensing for both government-operated and 
private facilities. A comprehensive system of licensing for all 
residential facilities is important to prevent facility operators from 
self-identifying their program as a type that is not covered by state 
licensing. FSI found that in some cases, even though a facility held 
one type of state license to operate, it did not have the required 
state license to provide the types of services it offered to the 
children under their care. States allowed some facilities to operate or 
obtain licensing even though they employed direct care staff not 
qualified or trained to effectively deal with the risks and problems 
children under their care were likely to experience, which sometimes 
resulted in the abuse, neglect, and death of those children. We 
reiterate that common definitions, minimum standards of care that 
address the primary risks to all aspects of youth well-being, and 
comprehensive licensing requirements that cover the spectrum of 
facilities with the common goal of serving youth with behavioral and 
emotional challenges are needed to safeguard children placed in these 
facilities (regardless of whether such facilities are owned or operated 
by government or private entities).
    The lack of minimum standards of care and definitions common to all 
facilities located in all states hinders consumers' ability to identify 
the types of services a particular facility is required or even likely 
to provide. Parents and guardians do not have access to information 
that would help verify the qualifications or past history of the 
program or its staff. And in the cases we examined, the majority of the 
children were placed in programs located far from their state of 
residence, presenting additional obstacles for those parents and 
guardians to gain access to information.
    Local or state law enforcement and state child protective service 
agencies may lack the ability to investigate complaints filed against 
facilities. They have cited obstacles such as being required to rely on 
the cooperation of facility operators for access to staff and potential 
victims; failure of facilities to report incidents or complaints of 
alleged abuse received or identified by the facility; or that they 
otherwise lack the authority they feel is needed to adequately 
investigate complaints of abuse.
    In addition to the questions addressed above, you asked FSI to 
create a chart that reflects the state and local response and outcome 
of any investigation or action taken by the state for the cases of 
death and abuse FSI examined. This chart accompanies this letter as 
Enclosure I.
    We appreciate the opportunity to provide this information to you. 
If you have any questions, please contact me at (202) 512-9505 or Andy 
O'Connell at (202) 512-7449.
            Sincerely,
                           Gregory Kutz, Managing Director,
                        Forensic Audits and Special Investigations.

Enclosure--1.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

                             U.S. House of Representatives,
                                       Washington, DC, May 9, 2008.
Jon Martin-Crawford,
57 Hoose Blvd, Fishkill, NY.
    Dear Mr. Martin: Thank you for testifying at the April 24, 2008 
full Committee hearing, ``Child Abuse and Deceptive Marketing by 
Residential Programs for Teens.'' Below are the questions which 
Committee members have asked you to respond for the record. Please send 
an electronic version of your written response the Committee staff. If 
you have any questions, please contact us.
    Ranking Member Howard P. ``Buck'' McKeon (R-CA) has asked that you 
respond to the following questions:
    1. Does the Department of Health and Human Services (HHS) have the 
capacity to carry out direct Federal regulation of the variety of 
residential treatment centers discussed at the hearing?
    2. If not, how long would it take HHS to develop the capacity?
    3. How many staff would HHS have to hire to carry out inspections 
of every program and location in the country? How many staff would HHS 
have to hire to investigate all reports of child abuse and neglect 
reported by the states and all complaints of child abuse or neglect 
received by the proposed national hotline?
    4. If States were able to do a good job of regulating these 
programs, would direct Federal regulation be necessary?
    Thank you for your time at the hearing and in responding to these 
questions.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

               Follow-Up Statement of Jon Martin-Crawford

    Dear Chairman Miller: I apologize for the time it has taken to 
respond to the questions asked, as I have been somewhat busy with my 
educational requirements. Unfortunately, I can not answer the majority 
of the questions as asked, because I am in no position to do given my 
lack of understanding of the scope and necessity such a program would 
entail. However, I do feel as if I can honestly, and quite helpfully, 
offer my insights on the final question.
    When asked if this is a problem that the states can handle without 
federal intervention, the answer is clearly not as easy as we would 
like. While ideally, this is a situation that all states should be able 
to manage, it is clear that it is not something that has been done thus 
far, while numerous states have been contacted about the abuses that go 
on. Additionally, as was pointed out in the first hearing on October 
10th, 2007, part of the problem with this industry is the ability for 
programs to pick up and move from one state to the next, thus avoiding 
reporting and penalty.
    The ideal would be for all states to establish their own 
regulations that are up to the same standards, or in excess of the 
standards, of what has already been included in H.R. 5876. However, 
until such time as the states act upon this call, it is evident that 
the catalyst for such regulation must come from the federal government. 
Just as was in the case with the paramount case of Brown v Board of 
Ed., and other cases of integration during that important time in U.S. 
History, it is clear that the federal government has an obligation in 
this case to ensure proper and safe treatment for its most important 
citizens * * * the children. As a nation, we are focused on bringing 
evil to justice and being the leaders of a free, democratic world. We 
have a responsibility to do so. Part of this responsibility starts 
right here in our own home.
    Many programs, already have called this legislation something that 
is going to give ``drug dealers and predators'' easy access to 
students. They have called for state, rather than any federal 
legislation. They have repeated this empty claim for years. Jan Moss of 
NATSAP sat and made the same statement, later creating a link for an 
``ethical complaint process'' which has ever since been ``under 
construction.'' While the need for programs to help the truly troubled 
is undeniable, we must have a safety net in place to avoid the problems 
that have gone on for far too long.
    The proposed federal legislation is the tip of the iceberg when it 
comes to what is necessary for states to adopt. While it seems to be 
far reaching, the reality is that it is as loose as possible given the 
scope of the problem. As such, I see no possible way for the states to 
regulate such programs on their own until a federal mandate of 
regulations is in place. Once each state meets such standards and is 
able to self regulate in a safe and open way, perhaps the federal 
legislation would be able to back off. Regardless, the suggestion of a 
national reporting and statistics website is something that is useful 
for the long haul, and should be implemented as quickly as possible. 
Since the hearing, it is frightening how many parents have already 
contacted myself and Mrs. Whitehead about such programs and their fears 
of not knowing whether or not a program is safe. Without accurate 
reporting parents are in the dark and childrens' lives are in the 
balance. Please ensure that this bill moves quickly and efficiently 
through the necessary channels. It is of the most crucial importance 
for our future generations.
            Sincerely,
                                       Jon Martin-Crawford.
                                 ______
                                 
                             U.S. House of Representatives,
                                       Washington, DC, May 9, 2008.
Ms. Kathryn Whitehead,
277 Starr St., Brooklyn NY.
    Dear Ms. Whitehead: Thank you for testifying at the April 24, 2008 
full Committee hearing, ``Child Abuse and Deceptive Marketing by 
Residential Programs for Teens.'' Below are the questions which 
Committee members have asked you to respond for the record. Please send 
an electronic version of your written response the Committee staff. If 
you have any questions, please contact us.
    Ranking Member Howard P. ``Buck'' McKeon (R-CA) has asked that you 
respond to the following questions:
    1. Does the Department of Health and Human Services (HHS) have the 
capacity to carry out direct Federal regulation of the variety of 
residential treatment centers discussed at the hearing?
    2. If not, how long would it take HHS to develop the capacity?
    3. How many staff would HHS have to hire to carry out inspections 
of every program and location in the country? How many staff would HHS 
have to hire to investigate all reports of child abuse and neglect 
reported by the states and all complaints of child abuse or neglect 
received by the proposed national hotline?
    4. If States were able to do a good job of regulating these 
programs, would direct Federal regulation be necessary?
    Thank you for your time at the hearing and in responding to these 
questions.
                                 ______
                                 

                Follow-Up Statement of Kathryn Whitehead

    Dear Chairman Miller: In response to Ranking Member McKeon's 
request for a response for the record, I regret I am unqualified to 
comment on the first 3 questions. I would like to submit a response for 
the record on question 4.
    If States were able to do a job of regulating these programs, would 
direct Federal legislation be necessary?
    I do believe that federal regulation would play an important role 
in assuring youth safety and program accountability even in the event 
that effective regulation and monitoring policies were in place at the 
state level. I will touch upon the 3 concerns I have surrounding the 
loopholes that would remain present.
    1. The history of the industry's fluidity, by which program 
operators easily relocate from one state to another, suggests a need 
for some type of monitoring at the federal level. Without federal 
regulation, a facility may easily be shut down in one state and open in 
a different state, under a different name. At the very least, the 
federal government should maintain a mechanism for tracking programs 
that have been closed for cause to ensure that they do not re-open in 
another state. Furthermore, in the event that one state has less 
stringent standards of oversight in scope and reach, parents may easily 
be deceived into thinking the same protections exist in the state in 
which they reside.
    2. States do not maintain the same level of regulatory standards 
and thus there is variability across state lines. This problem can be 
addressed by setting a national level of requirements that becomes the 
basis for state regulation. Youth are often sent to a state they are 
not resident of. A white paper issued by the Department of Public 
Health and Human Services in the state of Montana titled, ``Unregulated 
Youth Residential Care Programs in Montana,'' it was estimated that 
ninety to 95 % of youth placed in ``therapeutic residential schools or 
programs'' are from out of state. In the best interest of youth, such 
interstate commerce of minors should receive federal oversight.
    3. The historical failure of the ability of families to hold 
facilities accountable suggests a need for federal legislation such as 
H.R. 5876, which contains the ``Private Right of Action'' clause and 
will help circumvent the obstacles which have arisen when families 
attempt to hold programs accountable in court for their failure to meet 
the standards advertised or maltreatment of their child. By allowing 
for jurisdictional expansion and for courts to award punitive damage 
and costs, such as attorney fees, families will not be limited to seek 
justice in a state or county with a vested interest in the promoting 
the particular program accused or industry and help make cases more 
attractive to attorneys.
            Sincerely,
                                         Kathryn Whitehead.
                                 ______
                                 
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
